<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for inclusion in the 
record. The submitted materials relate to the fiscal year 2013 
budget request for programs within the subcommittee's 
jurisdiction.]

                          DEPARTMENTAL WITNESS

          Prepared Statement of the Farm Credit Administration
    Mr. Chairman, Members of the Subcommittee, I am Leland A. Strom, 
Chairman and Chief Executive Officer of the Farm Credit Administration 
(FCA or Agency). On behalf of my colleagues on the FCA Board, Kenneth 
Spearman of Florida and Jill Long Thompson of Indiana, and all the 
dedicated men and women of the Agency, I am pleased to provide this 
testimony.
    Before I discuss the Agency's role, responsibilities, and budget 
request, I would like to thank the Subcommittee staff for its 
assistance during the budget process. Also, I would respectfully bring 
to the Subcommittee's attention that the funds used by FCA to pay its 
administrative expenses are assessed and collected annually from the 
Farm Credit System (FCS or System) institutions we regulate and 
examine--the FCS banks, associations, and service corporations, and the 
Federal Agricultural Mortgage Corporation (Farmer Mac). FCA does not 
receive a Federal appropriation.
    Earlier this fiscal year, the Agency submitted a proposed total 
budget request of $64,130,601 for fiscal year 2013. FCA's proposed 
budget for fiscal year 2013 includes funding from current and prior 
assessments of $63,300,000 on System institutions, including Farmer 
Mac. Almost all this amount (approximately 83 percent) goes for 
salaries, benefits, and related costs.
    A key factor driving the fiscal year 2013 budget is the Agency's 
need to hire and train qualified individuals to replace the many 
employees who are expected to retire soon. We must ensure that our 
staff has the skills it needs to address changes in the agricultural 
industry and the complexities of agricultural finance. Also, changes in 
the organization and structure of the System itself are presenting 
challenges. On January 1, 2012, two System banks merged, representing 
the largest merger in the history of the FCS. As System institutions 
continue to merge and grow larger and more complex, the Agency must 
dedicate more resources to examining and overseeing these institutions. 
The funding we have requested for fiscal year 2013 will allow us to 
hire and train the people we need to continue to properly examine, 
oversee, and regulate the System.
               mission of the farm credit administration
    As directed by Congress, FCA's mission is to ensure a safe, sound, 
and dependable source of credit and related services for agriculture 
and rural America. The Agency accomplishes its mission in two important 
ways. First, FCA protects the safety and soundness of the FCS by 
examining and supervising all FCS institutions, including Farmer Mac, 
and ensures that the institutions comply with applicable laws and 
regulations. Our examinations and oversight strategies focus on an 
institution's financial condition and any material existing or 
potential risk, as well as on the ability of its board and management 
to direct its operations. We also evaluate each institution's 
compliance with laws and regulations to ensure that it serves all 
eligible borrowers, including young, beginning, and small farmers and 
ranchers. If a System institution violates a law or regulation or 
operates in an unsafe or unsound manner, we use our supervisory and 
enforcement authorities to take appropriate corrective action. Second, 
FCA develops policies and regulations that govern how System 
institutions conduct their business and interact with customers. FCA's 
policy and regulation development focuses on protecting System safety 
and soundness; implementing the Farm Credit Act; providing minimum 
requirements for lending, related services, investments, capital, and 
mission; and ensuring adequate financial disclosure and governance. The 
policy development program includes approval of corporate charter 
changes, System debt issuance, and other financial and operational 
matters.
          examination programs for fcs banks and associations
    To help ensure the safety and soundness of FCS institutions, FCA 
uses examination and supervision processes to address material risks 
and emerging issues at the institution level and across the System. The 
Agency bases its examination and supervision strategies on institution 
size, existing and prospective risk exposure, and the scope and nature 
of each institution's business model. We monitor agricultural, 
financial, and economic risks that may affect groups of institutions or 
the entire System. Given the increasing complexity and risk in the 
System and human capital challenges at FCA, we have undertaken a number 
of initiatives to improve operations, increase examination 
effectiveness, and enhance staff expertise in key examination areas.
    The frequency and depth of examination activities vary based on 
risk, but each institution receives a summary of examination activities 
and a report on its overall condition at least every 18 months. FCS 
institutions are required to have effective loan underwriting and loan 
administration processes, to properly manage assets and liabilities, to 
establish high standards for governance, and to provide transparent 
disclosures to shareholders. FCA's examination and supervision program 
promotes accountability in FCS institutions by providing a framework to 
help institutions identify and manage risks. In addition, FCA is 
closely watching rapidly rising real estate values in certain sections 
of the country to ensure that FCS lending practices remain prudent. FCA 
may use its enforcement powers to effect changes in an institution's 
policies and practices to correct unsafe or unsound conditions or 
violations of law or regulations.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Source: FCA's FIRS Ratings Database. The above chart includes only the 
System banks and their affiliated direct-lender associations. The 
figures in the bars reflect the number of institutions by FIRS rating.

    The Agency uses the Financial Institution Rating System (FIRS) to 
assess the safety and soundness of each FCS institution. The system 
provides a framework of component and composite ratings to help 
examiners evaluate significant financial, asset quality, and management 
factors. FIRS ratings range from 1 for a sound institution to 5 for an 
institution that is likely to fail. As the chart above indicates, the 
System remains financially strong overall. Institutions are well 
capitalized, and the FCS does not pose material risk to investors in 
FCS debt, the Farm Credit System Insurance Corporation, or to FCS 
institution stockholders.
    Although the System's condition and performance remain satisfactory 
overall, several institutions are experiencing stress and now require 
special supervision and enforcement actions. Factors causing the stress 
include weaknesses in the Nation's economy and credit markets, a 
rapidly changing risk environment in certain agricultural segments, 
and, in certain cases, management's ineffective response to these 
risks. We have increased supervisory oversight at a number of 
institutions and dedicated additional resources in particular to those 
13 institutions rated 3 or worse. Although these institutions represent 
about 2 percent of System assets and do not meaningfully affect the 
System's consolidated performance, they require significantly greater 
Agency resources to oversee. As of December 31, 2011, seven FCS 
institutions were under formal enforcement action, but no FCS 
institutions are in conservatorship or receivership.
                  regulatory and corporate activities
    Regulatory Activities.--Congress has given the FCA Board statutory 
authority to establish policy, prescribe regulations, and issue other 
guidance to ensure that FCS institutions comply with the law and 
operate in a safe and sound manner. The Agency is committed to 
developing balanced, flexible, and legally sound regulations. Current 
regulatory and policy projects include the following:
  --Revising regulations to implement the requirements of the Dodd-
        Frank Act;
  --Revising regulations to ensure that FCS funding and liquidity 
        requirements are appropriate and to ensure that the discounts 
        applied to investments reflect their marketability;
  --Revising regulations to require that each FCS institution's 
        business plan includes strategies and actions to serve all 
        creditworthy and eligible persons in the institution's 
        territory and to achieve diversity and inclusion in its 
        workforce and marketplace;
  --Enhancing our risk-based capital adequacy framework to make it more 
        consistent with the Basel Accord and with that of other Federal 
        financial regulating authorities;
  --Revising regulations to enhance System disclosures and compliance 
        requirements for executive compensation, pension, and other 
        benefit programs;
  --Strengthening investment-management regulations to ensure that 
        prudent practices are in place for the safe and sound 
        management of FCS investment portfolios;
  --Revising regulations to provide guidance on the statutory and 
        regulatory authority related to rural community investments;
  --Revising regulations to provide the parameters under which an FCS 
        institution may organize or invest in LLCs, LLPs, and other 
        unincorporated business entities;
  --Clarifying and strengthening standards-of-conduct regulations; and
  --Revising regulations related to FCS bank and association mergers 
        and consolidations.
    Corporate Activities.--Because of mergers, the number of FCS 
institutions has declined over the years, but their complexity has 
increased, placing greater demands on both examination staff resources 
and expertise. Generally, these mergers have resulted in larger, more 
cost-efficient, and better-capitalized institutions with a broad, 
diversified asset base, both by geography and commodity. Thus far in 
fiscal year 2012, two banks have merged, and two associations have 
merged. In addition, a new service corporation was chartered. As of 
January 1, 2012, the System had 83 direct-lender associations, four 
banks, six service corporations, and two special-purpose entities.
                          condition of the fcs
    The System remained fundamentally safe and sound in 2011 and is 
well positioned to withstand the continuing challenges affecting the 
general economy and agriculture. Total capital increased to $35.9 
billion at September 30, 2011, up from $33.0 billion a year earlier. In 
addition, more than 81 percent of total capital is in the form of 
earned surplus, the most stable form of capital. The ratio of total 
capital to total assets increased to 15.8 percent at September 30, 
2011, compared with 15.0 percent the year before, as strong earnings 
allowed the System to continue to grow its capital base.
    Because of stronger agricultural profits, which reduced the need 
for farmers to borrow, the System experienced slower loan growth. In 
total, gross loans grew by 1.3 percent over the 12-month period ended 
September 30, 2011, compared with 3.9 percent during the previous 
period. Nonperforming loans decreased modestly to $3.3 billion at the 
end of fiscal year 2011, representing 9.2 percent of total capital, 
down from 11.3 percent a year earlier. However, although credit quality 
has been improving and is satisfactory overall, volatility in commodity 
prices, rising input prices, and weaknesses in the general economy pose 
continued risks to some agricultural operators, creating the potential 
for a reversal of this trend.
    The FCS earned $3.0 billion in the first 9 months of 2011, a 13.7 
percent increase from the same period in 2010. Return on assets 
remained favorable at 1.7 percent. The System's liquidity position 
increased from 172 days as of September 30, 2010, to 200 days a year 
later, remaining significantly above the 90-day regulatory minimum. The 
quality of the System's liquidity reserves also improved in 2011. 
Further strengthening the System's financial condition is the Farm 
Credit Insurance Fund, which holds almost $3.4 billion. Administered by 
the Farm Credit System Insurance Corporation, this fund protects 
investors in Systemwide consolidated debt obligations.
    U.S. agriculture just experienced back-to-back years of exceptional 
profitability. According to U.S. Department of Agriculture estimates, 
combined net farm income for 2010 and 2011 is 23 percent higher than 
for 2008 and 2009. Higher farm incomes reflect rising prices for key 
crops. However, farm prosperity has not been uniform--because of high 
feed costs, profits were lower for livestock producers than for crop 
producers. Despite continued financial stress among certain livestock 
enterprises, such as dairy, farm finances were generally strong going 
into 2012. While many farmers have significantly increased capital 
investments, they have done so using excess cash and limited their use 
of credit. For those farmers borrowing money, they are paying some of 
the lowest interest rates of their lifetime.
    U.S. farm incomes for 2012 may well hinge on the ability of farmers 
across the globe to expand production enough to alleviate tight world 
stocks of key crops. Greatly improved weather and higher plantings 
could turn shortages of key crops such as corn and soybeans into 
surpluses quickly, thus causing prices to fall. Meanwhile, future world 
economic growth and, hence, food demand, remains uncertain, as does the 
exchange value of the dollar and government policies that affect 
agriculture and energy. As a result, commodity prices will probably 
remain volatile.
    An increasing risk to the farm sector's financial health is the 
persistent rise in production costs. The surge in farmland prices and 
rental rates have driven production costs even higher, especially over 
the past 2 years. This is most notable in the Midwest where corn and 
soybeans are the main enterprises. In some States, farmland prices now 
significantly exceed inflation-adjusted records. These prices could 
drop significantly if grain prices fall or interest rates climb. While 
the percentage of debt being used to purchase land appears to be 
modest, FCA continues to closely monitor farmland values and associated 
risk to loan collateral across the System. In addition, FCA continues 
to exchange ideas and meet with other banking regulators to determine 
the most appropriate regulator response to risks associated with rising 
land values.
    The System had full access to the capital markets during 2011, 
which further increased its overall financial strength and its ability 
to serve its mission. In addition, as a Government-sponsored enterprise 
(GSE), the System has benefited from the monetary policies that have 
helped foster historically low interest rates. Despite continued 
volatility in the financial markets, investor demand for System debt 
has remained favorable across the yield curve. Because of low interest 
rates, the System was able to exercise the options on significant 
quantities of callable bonds to further reduce the cost of funds. For 
2012, the System expects that the capital markets will continue to meet 
its financing needs.
               federal agricultural mortgage corporation
    Congress established Farmer Mac in 1988 to establish a secondary 
market for agricultural real estate and rural housing mortgage loans. 
Farmer Mac creates and guarantees securities and other secondary market 
products that are backed by agricultural real estate mortgages and 
rural home loans, USDA guaranteed farm and rural development loans, and 
rural utility loans made by cooperative lenders. Through a separate 
office required by statute (Office of Secondary Market Oversight), the 
Agency regulates, examines, and supervises Farmer Mac's operations.
    Farmer Mac is a GSE devoted to making funds available to 
agriculture and rural America through its secondary market activities. 
Under specific circumstances defined by statute, Farmer Mac may issue 
obligations to the U.S. Treasury Department, not to exceed $1.5 
billion, to fulfill the guarantee obligations on Farmer Mac Guaranteed 
Securities. Farmer Mac is not subject to any intra-System agreements 
and is not jointly and severally liable for Systemwide debt 
obligations. Moreover, the Farm Credit Insurance Fund does not back 
Farmer Mac's securities.
    Farmer Mac made financial progress during fiscal year 2011. 
Although GAAP net income was down from 2010, this decline was largely 
the result of unrealized gains and losses; however, core earnings, a 
measure based more on cash flow, was up by 50 percent. As of September 
30, 2011, Farmer Mac's core capital totaled $461.3 million, which 
exceeded its statutory requirement of $336.6 million. The result is a 
capital surplus of $124.7 million, down from $183.2 million as of 
September 30, 2010. The total portfolio of loans, guarantees, and 
commitments grew 3.2 percent to $11.8 billion.
    Farmer Mac's program-business portfolio shows stress in certain 
subsectors, but credit risk remains manageable. Stress in the ethanol 
industry, as well as certain crop and permanent planting segments, 
contributed to an increase in the nonperforming loan rate. The 
nonperforming loan rate was 1.46 percent at September 30, 2011, 
compared with 1.86 percent a year earlier. Loans more than 90 days 
delinquent decreased from 1.53 percent at September 30, 2010, to 1.02 
percent a year later.
    Regulatory activity in 2012 that will affect Farmer Mac includes an 
interagency joint final rulemaking to implement provisions of the Dodd-
Frank Act relating to capital and margin requirements for over-the-
counter derivatives that are not cleared through exchanges; a final 
rulemaking on nonprogram investments and liquidity at Farmer Mac; a 
proposed rulemaking to amend regulatory requirements governing 
operating and strategic planning; and a proposed rulemaking to amend 
the Risk-Based Capital Stress Test to reduce its reliance on credit 
ratings.
                               conclusion
    We at FCA remain vigilant in our efforts to ensure that the Farm 
Credit System and Farmer Mac remain financially sound and focused on 
serving agriculture and rural America. It is our intent to stay within 
the constraints of our fiscal year 2013 budget as presented, and we 
continue our efforts to be good stewards of the resources entrusted to 
us. In addition to appointing a Performance Improvement Officer, we 
have met all of the other requirements of the GPRA Modernization Act 
that apply to our Agency. Our Budget Proposal identifies our goals and 
the performance measures we have developed to help ensure that we use 
our resources judiciously. While we are proud of our record and 
accomplishments, I assure you that the Agency will continue its 
commitment to excellence, effectiveness, and cost efficiency and will 
remain focused on our mission of ensuring a safe, sound, and dependable 
source of credit for agriculture and rural America. This concludes my 
statement. On behalf of my colleagues on the FCA Board and at the 
Agency, I thank you for the opportunity to share this information.

                       NONDEPARTMENTAL WITNESSES

               Prepared Statement of the Ad Hoc Coalition
    Mr. Chairman, Members of the Subcommittee, this statement is 
respectfully submitted on behalf of the ad hoc coalition composed of 
the organizations listed below. The coalition supports sustained 
funding for our Nation's food aid programs, including the Public Law 
480 Title II Food for Peace Program, McGovern-Dole International Food 
for Education, and Food for Progress. We strongly oppose USDA's 
proposal to divert funding away from Food for Peace.
Food Aid's Unique Role
    The donation of American commodities as food aid has been the 
cornerstone of U.S. and global foreign assistance programs since their 
inception, and the need for food aid today is stronger than ever. 
According to USDA's Economic Research Service, 12 million metric tons 
of commodities are needed each year to fill food gaps in the 70 most 
food insecure countries. Food aid, delivered in bags bearing the U.S. 
flag marked ``From the American People'' provides a tangible symbol of 
our Nation's generosity and compassion and builds good will toward the 
American people.
    In recent years, opponents of food aid programs have argued that 
they are not being administered efficiently, and that we should 
therefore just transfer these programming funds over to USAID's 
Emergency Food Security Program (EFSP). Through a variety of reforms, 
such as prepositioning commodities and application of the Famine Early 
Warning System, the speed of delivery and accuracy of food aid 
targeting has been dramatically improved in recent years, leading USAID 
Administrator Shah to announce last summer that the United States is 
now the fastest provider of food assistance at times of crisis and 
emergency. Rather than abandon the demonstrated, life-saving benefits 
of U.S.-sourced food aid, we should work together across agencies, and 
across stakeholders, to apply American ingenuity to these programs, and 
continue to make them the best, most efficient programs they can be 
while still preserving their unique benefits overseas and here at home.
    In contrast to most other foreign assistance programs which just 
send money overseas, food aid also provides direct economic benefits 
here at home. U.S. food aid programs not only further our humanitarian 
and security goals by allowing Americans to share their bounty with the 
needy, but these programs also provide stable jobs for hundreds of 
thousands of Americans in our farming, processing, and shipping 
economic sectors.
Diversion of Food Aid Funding for Cash Donations
    The U.S. Department of Agriculture's proposed fiscal year 2013 
budget includes a request to divert $66 million in funding away from 
Food for Peace, instead adding it to the $300 million already 
designated for USAID's EFSP.
    Mr. Chairman, we are concerned that this back-door diversion of 
funding will further weaken the Food for Peace Program, which has 
suffered extraordinary cuts in recent years. Although the program is 
authorized at $2.5 billion, funding has fallen in recent years and the 
current requested level is only $1.4 billion. This proposal is a replay 
of USDA's proposals for fiscal year 2007-2009, which would have given 
authority to USAID to use Food for Peace funding for the purchase of 
foreign or ``local and regional'' commodities at its discretion. The 
U.S. Government and its global partners already have significant cash 
amounts for local and regional purchases when it is necessary and 
appropriate. Especially in light of the recent cuts to Title II, it is 
our belief that the present funding level of EFSP does not need a 
further infusion of scarce Title II funds. We respectfully request that 
this Subcommittee again reject USDA's proposal, and preserve the 
integrity of the Food for Peace program.
Conclusions and Recommendations
    We respectfully recommend that our food aid programs continue to be 
funded at responsible, sustainable levels. The Public Law 480 Food for 
Peace Program is the world's most successful foreign assistance 
program, has saved countless lives, and has provided valuable jobs to 
the American people, who take pride in their tangible commitment to 
relieving global hunger. Its straightforward delivery of American food 
to the hungry fills a clear and immediate need overseas, and its unique 
architecture has made it a successful program here at home that has 
endured for over fifty years. Therefore, we respectfully recommend that 
USDA's request to siphon money away from Food for Peace be denied as it 
was in prior years.

America Cargo Transport Corp.
American Maritime Congress
American Maritime Officers
American Maritime Officers' Service
APL Limited
American Soybean Association
Central Gulf Lines, Inc.
Hapag-Lloyd USA, LLC
International Organization of Masters, Mates & Pilots
Liberty Maritime Corporation
Maersk Line, Ltd.
Marine Engineers' Beneficial Association
Maritime Institute for Research and Industrial Development
National Association of Wheat Growers
North American Millers' Association
National Corn Growers Association
National Council of Farmer Cooperatives
National Potato Council
National Sorghum Producers
Sailors' Union of the Pacific
Seafarers International Union
Sealift, Inc.
Transportation Institute
United Maritime Group, LLC
U.S. Dry Bean Council
U.S. Wheat Associates, Inc.
USA Dry Pea & Lentil Council
USA Maritime
USA Rice Federation
Waterman Steamship Corporation
                                 ______
                                 
 Prepared Statement of the American Commodity Distribution Association
    On behalf of the American Commodity Distribution Association 
(ACDA), I respectfully submit this statement regarding the budget 
request of the Food and Nutrition Service for inclusion in the 
Subcommittee's official record. ACDA members appreciate the 
Subcommittee's support for these vital programs.
    We urge the subcommittee to fully fund administrative expense 
funding for the Emergency Food Assistance Program (TEFAP) at $100 
million; to make TEFAP food purchase dollars available for 2 fiscal 
years; to approve the administration's budget request of $186,935,000 
for the Commodity Supplemental Food Program (CSFP) and provide an 
increase of $5 million to begin operations in six additional States 
approved by USDA, and to evaluate alternative approaches for the 
Department of Defense Fresh Program.
    ACDA is a nonprofit professional trade association, dedicated to 
the growth and improvement of USDA's Commodity Food Distribution 
Program. ACDA members include: State agencies that distribute USDA-
purchased commodity foods; agricultural organizations; industry; 
associate members; recipient agencies, such as schools and soup 
kitchens; and allied organizations, such as anti-hunger groups. ACDA 
members are responsible for distributing over 1.5 billion pounds of 
USDA-purchased commodity foods annually through programs such as 
National School Lunch Program, the Emergency Food Assistance Program 
(TEFAP), Summer Food Service Program (SFSP), Commodity Supplemental 
Food Program (CSFP), Charitable Institution Program, and Food 
Distribution Program on Indian Reservations (FDPIR).
Fully Fund TEFAP Administrative Funds at $100 Million
    We urge the subcommittee to fully fund TEFAP Administrative Funds 
at $100 million.
    Food banks around the Nation are in great need. The number of 
Americans who are turning to food banks for assistance continues to 
increase. The Congress appropriated $74.5 million for TEFAP 
Administrative Funds in fiscal year 2010 including ARRA funds, $49.401 
million in fiscal year 2011, and $48 million in fiscal year 2012. While 
these resources have been used responsibly, and are sincerely 
appreciated, food banks around the country are finding that operating 
expenses are increasing while private sector donations are decreasing. 
They have had to increasingly depend upon converting food dollars to 
administrative expense funds in order to maintain their operations.
    Donations to food banks are declining as many individuals and 
businesses no longer have the ability to be as supportive as they had 
been in the past. ACDA members tell us that unless TEFAP expense funds 
are restored to at least the fiscal year 2010 level, they will have to 
accept less food to reduce shipping/warehousing expenses, and will 
likely have to cut reimbursement to local distributors. These 
reimbursements are essential to maintaining distribution sites, 
especially in rural distribution sites. In fact, this past year 
Minnesota was not able to reimburse food bank warehouses for the 
storage and distribution costs. New Mexico had to restrict food 
deliveries to remote locations, and had to reduce paid staff by not 
hiring replacement employees.
Make TEFAP Food Dollars Available for 2 Fiscal Years
    We urge the subcommittee to make TEFAP food dollars available for 2 
fiscal years, as was done under ARRA.
    ACDA officials have met with FNS and AMS personnel to explore ways 
to improve the ordering of TEFAP foods. While the agencies of the 
Department of Agriculture work closely with food banks to provide as 
much food for distribution as possible, there are occasions when food 
dollars are at jeopardy through no fault of recipient agencies. If food 
orders are cancelled by either USDA or vendors for any reason near the 
end of the Federal fiscal year, State agencies must either purchase 
whatever items might be available through USDA, or lose these end-of-
year balances. We are pleased that Under Secretary for Food, Nutrition 
and Consumer Services Kevin Concannon told the Subcommittee on February 
28 that USDA would support making TEFAP food dollars available for a 2 
year period.
    At the end of fiscal year 2011, Minnesota was at risk of losing 
$70,000. Connecticut had nearly $69,000 at risk. Other States had 
similar experiences at a time when private donations are fewer, and 
when available food dollars result in lower food volumes due to higher 
prices.
    As we did last year, we respectfully point out to the subcommittee 
that when ARRA was passed, TEFAP food dollars were allowed to be 
carried over from fiscal year 2009 to fiscal year 2010. This procedure 
helped food bank operators to make responsible decisions and to take 
maximum advantage of available resources.
    We urge the committee to make TEFAP food dollars available for 2 
years, and urge the Secretary of Agriculture to allow those States who 
made responsible efforts to use their TEFAP Food dollars to roll over 
to the next fiscal year balances unexpended through no fault of the 
TEFAP operator.
Funding for the Commodity Supplemental Food Program
    ACDA supports the fiscal year 2013 budget request of $186,935,000 
for the Commodity Supplemental Food Program (CSFP), and urges the 
Committee provide an additional $5 million to begin CSFP operations in 
six States that now have USDA-approved State plans--Connecticut, 
Hawaii, Idaho, Maryland, Massachusetts and Rhode Island. This 
additional funding would make CSFP available in 45 States. CSFP 
overwhelmingly serves elderly individuals, many of whom are homebound. 
States currently operating CSFP requested 116,350 additional caseload 
slots for the current program year, clearly showing the need for this 
program.
ACDA Requests the Evaluation of Alternative Approaches for DOD Fresh
    There is broad consensus that improving the nutritional well-being 
of Americans, particularly children, includes increasing fruit and 
vegetable consumption, including fresh items. USDA's commodity program 
is constrained in its ability to distribute fresh foods.
    However, in the 1990s the Department developed a partner 
relationship with the Department of Defense to utilize some of the 
Federal commodity entitlement for school meal programs to allow school 
districts to purchase through the DOD distribution system. This 
program, DOD Fresh, was very successful.
    Changes in the DOD procurement and distribution program which have 
outsourced these procurement activities have had a deleterious effect 
on the school program. This change has also created a situation where 
each school that participates must pay a fee to access the DOD secure 
ordering system.
    We once again ask the Committee to direct the Secretary to evaluate 
alternative approaches for replacing DOD Fresh including, but not 
limited to, developing an analog program through the Agricultural 
Marketing Service, and report back to the Committee on these options.
    We look forward to continuing to partner with you and USDA in the 
delivery of these needed services.
                                 ______
                                 
       Prepared Statement of the American Farm Bureau Federation
    The American Farm Bureau Federation has identified the following 
nine areas for funding in the fiscal year 2013 Agriculture spending 
bill:
  --Programs that promote animal health;
  --Programs that promote conservation;
  --Programs that expand export markets for agriculture;
  --Programs that enhance and improve food safety and protection;
  --Programs that ensure crop protection tools;
  --Programs that further develop renewable energy;
  --Programs that strengthen rural communities;
  --Programs that support wildlife services; and
  --Research priorities.
    Farm Bureau strongly opposes any cuts to funding of the farm safety 
net. The farm bill discussion has begun, and the House and Senate 
Agriculture Committees should continue to have the primary 
responsibility to ensure farmers and ranchers have a viable farm safety 
net.
Programs That Promote Animal Health
    Farm Bureau supports a $5.3 million increase for the Animal and 
Plant Health Inspection Service (APHIS) to a total of $14 million for 
voluntary Animal Disease Traceability (ADT). The ADT program requires 
strong Government oversight on the expenditure of funds and is 
essential for animal health.
    Farm Bureau supports $4.79 million for the Veterinary Medicine Loan 
Repayment Program (VMLRP) administered by the Department of Agriculture 
(USDA) National Institute for Food and Agriculture (NIFA). VMLRP 
veterinarians ensure animal health and welfare, while protecting the 
Nation's food supply.
    Farm Bureau supports $123.4 million for the Food and Drug 
Administration (FDA) Center for Veterinary Medicine (CVM). The CVM 
oversees the safety of animal drugs, feeds and biotechnology-derived 
products.
Programs That Promote Conservation
    Farm Bureau supports funding for conservation programs but 
prioritizes working lands programs over retirement-type programs. 
Farmers and ranchers have made great strides in conserving our natural 
resources, and these gains can continue through working lands programs.
Programs That Expand International Markets for Agriculture
    Farm Bureau supports funding at authorized levels for:
  --The Foreign Agricultural Service (FAS) to maintain services that 
        expand agricultural export markets. Farm Bureau urges continued 
        support for the Office of the Secretary for trade negotiations 
        and biotechnology resources.
  --The Market Access Program, Foreign Market Development Program, 
        Emerging Markets Program and Technical Assistance for Specialty 
        Crops Program that are effective export development and 
        expansion programs. These programs have resulted in increased 
        demand for U.S. agriculture and food products abroad and should 
        be fully funded. Public Law 480 programs which serve as the 
        primary means by which the United States provides needed 
        foreign food assistance through the purchase of U.S. 
        commodities.
  --The APHIS Plant Protection and Quarantine personnel and facilities, 
        especially the plant inspection stations, which are necessary 
        to protect U.S. agriculture from costly pest problems that 
        enter the United States from foreign lands.
  --APHIS trade issues resolution and management activities that are 
        essential for an effective response when other countries raise 
        pest and disease concerns (i.e., sanitary and phytosanitary 
        measures) to prohibit the entry of American products.
  --APHIS Biotechnology Regulatory Services (BRS), which oversees the 
        permit, notification and deregulation process for plant 
        biotechnology products. BRS personnel and activities facilitate 
        agriculture innovation, and ensure public confidence and 
        international acceptance of biotechnology.
    Farm Bureau supports continued funding for the U.S. Codex Office. 
Active U.S. participation in the Codex Alimentarius Commission is 
essential to improving the harmonization of international, science-
based standards for the safety of food and agriculture products.
Programs That Enhance and Improve Food Safety and Protection
    Farm Bureau recommends that adequate funding for food protection at 
the FDA and Food Safety Inspection Service (FSIS) be directed to the 
following priorities:
  --Increased education and training of inspectors;
  --Additional science-based inspection, targeted according to risk;
  --Effective inspection of imported food and feed products;
  --Research and development of scientifically based rapid testing 
        procedures and tools; Accurate and timely responses to 
        outbreaks that identify contaminated products, remove them from 
        the market and minimize disruption to producers; and
  --Indemnification for producers who suffer marketing losses due to 
        inaccurate Government-advised recalls or warnings.
    Farm Bureau supports funding for a National Antimicrobial Residue 
Monitoring System (NARMS) to detect trends in antibiotic resistance. 
NARMS protects human and animal health through integrated monitoring of 
antimicrobial resistance among foodborne bacteria. Farm Bureau requests 
that Congress direct that stakeholder involvement and industry input be 
a priority in the ongoing Federal review.
    Farm Bureau supports funding for the Food Animal Residue Avoidance 
Databank (FARAD) at the authorized level of $2.5 million. FARAD aids 
veterinarians in establishing science-based recommendations for drug 
withdrawal intervals. No other Government program provides or 
duplicates the food safety information FARAD provides to the public.
    Farm Bureau opposes the administration's request for new user fees 
for inspection activities. Food safety is for the public good, and as 
such, it is a justified use of public funds.
Programs That Ensure Crop Protection Tools
    Farm Bureau supports maintaining $12 million for Minor Crop Pest 
Management (IR-4) within NIFA Research and Education Activities. 
Developing pest control tools has high regulatory costs, and public 
support has been needed to ensure that safe and effective agrichemicals 
and biopesticides are available for small, orphan markets. The IR-4 
Project facilitates Environmental Protection Agency registration of 
safe and effective pest management technologies where the private 
sector is unable to cover regulatory cost.
    Farm Bureau supports maintaining funding to the National 
Agricultural Statistical Service (NASS), specifically for the 
continuation of agricultural chemical-use surveys for fruits, 
vegetables, floriculture and nursery crops. NASS surveys provide data 
about the use of agricultural chemicals involved in the production of 
food, fiber and horticultural products.
Programs That Support the Development of Renewable Energy
    Farm Bureau supports funding for the Renewable Energy for America 
Program (REAP). REAP offers grants, guaranteed loans and combination 
grant/guaranteed loans for agricultural producers to purchase renewable 
energy systems and energy efficiency improvements, as well as offers 
funding for energy audits and feasibility studies.
    Farm Bureau supports funding for the Biomass Crop Assistance 
Program (BCAP). BCAP provides vital financial assistance to farmers who 
produce and transport eligible biomass feedstocks and helps growers 
meet the capital-intensive costs of establishing new crops and 
delivering them to market.
Programs That Strengthen Rural Communities
    Farm Bureau supports USDA implementing a regional approach to give 
its Rural Development (RD) programs greater flexibility and promote 
innovation in rural regions.
    Farm Bureau supports maintaining the funding at authorized levels 
for:
  --The Value-Added Agricultural Producer Grants, Rural Innovation 
        Initiative, Rural Microentrepreneur Assistance Program, and 
        Business and Industry Direct and Guaranteed Loans, which all 
        foster business development in rural communities.
  --Rural Utilities Service for rural broadband and telecommunications 
        services, and the Distance Learning and Telemedicine Program.
  --The Revolving Fund Grant Program for acquiring safe drinking water 
        and sanitary waste disposal facilities.
  --The Resource Conservation and Development Program, which helps 
        local volunteers create new businesses, form cooperatives and 
        develop agri-tourism activities.
  --The Beginning Farmer and Rancher Development Program, which 
        provides participants with the information and skills needed to 
        make informed decisions for their operations.
  --Agriculture in the Classroom, a national grassroots program 
        coordinated by USDA, which helps students gain greater 
        awareness of the role of agriculture in the economy and 
        society.
Programs That Support Wildlife Service
    Farm Bureau supports maintaining the funding level for Wildlife 
Service programs. Wildlife Service works to prevent and minimize an 
estimated $1 billion worth of wildlife damage, while protecting human 
health and safety from conflicts with wildlife.
Research Priorities
    Agricultural research is vital, particularly research focused on 
meeting the growing challenges of production agriculture. The United 
Nations' Food and Agriculture Organization predicts that farmers will 
have to produce 70 percent more food by 2050 to feed an additional 2.3 
billion people around the globe. America's farmers are the most 
efficient in the world, but without a commitment to further 
agricultural research and technological advancement, even America's 
farmers could be hard-pressed to meet these challenges.
                                 ______
                                 
     Prepared Statement of the American Forest & Paper Association
Introduction
    The American Forest & Paper Association (AF&PA) is the national 
trade association of the forest products industry, representing pulp, 
paper, packaging and wood products manufacturers, and forest 
landowners. Our companies make products essential for everyday life 
from renewable and recyclable resources that sustain the environment.
    The forest products industry accounts for approximately 5 percent 
of the total U.S. manufacturing GDP. Industry companies produce about 
$190 billion in products annually and employ nearly 900,000 men and 
women, exceeding employment levels in the automotive, chemicals and 
plastics industries. The industry meets a payroll of approximately $50 
billion annually and is among the top 10 manufacturing sector employers 
in 47 States. Within the jurisdiction of this subcommittee, continued 
resources for protecting forest health and providing adequate resources 
to enforce existing trade laws are essential. Specific recommendations 
follow.
Food and Drug Administration--Food Contact Notification Program
    AF&PA supports continued funding of the Food Contact Notification 
Program.--The Food Contact Notification (FCN) program protects consumer 
health, food safety and quality while providing packaging manufacturers 
with an efficient process that is less burdensome than the food 
additive approval process. It has allowed packaging manufacturers to 
bring new, more environmentally friendly products to market that have 
extended product shelf life, thereby increasing consumer value.
    As Congress begins work on appropriations legislation for FDA in 
the coming weeks, we would like your support and assistance in ensuring 
that robust funding is included in the appropriations bills for the 
Center for Food Safety and Applied Nutrition, and that Congress 
expresses its intention to continue the operation of the FCN program. 
AF&PA appreciates that the subcommittee has previously rejected 
proposals to eliminate the FCN program.
Animal and Plant Health Inspection Service (APHIS)--Lacey Act 
        Enforcement
    AF&PA supports $5.5 million to provide for implementation of the 
declaration requirement of the Lacey Act, as amended by the 2008 farm 
bill.--The 2008 farm bill amended the Lacey Act (16 U.S.C. 3371 et 
seq.) to make it unlawful to trade wood products or other plants taken 
in violation of the laws of either a U.S. State or foreign country. 
This ground-breaking legislation already is beginning to influence the 
way companies make sourcing decisions and monitor their supply chains. 
Full and effective implementation and enforcement of the Lacey Act will 
enable American forest product companies to compete fairly in the 
global marketplace, help keep jobs in the United States, deter the 
destructive impacts of illegal logging on forests and forest-dependent 
communities in developing countries, and reinforce initiatives to 
mitigate climate change.
    When fully implemented, the law requires U.S. importers of wood and 
wood products to file a declaration identifying the genus/species name 
and country of harvest--a critical measure intended by the law's 
sponsors to increase supply chain transparency and assist Federal 
agencies in fair and strong enforcement. The prohibition and the 
declaration requirement affect a wide array of American industries, so 
it is critical that the declaration process generates data in a 
streamlined, cost-effective manner without unduly burdening legitimate 
trade. To that end, APHIS--which is responsible for implementing the 
declaration provision--needs $5.5 million in funding to fully implement 
congressional mandates, including to establish an electronic 
declarations database and to add internal capacity to perform data 
analysis needed for monitoring and enforcement purposes.
APHIS--Plant Pests
    AF&PA recommends maintaining at least fiscal year 2012 funding of 
$56 million for the ``Tree and Wood Pests'' category to aid in 
combating these, and other pests and diseases.--As world trade 
continues to expand, global weather patterns shift, and an increasingly 
affluent world population has the ability to travel to--and demand 
products from--the far corners of the globe, the inadvertent, yet 
inevitable introduction of nonnative pests and diseases into the United 
States continues. Additional funding is vitally needed to aid in 
combating pests such as the Asian longhorn beetle, the Emerald Ash 
borer, and the Sirex woodwasp, as well as diseases such as Phytopthora 
ramorum. These are but a sampling of the diseases that harm commercial 
timber stands, community parks, and private forest landowners. American 
citizens most certainly will bear the cost of combating these and other 
emergent threats. We believe a comprehensive, coordinated response to 
each is more effective and more economical.
National Institute of Food and Agriculture--McIntire-Stennis 
        Cooperative Forestry Research
    AF&PA requests $33 million for the McIntire-Stennis Cooperative 
Forestry Research Program.--Approximately one-third of the United 
States is forested and these forests enhance our quality of life and 
economic vitality and are an invaluable source of renewable 
bioproducts, outdoor recreation, clean water, fish and wildlife 
habitat, and carbon sequestration. Sustaining these forests in a 
healthy and productive condition requires a strong, continuing 
commitment to scientific research and graduate education. Foundational 
financial support for university-based forestry research and graduate 
education comes from the McIntire-Stennis Cooperative Forestry program, 
funded through the USDA's National Institute of Food and Agriculture. 
Funds are distributed according to a statutory formula to each of the 
50 States, Puerto Rico, Guam, and the Virgin Islands, with a dollar-
for-dollar match required from the States.
    Additional funding is needed to:
  --Provide the additional scientific research needed to address 
        critical forest issues such as fires, storms, insects, 
        diseases, urbanization, fragmentation, and lost economic 
        opportunities.
  --Develop new knowledge and innovations to sustain healthy, 
        productive forests and address the challenges facing forest 
        owners, forest products manufacturers and all Americans who 
        benefit from our forest resources.
  --Support research capacity within each State to address issues that 
        are essential to private forest owners, and develop new 
        opportunities for economic benefit from their forests.
                                 ______
                                 
  Prepared Statement of the American Honey Producers Association, Inc.
    Chairman Kohl and Members of the Subcommittee, my name is Mark 
Jensen, and I currently serve as President of the American Honey 
Producers Association (AHPA). I am pleased today to submit the 
following statement on behalf of the AHPA, a national organization of 
commercial beekeepers actively engaged in honey production and crop 
pollination throughout the country. The purpose of this statement is to 
bring to your attention the continued threats faced by American 
beekeepers and the billions of dollars in U.S. agriculture that rely 
upon honeybee pollination services. With those threats in mind, we 
respectfully request an appropriation that meets the needs anticipated 
by the 2008 farm bill for research funds to combat CCD and to conduct 
other essential honeybee research through the Agricultural Research 
Service (ARS) and other agencies at the Department of Agriculture, 
including at least $11.7 million for bee research at the ARS Honeybee 
Research Laboratories. And we specifically request that funds and 
personnel not be diverted from the essential ARS Honeybee Research 
Laboratory in Weslaco, Texas, which for reasons given below would 
jeopardize highly valuable research at a critical time for America's 
beekeepers.
    Honeybees are an irreplaceable part of the U.S. agricultural 
infrastructure. Honeybee pollination is critical in the production of 
more than 90 food, fiber, and seed crops and directly results in more 
than $15 billion in U.S. farm output. One key example is the almond 
crop. California grows 100 percent of the Nation's almonds and supplies 
80 percent of the world's almonds, all of which are 100 percent 
pollinated by managed bees. Nearly half of the managed colonies in the 
United States are transported each year from other parts of the country 
to pollinate those almonds. In addition to this clear commercial 
benefit, honeybees are also vital to the health of all Americans given 
the dietary importance of such diverse pollinated crops as almonds, 
apples, oranges, melons, blueberries, broccoli, tangerines, 
cranberries, strawberries, vegetables, alfalfa, soybeans, sunflower, 
and cotton, among others. In fact, honeybees pollinate about one-third 
of the human diet.
    With this in mind, a threat to the existence of managed American 
honeybees is a threat to all Americans. And unfortunately, the American 
honeybee continues to face a number of significant threats. While not 
specifically a topic of relevance for congressional appropriators, 
complex circumvention and customs fraud schemes continue to 
disadvantage the American honey producer, stress pollinated crops and 
even threaten the health and safety of consumers. Producers struggle 
under the impact of increasingly divergent market prices--one price for 
legitimate honey and another rock bottom price for illegally 
transshipped honey. The direct result of these divergent prices is a 
rapidly shrinking domestic market share for American producers. The 
shrinking domestic share has, in turn, diminished the available supply 
of managed bee colonies necessary to pollinate U.S. agriculture, and it 
has placed American consumers at risk due to increasing volumes of low-
cost, often adulterated, food products entering uninspected into the 
Nation's food supply.
    This substantial trade threat is layered on top of the industry's 
ongoing battle against Colony Collapse Disorder (CCD), a phenomenon 
that since 2006 has ravaged bee colonies across the United States, 
moving from one hive to another in unpredictable patterns and causing 
the death of up to 90 percent of the bee colonies in affected apiaries. 
The National Research Council at the National Academy of Sciences has, 
as a result of CCD, characterized the beekeeping industry as being in 
``crisis mode''--a point echoed and re-emphasized in a USDA action plan 
regarding honeybee threats. And hundreds of news articles and many in-
depth media reports have continued to chronicle the looming disaster 
facing American beekeepers and the producers of over 90 fruit, 
vegetable and fiber crops that rely on honeybee pollination.
    Unfortunately, despite extensive and coordinated work by experts 
from Government, academia and the private sector, the definitive causes 
of and solutions for CCD have yet to be identified. The research is 
complex, as there are a wide range of factors that--either alone or in 
combination--may be causes of this serious condition, including stress 
from the cross-country movement of bees for commercial pollination, 
stress of pollinating crops, and the impact of certain crop pesticides 
and genetic plants with altered pollination characteristics. Continuing 
infestations of the highly destructive Varroa mite, combined with other 
pests and mites, are also thought to compromise the immune systems of 
bees and may leave them more vulnerable to CCD. At the same time, 
researchers will need to focus on the many reported instances in which 
otherwise healthy, pest-free, stationary bee colonies are also 
suffering collapse or problems with reproduction.
    AHPA, other industry officials, and leading scientists believe that 
an important contributing factor in the current CCD crisis is the 
longstanding, substantial under-funding of U.S. bee research, resulting 
in an inadequate capacity to respond to new research challenges and to 
take long-term steps to assure honeybee health. In recent years, 
honeybee research has become overly confined to four ARS laboratories 
that, while providing the first line of defense against exotic 
parasitic mites, Africanized bees, viruses, brood diseases, pests, 
pathogens and other conditions, simply cannot be expected to handle the 
full range of honeybee research challenges at current funding levels. 
At the same time, universities and the private sector, despite their 
ability to provide significant and innovative new research on emerging 
bee threats, have scaled back their efforts due to a lack of available 
funds.
    In recent years, the Federal Government has spent very modest 
amounts at each ARS Honeybee Research Laboratory--for a sector that 
contributes $15 billion per year to the U.S. farm economy and 
exponentially more to ensuring ecological balance and a healthy human 
diet. Worse still, with the emergence of CCD, funding amounts have not 
been increased commensurate with growing bee health concerns, resulting 
in a serious gap between the threats faced by U.S. honeybees and the 
capacity of our researchers to respond. Closing this gap will require 
significant new resources. To give a sense of this cost, it is 
estimated that each new scientist, technician and the support materials 
that they need will cost an additional $500,000 per year. Many new 
scientists are needed.
    To address these challenges, the AHPA respectfully requests funding 
consistent with authorizations provided in the 2008 farm bill. 
Specifically, the funds should be divided among the following 
Department of Agriculture agencies and programs: (1) the four ARS Bee 
Research Laboratories for new personnel, facility improvement, and 
additional research; (2) the Animal and Plant Health Inspection Service 
to conduct a nationwide honeybee pest and pathogen surveillance 
program; (3) the ARS Area Wide CCD Research Program divided between the 
Beltsville, Maryland and the Tucson, Arizona research laboratories to 
identify causes and solutions for CCD in affected States; (4) the NIFA 
to fund extension and research grants to investigate the following: 
honey bee biology, immunology, and ecology; honey bee genomics; native 
bee crop pollination and habitat conservation; native bee taxonomy and 
ecology; pollination biology; sub-lethal effects of insecticides, 
herbicides, and fungicides on honey bees, native pollinators, and other 
beneficial insects; the effects of genetically modified crops, 
including the interaction of genetically modified crops with honey bees 
and other native pollinators; honeybees, bumblebees, and other native 
bee parasites and pathogens' effects on other native pollinators; and 
(5) the additional ARS research facilities in New York, Florida, 
California, Utah, and Texas for research on honeybee and native bee 
physiology, insect pathology, insect chemical ecology, and honeybee and 
native bee toxicology.
    Unfortunately, it has come to our attention that ARS, in a unique 
decision to try and achieve false savings, is planning in fiscal year 
2013 to close the Weslaco ARS research facility, including the ARS 
Honeybee Research Laboratory--perhaps the newest and best of the four 
honeybee research laboratories in terms of practical, near term results 
achieved. Our understanding is that funds currently dedicated to the 
Weslaco honeybee research function would be ``re-directed'' to honeybee 
research currently conducted in Beltsville, Maryland, and Tucson, 
Arizona.
    The AHPA strongly opposes the decision to close the Weslaco 
Honeybee Research Laboratory. While we appreciate that ARS intends to 
maintain and re-direct funds rather than terminate the research 
function entirely, it is important to note that the each of the four 
ARS Honeybee Research Laboratories focuses on different problems facing 
the U.S. honey industry and undertakes research that is vital to 
sustaining honey production and assuring essential pollination services 
in this country. And each of the four ARS Honeybee Research 
Laboratories has unique strengths and is situated and equipped to 
support independent research programs which would be difficult, and in 
many cases impossible, to conduct elsewhere. This is particularly true 
of the Weslaco laboratory.
    Thus, given the multi-factor research capacity needed to address 
the scourge of CCD and the unique contributions made by each of the 
four laboratories, the AHPA urges Congress to permit Weslaco and each 
of the other ARS Honeybee Research Laboratories to continue and expand 
upon their unique strengths in their respective geographic locations. 
For the following reasons, the AHPA believes that maintaining the 
laboratory in Weslaco is in the best overall interest of our Nation's 
honeybee research agenda:
  --Personnel.--ARS, in its plan to re-direct funds from the Weslaco 
        Honeybee Research Laboratory, does not account for the loss of 
        highly skilled personnel. While ARS appears to believe that the 
        scientific staff in Weslaco are replaceable, we believe this 
        ignores that honeybee research is a unique study with a limited 
        number of dedicated scientists worldwide. Further, even 
        assuming ARS could replace some or all of the scientists, 
        valuable time and years of practical and scientific knowledge 
        and experience will be lost. In fact, some of the key personnel 
        at Weslaco have already resigned or opted for retirement out of 
        concern that the ARS plan for re-direction of funds will come 
        to fruition. And finally, since the ARS plan would re-direct 
        funding to other laboratories with existing research leaders, 
        the result will likely be the loss of a research leader 
        position--a position typically reserved for distinguished 
        scientists. Each research leader position lost diminishes our 
        capacity to attract world class scientific talent to honeybee 
        research.
  --Mission.--The Weslaco Honeybee Research Laboratory's mission is to 
        research ways to implement integrated pest management 
        principles. As discussed above, each of the four ARS 
        laboratories has a unique focus. Weslaco is the only honeybee 
        laboratory dedicating a significant amount of time, money and 
        expertise to honeybee pest, parasite and disease management--an 
        absolutely necessary endeavor if we intend to preserve colony 
        strength while awaiting the results of research initiatives at 
        other laboratories aimed at longer-term solutions for the same 
        problems. In short, the Weslaco laboratory is the front-line 
        defense. The others represent longer-term hope. For example, in 
        cooperation with pharmaceutical and chemical manufacturing 
        companies, Weslaco scientists have played a key role in 
        bringing to market all of the major chemical controls that have 
        successfully mitigated damage that would otherwise be caused by 
        Varroa destructor mites. If the honeybee research laboratory at 
        Weslaco is re-located as proposed, its research focus will 
        necessarily be altered, and possibly even lost since the other 
        laboratories do not have expertise in the same area of 
        research. We cannot afford to take that risk at this 
        particularly challenging time.
  --Cost.--If implemented, the ARS plan will produce an overall cost 
        increase for the agency's honeybee research program instead of 
        serving as an austerity measure. The Weslaco Honeybee Research 
        Laboratory will realize increased costs associated with travel 
        and other administrative inefficiencies that will be necessary 
        if ARS wishes to continue the current Weslaco research agenda--
        an agenda that relies on particular geographic and climate 
        qualities not found in Beltsville, Maryland or Tucson, Arizona. 
        Additionally, the receiving facilities will be burdened with 
        new administrative responsibilities and demands for space. 
        Restructuring any research facility requires time and funding. 
        The ARS facilities are no exception. The fiscal year 2012 
        Senate Appropriations Committee report included the following 
        language: ``[W]hile the Committee understands the need to 
        continually look for ways to increase efficiency and improve 
        research outcomes, laboratory closures often cost money in the 
        short-term and do not necessarily provide real savings. 
        Therefore, the Committee directs ARS to evaluate its capital 
        asset requirements for necessary coordination with ongoing and 
        emerging research opportunities. As part of this evaluation, 
        ARS should provide opportunity for public comment in order to 
        incorporate the priorities of all interested stakeholders, 
        including ARS and other scientists, and users of ARS data. 
        Finally, in future budget requests, the Committee directs ARS 
        to identify any costs associated with any proposed laboratory 
        closures, including decommissioning, relocation or other 
        effects on employees, and any other additional costs.'' 
        Unfortunately, the ARS plan to re-direct funding does not 
        appear to account for the added costs discussed above and 
        contemplated by Congress just a year ago. Further, while they 
        have communicated with certain stakeholders, ARS has failed to 
        provide formal notice and afford appropriate time for public 
        comment by those most affected by its decision. And finally, 
        ARS has not, to our knowledge, identified ``costs associated 
        with any proposed laboratory closures, including 
        decommissioning, relocation or other effects on employees, and 
        any other additional costs.''
  --Climate.--The research currently conducted at the Weslaco Honeybee 
        Research Laboratory relies on more than 450 research-quality 
        bee colonies located near the facility. The scientists at 
        Weslaco have access to such a large bee supply due in 
        substantial part to the unique climate and habitat afforded by 
        the laboratory's Weslaco, Texas location. Taken together, the 
        warm climate and ample scrub brush ranch land combine for an 
        optimal breeding ground and year-round research--a combination 
        that neither the Beltsville, Maryland or Tucson, Arizona can 
        offer.
  --Quality and Divisibility of Facility.--As a practical matter, 
        closing the Weslaco Honeybee Research Laboratory is 
        unnecessary. As discussed above, the laboratory at Weslaco is 
        among the best and newest in the country, and it remains an 
        ideal geographic location for honeybee research. While we 
        acknowledge that ARS maintains other agricultural research 
        laboratories on the same campus, known collectively as the Kika 
        de la Garza Subtropical Agricultural Research Center, and that 
        those other laboratories are also targeted for closure, we note 
        that the property is easily divisible and that closure of one 
        lab does not necessitate closure of another. Each laboratory on 
        the Weslaco campus operates in a separate building with 
        considerable distance between buildings. Further, each 
        laboratory has its own independent scientific and 
        administrative staff. Thus, ARS can easily close and lease or 
        sell other agricultural research laboratories located on the 
        Weslaco campus without disturbing the important work conducted 
        by the honeybee laboratory. Indeed, this makes good sense given 
        that the ARS plan is to both close and eliminate funding for 
        those other laboratories whereas, in the case of the honeybee 
        laboratory, it is only to close and re-direct funding, a move 
        that the members of our organization believe strongly will 
        actually result in greater costs than benefits.
  --Precedent.--This is not the first time ARS laboratories have faced 
        this challenge. In the President's fiscal year 2003 budget 
        proposal, a number of laboratories were proposed for closure, 
        consolidation or reduction. Ironically, those targeted then for 
        closure included all of the ARS Honeybee Research Laboratories 
        except Weslaco. Similar to the current situation, the fiscal 
        year 2003 proposal sought to achieve projected budgetary 
        savings at the expense of science. Congress wisely and 
        emphatically rejected that proposal. The following excerpt is 
        from the fiscal year 2003 Senate Appropriations Committee 
        report: ``The Committee does not concur with proposals to close 
        selected research laboratories and consolidate and terminate 
        related ongoing research programs. The Committee directs the 
        Agency to maintain these important research programs and 
        laboratories and maintains funding which was eliminated under 
        the President's budget.'' Then in the fiscal year 2009 omnibus 
        appropriations bill, Congress preserved funding for the 
        Weslaco, Texas ARS research facility despite a recommendation 
        in the President's budget proposal to close that facility. 
        Congress should again reject closure and consolidation of the 
        ARS Honeybee Research Laboratories in fiscal year 2013, just as 
        it did on two prior occasions in the last decade.
    While to date the four ARS Research Laboratories have been the 
backbone of American Honeybee research, we do not believe that those 
four facilities alone--even when fully funded--will have the capacity 
to meet today's research needs. This is why, after analyzing the new 
and serious threats to U.S. honeybees, Congress, representatives of the 
farm sector and leading researchers developed the research priorities 
that were incorporated into the 2008 farm bill. In addition to 
increased resources for ARS research, these experts pressed for new 
funding, through NIFA, for Government, academic and private sector 
research. They also urged new bee surveillance programs through the 
Animal and Plant Health Inspection Service to address the alarming lack 
of accurate information about the condition of U.S. bee colonies
    One particularly effective way of adding needed capacity and 
innovative expertise in the effort to ensure honeybee health would be 
to reinvigorate private sector and university bee research initiatives. 
For many years, these sectors played a vital role in honeybee research, 
and many leading universities have significant bee research 
capabilities. In recent years, non-Federal agency research has 
substantially declined due to a lack of support for such initiatives. 
Fully funding the 2008 farm bill authorization for the Department of 
Agriculture's NIFA would go a long way toward achieving this worthy 
goal.
    NIFA is tasked with advancing knowledge for agriculture by 
supporting research, education, and extension programs. Funds may be 
channeled through the Department to researchers at land-grant 
institutions, other institutions of higher learning, Federal agencies, 
or the private sector. The requested funding for NIFA would provide 
important flexibility in allocating badly needed Federal dollars among 
Government, private sector and university researchers. The recipients 
would provide more widespread research on honeybee biology, immunology, 
ecology, and genomics, pollination biology, and investigations into the 
effects on honeybees of potentially harmful chemicals, pests, other 
outside influences, and genetically modified crops. The result of such 
funds would be to ensure flexible financing with a comprehensive plan 
for battling CCD, pests, and other ongoing and future honeybee threats.
    Additionally, the same coalition of experts identified a need for a 
honeybee pest and pathogen surveillance program. Although significant 
data exists on American honey production, comparably less and lower 
quality data exists on beekeepers and bees. Providing continued funding 
under the 2008 farm bill authorizations to the Animal and Plant Health 
Inspection Service at the Department of Agriculture would allow the 
Department to utilize such data to better respond to pest and disease 
outbreaks, and to compile data that may better enable prediction of new 
threats. Given the roughly $15 billion added to the U.S. farm economy 
each year by honeybees, this is certainly a worthwhile investment in 
the honeybee and pollinator industry.
    In conclusion, we wish to thank you again for your past support of 
honeybee research and for your understanding of the critical importance 
that Federal funding plays in ensuring a healthy honeybee supply. By 
way of summary, in fiscal year 2013, the American Honey Producers 
Association strongly encourages at least $11.7 million in funding for 
CCD and other honeybee research spread among the four ARS Honeybee 
Research Laboratories. The AHPA strongly opposes closure of the ARS 
Honeybee Research Laboratory in Weslaco, Texas. And, the AHPA supports 
continued funding for the NIFA at the Department of Agriculture, and 
the Animal and Plant Health Inspection Service. Only through critical 
research can we have a viable U.S. beekeeping industry and continue to 
provide stable and affordable supplies of bee-pollinated crops, which 
make up fully one-third of the U.S. diet. I would be pleased to provide 
answers to any questions that you or your colleagues may have.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    On behalf of the American Indian Higher Education Consortium 
(AIHEC) and the 32 Tribal Colleges and Universities (TCUs) that 
currently compose the list of 1994 Institutions, thank you for this 
opportunity to outline our needs and concerns for fiscal year 2013.
    This statement is presented in three parts: (a) summary of our 
fiscal year 2013 funding recommendations, (b) brief background on 
Tribal Colleges and Universities, and (c) an outline of the 1994 
Institutions' plan for using our land grant programs to fulfill the 
agricultural potential of American Indian communities, and to ensure 
that American Indians have the skills and support needed to maximize 
the economic potential of their resources.
Summary of Requests
    We respectfully request the following for fiscal year 2013 for our 
land grant programs established within the USDA National Institute of 
Food and Agriculture (NIFA) and the Rural Development mission area. In 
NIFA, we request: $4,312,000 for the 1994 Institutions' competitive 
Extension grants program; $2 million for the 1994 Institutions' 
competitive Research Grants program; $3,335,000 for the Higher 
Education Equity Grants; a doubling of the corpus in the Native 
American Endowment fund; and in the Rural Development--Rural Community 
Advancement Program (RCAP), that $4 million be appropriated for the TCU 
Essential Community Facilities Grants program (the same level included 
in the President's fiscal year 2013 budget request) to help the 1994 
Institutions address the critical facilities and infrastructure needs 
that advance their capacity to participate as full land grant partners.
Background on Tribal Land Grant Institutions
    The first Morrill Act was enacted in 1862 specifically to bring 
education to the people and to serve their fundamental needs. Today, 
150 years after enactment of the first land grant legislation, the 1994 
Institutions, as much as any other higher education institutions, 
exemplify the original intent of the land grant legislation, as they 
are truly community-based institutions.
    The 32 Tribal Colleges and Universities that compose the list of 
1994 Institutions are accredited by independent, regional accreditation 
agencies and like all institutions of higher education, must undergo 
stringent performance reviews to retain their accreditation status. 
TCUs serve as community centers by providing libraries, tribal 
archives, career centers, economic development and business centers, 
public meeting places, and child and elder care centers. Despite their 
many obligations, functions, and notable achievements, TCUs remain the 
most poorly funded institutions of higher education in this country. 
The vast majority of the 1994 Institutions is located on Federal trust 
territory. Therefore, States have no obligation, and in most cases, 
provide no funding to TCUs. In fact, most States do not even provide 
funds to our institutions for the non-Indian State residents attending 
our colleges, leaving the TCUs to assume the per student operational 
costs for non-Indian students enrolled in our institutions, accounting 
for approximately 20 percent of their student population. This is a 
significant financial commitment on the part of TCUs, as they are 
small, developing institutions and cannot, unlike their State land 
grant partners, benefit from economies of scale--where the cost per 
student to operate an institution is reduced by the comparatively large 
size of the student body.
    As a result of 200 years of Federal Indian policy--including 
policies of termination, assimilation, and relocation--many reservation 
residents live in conditions of poverty comparable to those found in 
Third World nations. Through the efforts of TCUs, American Indian 
communities are availing themselves of resources needed to foster 
responsible, productive, and self-reliant citizens. It is essential 
that we continue to invest in the human resources that will help open 
new avenues to economic development, specifically through enhancing the 
1994 Institutions' land grant programs, and securing adequate access to 
information technology.
1994 Land Grant Programs--Ambitious Efforts to Economic Potential
    In the past, due to lack of expertise and training, millions of 
acres on Indian reservations lay fallow, under-used, or had been 
developed using methods that caused irreparable damage. The Equity in 
Educational Land Grant Status Act of 1994 is addressing this situation 
and is our hope for the continued improvement of our reservation lands. 
Our current land grant programs remain small, yet critically important 
to us. It is essential that American Indians explore and adopt new and 
evolving technologies for managing our lands. With increased capacity 
and program funding, we will become even more fundamental contributors 
to the agricultural base of the Nation and the world.
    Competitive Extension Grants Programs.--The 1994 Institutions' 
extension programs strengthen communities through outreach programs 
designed to bolster economic development; community resources; family 
and youth development; natural resources development; and agriculture; 
as well as health and nutrition education and awareness. Without 
adequate funding the 1994 Institutions' ability to maintain existing 
programs and to respond to the many emerging issues, such as food 
safety and homeland security (especially on border reservations) is 
severely limited. Increased funding is needed to support these vital 
programs designed to address the inadequate extension services that 
have been provided to Indian reservations by their respective State 
programs. Funding for the 1994 Land Grant Extension programs is 
extremely modest. The 1994 Institutions have applied their 
resourcefulness for making the most of every dollar they have at their 
disposal by leveraging funds to maximize their programs whenever 
possible. Two examples of effective 1994 Extension programs include: 
Extension activities at the College of Menominee Nation (Wisconsin) 
strengthen the sustainable economic development potential of the 
Menominee, Stockbridge-Munsee, Oneida, and Potawatomi Reservations and 
surrounding communities by increasing distance education capacity, 
conducting needs assessment studies, providing workshops and training 
sessions, and offering strategic planning assistance. The Agriculture & 
Natural Resources Outreach Education Extension program at Oglala Lakota 
College (South Dakota), which is located in one of the poorest counties 
in the Nation, utilizes education to promote the environmentally sound 
used of agriculture and natural resources by Lakota people. The program 
coordinates activities between the college's Agriculture and Natural 
Resources department, reservation schools, other tribal departments, 
South Dakota State University, and county extension programs. Specific 
issues addressed by this program include poverty, isolation, health, 
cultural dissonance, and land use practices by Lakota landowners. To 
continue such highly successful programs conducted at 1994 
Institutions, we request that the Subcommittee appropriate a minimum of 
$4,312,000 for this competitive grants program to support the growth 
and further success of these essential community-based extension 
programs.
    1994 Competitive Research Program.--As the 1994 Institutions enter 
into partnerships with 1862/1890 land grant institutions through 
collaborative research projects, impressive efforts to address economic 
development through natural resource management have emerged. The 1994 
Research Grants program illustrates an ideal combination of Federal 
resources and TCU-State institutional expertise, with the overall 
impact being far greater than the sum of its parts. We recognize the 
severe budget constraints under which Congress is currently 
functioning. The $1,801,000 appropriated last year is, by any measure, 
inadequate to develop capacity and conduct necessary research at our 
institutions. The 1994 Research Grants program is vital to ensuring 
that TCUs may finally be recognized as full partners in the Nation's 
land grant system. Currently, many of our institutions are conducting 
applied research, yet finding the resources to continue this research 
to meet their communities' needs is a constant challenge. This research 
authority opens the door to funding opportunities to maintain and 
expand the vital research projects begun at the 1994 Institutions, but 
only if adequate funds are secured and sustained. A total research 
program funded at less than $2 million, for which all 32 of the 1994 
Institutions compete for awards, is incredibly insufficient. Priority 
issue areas currently being studied at the 1994 Institutions include: 
sustainable agriculture and forestry; biotechnology and bioprocessing; 
agribusiness management and marketing; plant propagation, including 
native plant preservation for medicinal and economic purposes; animal 
breeding; aquaculture; ramifications of human nutrition (including 
health, obesity, and diabetes); and family, community, and rural 
development. For example, the Standing Rock Sioux Reservation, home to 
Sitting Bull College and located in North and South Dakota, is often 
characterized by high unemployment and considerable health concerns. 
The college is conducting a research project to develop a natural beef 
enterprise on the reservation that will maximize use of existing 
natural resources, allow American Indian students to be actively 
involved in research and to produce a healthier agricultural product 
for the community. This project combines expertise from Sitting Bull 
College, North Dakota State University, and the USDA-ARS Northern Great 
Plains Research Laboratory. We request that the Subcommittee afford the 
1994 Research competitive program a very modest increase, and 
appropriate $2 million for these critical grants.
    1994 Institutions' Educational Equity Grant Program.--This program 
is designed to assist 1994 Institutions with academic programs. Through 
the modest appropriations first made available in fiscal year 2001, the 
1994 Institutions have developed and implemented courses and programs 
in natural resource management; environmental sciences; horticulture; 
forestry; and food science and nutrition. This last category is helping 
to address the epidemic rates of diabetes and cardiovascular disease 
that plague American Indian reservations. We request that the 
Subcommittee appropriate at a minimum, $3,335,000 to allow the 1994 
Institutions to continue their current course offerings and the 
successful activities that have been established.
    Native American Endowment Fund.--Endowment installments that are 
paid into the 1994 Institutions' account remain with the U.S. Treasury. 
Only the annual interest yield, less the USDA's administrative fee, is 
distributed to the 1994 Institutions. The latest annual interest yield 
for the 1994 Institutions' treasury endowment was $4,306,999 and after 
the USDA NIFA claimed its standard 4 percent administrative fee, 
$4,134,719 was distributed among the eligible 32 TCU Land Grant 
Institutions by statutory formula. Once again, the administrative fee 
paid to USDA-NIFA to simply make the funds available for draw down by 
the eligible 1994 Institutions was higher than the amount paid to all 
but 6 of the 32 tribal college (1994) land grant institutions. In other 
words, about 80 percent of the 1994 institutions receive less of the 
annual interest yield for program use than the administrative fee paid 
to the USDA-NIFA.
    Endowment payments appropriated increase the size of the corpus 
held by the U.S. Treasury and thereby increase the base on which the 
annual interest yield is determined. These additional funds would 
continue to support faculty and staff positions and program needs 
within 1994 agriculture and natural resources departments, as well as 
to help address the critical and very expensive facilities needs at 
these institutions. For the latest endowment interest distribution, the 
median interest payment to 1994 Institutions was $97,494, which is 
clearly not sufficient to address curriculum development and 
instruction delivery, not to mention the need to address the ongoing 
facilities and infrastructure projects at these institutions. In order 
for the 1994 Institutions to become full partners in the Nation's land-
grant system, we need the facilities and infrastructure necessary to 
fully engage in education and research programs vital to the future 
health and well being of our reservation communities. Identifying 
creative solutions is essential to address so many public funding needs 
in a time of extreme fiscal austerity. The TCUs propose a one-time 
doubling of the 1994 Native American endowment, which would result in 
an increase in the annual interest yield by approximately $4 million--
the same amount as proposed for the TCU Rural Development Essential 
Community Facilities Grant program. Payments into the endowment remain 
with the U.S. Treasury, therefore only the interest yield is scored as 
outlay. Should the endowment corpus be doubled and the agency's 
administrative fee scaled back, the TCUs could then consider forgoing 
the Rural Development program. We respectfully request that the 
Subcommittee consider doubling the current endowment corpus by fiscal 
year 2015. Additionally, we strongly urge the Subcommittee to review 
the USDA-NIFA administrative fee charged and consider directing the 
department to reduce said fee for the Tribal College Endowment program 
so that more of these already limited interest funds can be utilized by 
the 1994 Institutions to conduct essential community-based programs and 
address critical infrastructure needs.
    Tribal Colleges and Universities Essential Community Facilities 
Program (Rural Development).--The Absent the doubling of the 1994 
endowment corpus resulting in an additional interest yield equal to the 
TCU Essential Community Facilities Program, we strongly urge the 
Subcommittee to appropriate a minimum of $4 million, the level included 
in the President's fiscal year 2013 budget request, each year for the 
next 3 fiscal years to afford the 1994 Institutions the means to 
actively address critical facilities and infrastructure needs, thereby 
allowing them to better serve their students and their respective 
communities.
Conclusion
    The 1994 Institutions have proven to be efficient and effective 
vehicles for bringing educational opportunities to American Indians and 
the promise of self-sufficiency to some of this Nation's poorest and 
most underserved regions. The modest Federal investment in the 1994 
Institutions has already paid great dividends in terms of increased 
employment, access to higher education, and economic development. 
Continuation of this investment makes sound moral and fiscal sense. 
American Indian reservation communities are second to none in their 
potential for benefiting from effective land grant programs and, as 
earlier stated, no institutions better exemplify the original intent of 
the land grant concept than the 1994 Institutions.
    We appreciate your support of the 1994 Institutions and recognition 
of their role in the Nation's land grant system. We ask you to renew 
your commitment to help move our students and communities toward self-
sufficiency and respectfully request your continued support and full 
consideration of our fiscal year 2013 appropriations requests.
                                 ______
                                 
      Prepared Statement of the American Phytopathological Society
    The American Phytopathological Society (APS), the premier 
educational, professional, and scientific society dedicated to the 
promotion of plant health and plant disease management for the global 
good, appreciates the opportunity to provide our views on research, 
extension, and education provisions of the fiscal year 2013 
agricultural appropriations bill. The APS believes that now is the time 
to make strategic, additional investments in agricultural science to 
help jumpstart the U.S. economy. Thus, we request the Subcommittee to 
include in the fiscal year 2013 agricultural appropriations bill, 
funding for agricultural science and technology at no less than the 
fiscal year 2012 level for the USDA Agricultural Research Service (ARS) 
and the National Institute of Food and Agriculture (NIFA). We further 
request the Subcommittee to support strategic investments, above the 
fiscal year 2012 funding levels, of $72.9 million for the ARS and NIFA 
as described below:
  --A net increase of $7.9 million for salaries and expenses for the 
        USDA Agricultural Research Service, (i.e., funding at not less 
        than the President's budget request of $1,102,565,000);
  --A net increase of $4 million for the Food and Agriculture Defense 
        Initiative (homeland security) under the Integrated Activities 
        account of the National Institute for Food and Agriculture, 
        returning the funding to the fiscal year 2010 level of $9.83 
        million with the increase divided equally between the National 
        Plant Diagnostic Network and the National Animal Health 
        Laboratory Network; and
  --A net increase of $61 million (total budget of $325 million) for 
        the Agriculture and Food Research Initiative (AFRI) competitive 
        grants program of the National Institute for Food and 
        Agriculture.
    Agriculture in the United States is highly productive. This 
productivity was achieved because past investments in agricultural 
science led to advances that placed our producers, processors, and 
manufacturers at the cutting edge of agricultural technology. To ensure 
continued safety and security of our food, feed, fiber, and natural 
resources, we believe that science-based solutions to the new 
challenges faced in today's agriculture must be explored and developed. 
Further, our agricultural economy must be protected from devastating 
invasive plant diseases and pests by a robust diagnostic network and 
the development of science based tools and resources. The only way we 
can achieve these solutions is by providing strategic investments in 
agricultural science, extension, and education and to make these 
investments with additional funds and not by reducing funding for other 
essential programs at ARS and NIFA.
    The jobs of 21 million Americans depend on the vitality of the U.S. 
agriculture and food sector. In Ohio, for example, one in seven jobs is 
directly tied to agriculture. For every $1 invested in publicly funded 
agricultural research, a minimum of $20 in economic activity is 
generated. Unfortunately, U.S. Government investments in agricultural 
innovation have been flat in recent years. As a consequence, the 
competitive edge that made the U.S. agricultural research sector the 
envy of the world has declined, and industry is turning to other parts 
of the world for innovation. The decisions made by the Subcommittee 
this year will have far-reaching impacts, the downstream implications 
of decisions made now have far reaching impacts, as the scientific 
research funded today will be responsible for enhancing the Nation's 
agricultural productivity and overall economic prosperity in the 
future.
    While an increase of $100 million would have little impact on the 
NIH or NSF research budgets, a $73 million increase in funding for the 
USDA's ARS and NIFA would be significant in the impact on the Nation's 
economy, generating almost $1.5 billion in economic activity.
    The added funds we are requesting for the Food and Agricultural 
Defense Initiative (Homeland Security) would ensure that we have a 
coordinated network of diagnostic laboratories and experts at land 
grant universities, State departments of agriculture to protect our 
crops from diseases such soybean rust, citrus greening, plum pox virus, 
sudden oak death, Ug99. The slight increase in funding for the ARS 
would support funding for food safety, crop health, and strengthen 
long-term agro-ecosystem research that will be essential for ensuring 
an abundant supply of safe, high quality, food, feed, and fiber during 
periods of changing weather patterns.
    The 23 percent increase in the AFRI competitive grants program 
would provide a much needed boost of funding for fundamental, applied, 
and integrated research and education that will be used to address 
critical gaps in food safety science, particularly those related to 
human pathogens on/in plants and plant associated microbial 
communities. The AFRI funding increase could also expand opportunities 
for scientists broadly trained to meet the needs of the various 
agricultural industries.
    We recognize the difficult challenge facing the Subcommittee. 
However, we believe that investment in science for food and agriculture 
is essential for maintaining the Nation's food, economic, and national 
security. Thank you for this opportunity to present our views.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) appreciates the 
opportunity to submit this statement outlining our fiscal year 2013 
funding priorities within the jurisdiction of the Agriculture, Rural 
Development, Food and Drug Administration and Related Agencies 
Subcommittee. We support increased funding for farm bill Title IX 
programs, and $308 million for the Commodity Futures Trading 
Commission.
    APPA is the national service organization representing the 
interests of over 2,000 municipal and other State and locally owned 
utilities in 49 States (all but Hawaii). Public power utilities deliver 
electricity to one of every seven electricity consumers (approximately 
46 million people), serving some of the Nation's largest cities. 
However, the vast majority of APPA's members serve communities with 
populations of 10,000 people or less.
Department of Agriculture: Title IX Programs
    APPA supports full funding for programs authorized in Title IX of 
the 2008 farm bill for energy efficiency, renewable energy and 
biofuels. APPA is extremely pleased that the President's budget 
provides $56 million for the Rural Energy for America Program (REAP). 
In addition, we request the full authorized level of $5 million for the 
Rural Energy Self-Sufficiency program, and $5 million for the Community 
Wood Energy Program for fiscal year 2012.
Commodity Futures Trading Commission
    APPA supports the President's budget request of $308 million for 
the Commodity Futures Trading Commission (CFTC), a $102 million 
increase over fiscal year 2012. As the CFTC continues to implement the 
Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, they 
will struggle to do so in a timely manner without the proper staffing 
levels and technology necessary to complete rulemakings and 
implementation. Given the direct effect the rulemakings will have on 
public power utilities and consumers, APPA is supportive of giving the 
CFTC the resources it needs to complete the rulemakings quickly and 
thoroughly.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2013 appropriation for food 
safety and science programs at the U.S. Department of Agriculture 
(USDA). The ASM is the largest single life science organization in the 
world with more than 38,00 members.
    The administration's fiscal year 2013 budget for research and 
development (R&D) at USDA would provide $2.6 billion or a 2.7 percent 
increase over the fiscal year 2012 level. There is a proposed increase 
of 23 percent for the USDA's competitive grants program, the 
Agriculture Food and Research Initiative (AFRI), which funds research 
at both USDA facilities and land grant universities. Also increased is 
funding for research in food safety and global food security. The 
budget would increase support for USDA bioenergy research as well, in 
part to develop cellulosic and algae-based biofuels. We strongly 
support these program increases and ask Congress to approve the fiscal 
year 2013 request for these resources necessary to strengthen USDA 
research.
    Agriculture not only ensures a healthy, plenteous food supply, but 
contributes significantly to the economy. Agriculture related 
businesses account for 1-in-12 U.S. jobs. Net farm income is forecast 
to be nearly $92 billion this year. Farms and ranches produce food 
volumes roughly one-third greater than domestic demand, and the U.S. 
export share of the global ag market is usually about 20 percent. In 
2011, exports of agriculture related products reached a record $136.3 
billion, supporting more than 1 million jobs in an economic sector 
where exports outperform imports.
    In 2010, U.S. agriculture generated food products worth $352 
billion, and USDA expects $410 billion for 2011 when market data are 
completed. Higher crop yields, better animal breeding, and new products 
like genetically modified plants are among the many science based 
advances involved in the success of U.S. agriculture. R&D efforts have 
had tangible farm-to-fork results, making U.S. agriculture 
statistically one of the Nation's most productive economic sectors. 
USDA research also improves food safety, helps develop sustainable 
energy, protects animal health, and preserves water quality and the 
environment. USDA personnel depend upon the best available methods and 
tools to accomplish public health goals like decreasing foodborne 
illnesses and crop losses due to microbial pathogens.
USDA Funding Advances Science-Based Agriculture
    The Agricultural Research Service (ARS) conducts intramural 
research and the National Institute of Food and Agriculture (NIFA) 
distributes grants to colleges and universities for extramural 
research, extension, and education activities. The ARS budget request 
for discretionary funding is $1.103 billion, which is $8 million over 
the fiscal year 2012 enacted level. The NIFA request is $1.244 billion 
or $37 million over fiscal year 2012. Updated science and technology 
like genomic databases are critical to USDA's oversight of the 
agriculture enterprise in this country. For example, one-third of total 
U.S. ag exports are genetically engineered (GE) crops or products from 
these crops, and about 80 percent of processed foods sold in the United 
States contain GE-derived ingredients. Federal regulators test an 
increasing number of samples resulting from food biotechnology; in 
fiscal year 2011 alone, testing increased by approximately 28 percent. 
USDA investigators and educators clearly must access the latest 
information when assessing the safety of our food supply. USDA 
researchers also discover best practice approaches to food production, 
microbial diseases of food animals and plants, and sustainable 
environments. A 2011 report by the Government Accountability Office 
called for stronger efforts by USDA in collecting data on antibiotic 
use in food animals, to better understand the relationship between use 
and pathogens' drug resistance. These science based activities require 
adequate funding each year for USDA R&D programs.
    ARS maintains over 100 facilities in the United States and abroad 
with ongoing studies of optimal ag production, food safety and 
security, and environmental stewardship. ARS scientists are responsible 
for epidemiological studies of pest and disease transmission to protect 
crops. The fiscal year 2013 request identifies new proposed research, 
like the allocation of $7.6 million to develop management tools for 
soil-borne plant pathogens and nematodes. One goal is to identify 
beneficial soil microbes for use as biocontrol tools that stop plant 
pathogens naturally. ARS also will increase capacity at its overseas 
biological control laboratories to find new biocontrol agents for use 
in the United States. Another plant protection program receiving 
increased funding will develop plant varieties inherently resistant to 
infectious diseases. Other researchers would focus on livestock 
protection, such as projects to detect and eliminate tumor and enteric 
viruses in poultry.
    NIFA funds extramural research projects at the States' agricultural 
experiment stations, land grant universities, State-based cooperative 
extension system, and other research and education institutions. 
Federal funds are distributed through grants and other competitive 
awards, and NIFA administers USDA's primary grants program, the 
Agriculture and Food Research Initiative. The ASM supports the fiscal 
year 2013 budget for AFRI of $325 billion, an increase of $60.5 
million. USDA identified priority areas funded in part by this increase 
will be developing better feedstocks for biofuel production, minimizing 
antibiotic resistance transmission among foodborne pathogens, and 
supporting additional graduate student training through the NIFA 
Fellows program.
    Research results reported in the past year are the best argument 
for sufficient USDA R&D funding in fiscal year 2013, illustrating the 
breadth of contributions made by USDA science:
  --ARS scientists found that using Fourier transform infrared-
        attenuated total reflection (FTIR-ATR) spectroscopy can rapidly 
        identify citrus plant leaves infected with citrus greening 
        disease, faster and cheaper than the current DNA method.
  --Last year, USDA and the U.S. Department of Energy jointly announced 
        they will invest up to $30 million over 3 to 4 years to support 
        R&D in biofuels, bioenergy, and high-value bio-based products. 
        In August, they awarded 10 university grants totaling $12.2 
        million to improve the efficiency and cost-effectiveness of 
        biofuel and bioenergy crops.
  --ARS molecular biologists are identifying genes in the yeast 
        Saccharomyces cerevisiae to improve fermentation of fiber from 
        corn, wheat, and other plants into cellulosic ethanol during 
        biofuel manufacture. The genes are likely to improve the 
        yeast's ability to resist deleterious growth inhibitors created 
        during acid pre-treatments.
  --Last year, USDA and the U.S. Agency for International Development 
        began construction on a university-associated ARS facility that 
        will specialize in breeding wheat varieties resistant to stem 
        rust disease, which threatens grain crops worldwide.
  --An ARS procedure developed to improve polymerase chain reaction 
        (PCR) methods for detecting plant pathogens has increased test 
        sensitivity by 100 to 1,000 fold. Called Bio-PCR, it identified 
        the bacterium responsible for Pierce's disease of grapes in 90 
        percent of infected samples compared to 13 percent with 
        conventional PCR.
  --A team of ARS scientists, screening Starmerella yeast for their 
        ability to produce surfactant-like sophorolipids, are 
        identifying green alternatives to the currently used petroleum-
        based surfactants in products like detergents and paints.
USDA Funding Protects the U.S. Food Supply
    One in six Americans becomes sick each year with foodborne 
illnesses that could be prevented. USDA cooperates daily with other 
Federal partners, the Food and Drug Administration (FDA) and the 
Centers for Disease Control and Prevention (CDC) to safeguard the U.S. 
food supply through prevention, public and industry education, site 
inspections and disease outbreak investigations. The fiscal year 2013 
budget for food safety will continue USDA's three part strategy to 
fulfill its food oversight responsibilities: prioritizing prevention, 
strengthening surveillance and enforcement and improving response and 
recovery.
    USDA scientists and inspectors are responsible for some important 
steps in reducing foodborne illness. For example, USDA expects to 
enforce new, stricter Salmonella and Campylobacter standards in turkeys 
and young chickens, which could prevent up to 25,000 human illnesses 
annually. During 2000-2010, the agency helped achieve the national goal 
of reducing E. coli O157 infection rates by 50 percent. In the past 15 
years, the overall rates of six foodborne infections have declined by 
23 percent, according to a 2011 CDC report. Both ARS and NIFA sponsor 
research on safe production, storage, processing, and handling of 
animal and plant products. For instance, ARS microbiologists are 
studying the relationship between cattle feed containing corn 
byproducts of biofuel processing and the persistence of pathogenic E. 
coli on the animals' hides. Other USDA microbiologists are studying 
yeast extracts as an alternative to using antibiotics in organic turkey 
farming.
    The USDA's Food Safety and Inspection Service (FSIS) enforces the 
Federal standards for all meat, poultry, and processed egg products, to 
ensure they are safe, wholesome, and properly labeled and packaged. The 
fiscal year 2013 budget proposes a decrease in FSIS discretionary 
funding: at $996 million, more than $8 million below fiscal year 2012 
and $11 million less than the fiscal year 2011 level. Volumes of 
imported foods are steadily increasing and foodborne illnesses persist 
as major public health threats in the United States. Approximately 
8,400 FSIS employees inspect foods and production methods at more than 
6,200 slaughtering and processing facilities, import houses, and other 
federally regulated entities involved in food production. Their 
workload is daunting: for example, about 40 million cattle inspected 
yearly by FSIS personnel.
Conclusion
    The ASM encourages Congress to increase the fiscal year 2013 budget 
in support of USDA's science and food safety programs. USDA research in 
multiple agriculture sectors has pervasive impacts on our quality of 
life. The USDA mission reaches far beyond its role in transforming our 
Nation's farms and ranches into highly productive, economically 
important businesses. USDA science protects human and animal health, 
prevents crop losses from disease and climate changes, seeks best 
practices to preserve the environment, encourages innovation in 
valuable agriculture based products and supports new generations of 
agriculture scientists and educators.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy; Crop Science 
        Society of America; and Soil Science Society of America
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA) represent 
over 18,000 members in academia, industry, and Government, and 13,000 
Certified Crop Advisers. The largest coalition of professionals 
dedicated to the agronomic, crop, and soil science disciplines in the 
United States, ASA, CSSA, and SSSA are dedicated to utilizing science 
in order to meet our growing food, feed, fiber, and fuel needs. We are 
pleased to submit the following funding recommendations for fiscal year 
2013: ASA, CSSA, and SSSA urge the Subcommittee to support a $60 
million increase from fiscal year 2012 for the Agriculture Food 
Research Initiative (AFRI), bringing total funding to $325 million, as 
requested in the President's fiscal year 2013 budget proposal. This 
strong level of funding will enable AFRI to continue to target areas 
that are key to American scientific leadership including: plant health 
and production, food safety, sustainable bioenergy and global food 
security. ASA, CSSA, and SSSA further recommend funding the 
Agricultural Research Service (ARS) at $1.13 billion in fiscal year 
2013 to recognize the essential role of the intramural programs in 
ensuring the safety of our Nation's food system. In addition, ASA, 
CSSA, and SSSA recommend funding the United States Department of 
Agriculture's (USDA) National Institute of Food and Agriculture (NIFA) 
at $1.244 billion (an increase of $37 million over fiscal year 2012) in 
order to maintain continued support for research, education, and 
extension programs. Finally, we support a strong commitment to farm 
bill conservation programs and request that they be funded at levels 
agreed to in the 2008 farm bill to ensure preservation of our Nation's 
essential resources--soil and water.
Background
    The success of the agriculture and food industry plays a 
significant role in the overall health and security of the U.S. 
economy. In 2010, U.S. farms and ranches spent $288 billion to produce 
goods valued at $369 billion. The value of U.S. food and agriculture 
exports is expected to be more than $140 billion in 2011, creating a 
record trade surplus of $42.5 billion. Furthermore, the jobs of 21 
million Americans depend on the vitality of the U.S. agriculture and 
food sector.
    Investments in publicly funded research are critical for 
maintaining a successful agriculture and food sector. For every $1 
invested in publicly funded agricultural and food research, $20 in 
economic activity is generated. Budgetary decisions made today have 
far-reaching impacts, as the scientific research funded today will be 
responsible for enhancing the Nation's agricultural productivity and 
economic prosperity in the future. A strengthened commitment to 
investments in science for food and agriculture is essential for 
maintaining the Nation's food, economic, and national security.
Agricultural Research Service (ARS)
    ASA, CSSA, and SSSA applaud the Agricultural Research Services' 
(ARS) ability to respond to and address agricultural problems of high 
national priority. ARS's 2,200 scientists are located at 90+ research 
locations, managing 800 research projects that help solve current and 
future crop and livestock production and protection, human nutrition 
and environmental quality challenges. ARS programs and technologies 
ensure high-quality, safe food and other agricultural products; assess 
the nutritional needs of Americans; help to sustain a competitive 
agricultural economy; enhance the natural resource base and the 
environment; and, provide economic opportunities for rural citizens and 
communities. ARS also forms key partnerships that move new technologies 
to the marketplace.
    These partnerships are especially important to leverage during a 
time when our Nation's economy remains vulnerable and Federal funding 
is constrained. Such cooperative research and development helps foster 
American businesses and enhances the position of the United States as a 
global leader in food, feed, fiber and fuel production.
Highlighting National Institute of Food and Agriculture Programs (NIFA)
    Agriculture and Food Research Initiative (AFRI).--ASA, CSSA, and 
SSSA strongly endorse funding AFRI at $325 million, which is less than 
half of what is authorized in the Food, Conservation, and Energy Act of 
2008. AFRI is the premier competitive grants program for fundamental 
and applied research, extension and education in support of our 
Nation's food and agricultural systems. Investments in AFRI bolster 
work performed by ARS, America's land grant colleges and universities, 
the private sector and the American farmer.
    Hatch Act Formula Funding.--ASA, CSSA, and SSSA support $236 for 
Hatch Act formula funds. These funds provide research grants to our 
Nation's great land-grant colleges and universities. Any additional 
cuts to academic funding will reduce the ability of our scientists and 
students to conduct imperative research such as developing drought 
resistant wheat varieties.
    Sustainable Agriculture Research and Education Programs (SARE).--
ASA, CSSA, and SSSA support the President's budget request for SARE at 
$22.7 million. This includes $4.7 million for the Professional 
Development Program and $3.5 million for the creation of a new Federal-
State Matching Grant SARE Program. SARE directly supports farmer-led 
research and development in practices that, in turn, increase food, 
fuel and fiber sustainability. In 2007, 64 percent of farmer and 
rancher grantees noted that because of an SARE project, they had 
achieved higher sales, and another 79 percent had experienced improved 
soil quality.
    Cooperative Extension System.--Extension forms a critical part of 
research, education and extension program integration, a feature unique 
to NIFA. ASA, CSSA, and SSSA support $294 million for Smith-Lever 3(b) 
and 3(c) to support continuing education and research activities.
Natural Resources Conservation Service
    ASA, CSSA, and SSSA also support farm bill conservation programs 
that help farmers and ranchers adopt critical conservation practices to 
reduce soil erosion, conserve water, address nutrient management 
concerns and contribute to carbon sequestration. NRCS conservation 
programs are an essential tool to help mitigate and address the 
challenge of producing the food, feed, fuel and fiber needed for a 
growing global population. We urge the Subcommittee to fund these 
programs at levels agreed to in the 2008 farm bill.
Summary
    A balance of funding mechanisms, including intramural, competitive, 
and formula funding is essential to maintain the capacity of the United 
States to conduct both basic and applied agricultural research, to 
improve crop and livestock quality, and to deliver safe and nutritious 
food products while protecting and enhancing the Nation's environment 
and natural resource base.
    Thank you for your consideration. For additional information or to 
learn more about the ASA, CSSA, and SSSA, please visit 
www.agronomy.org, www.crops.org, or www.soils.org.
                                 ______
                                 
        Prepared Statement of the American Society for Nutrition
    The American Society for Nutrition (ASN) appreciates the 
opportunity to submit testimony regarding fiscal year 2013 
appropriations for the U.S. Department of Agriculture (USDA) National 
Institute of Food and Agriculture's Agriculture and Food Research 
Initiative (AFRI) and the USDA Agricultural Research Service (ARS). 
Founded in 1928, ASN is a nonprofit scientific society with more than 
4,500 members in academia, clinical practice, Government and industry. 
ASN respectfully requests $1.2 billion for USDA's Agricultural Research 
Service, and we urge you to adopt the President's request of $325 
million for the Agriculture and Food Research Initiative competitive 
grants program in fiscal year 2013.
Agriculture and Food Research Initiative
    The USDA has been the lead nutrition agency and the most important 
Federal agency influencing U.S. dietary intake and food patterns for 
years. Agricultural research is essential to address the ever-
increasing demand for a healthy, affordable, nutritious and sustainable 
food supply. The AFRI competitive grants program is charged with 
funding research, education, and extension grants and integrated 
research, extension, and education grants that address key problems of 
national, regional, and multi-state importance in sustaining all 
components of agriculture. These components include human nutrition, 
farm efficiency and profitability, ranching, renewable energy, forestry 
(both urban and agro forestry), aquaculture, food safety, 
biotechnology, and conventional breeding. AFRI has funded cutting-edge, 
agricultural research on key issues of timely importance on a 
competitive, peer-reviewed basis since its establishment in the 2008 
farm bill. Adequate funding for agricultural research is critical to 
provide a safe and nutritious food supply for the world population, to 
preserve the competitive position of U.S. agriculture in the global 
marketplace, and to provide jobs and revenue crucial to support the 
U.S. economy.
    In order to achieve these benefits, AFRI must be able to advance 
fundamental sciences in support of agriculture and coordinate 
opportunities to build off of these discoveries. Therefore, ASN 
strongly urges you to adopt the President's request of $325 million for 
the Agriculture and Food Research Initiative competitive grants program 
in fiscal year 2013. ASN also strongly supports funding AFRI at the 
fully authorized level of $700 million as soon as practical. Current 
flat and decreased funding for AFRI hinders scientific advances that 
support agricultural funding and research.
Agricultural Research Service
    The ARS is the Department of Agriculture's lead scientific research 
agency. The ARS conducts research to develop and transfer solutions to 
agricultural problems of high national priority. It is also the job of 
ARS to ensure high-quality, safe food, and other agricultural products; 
assess the nutritional needs of Americans; sustain a competitive 
agricultural economy; enhance the natural resource base and the 
environment; and provide economic opportunities for rural citizens, 
communities, and society as a whole.
    Nutrition monitoring conducted in partnership by the USDA ARS with 
the Department of Health and Human Services (HHS) is a unique and 
critically important surveillance function in which dietary intake, 
nutritional status, and health status are evaluated in a rigorous and 
standardized manner. (ARS is responsible for food and nutrient 
databases and the ``What We Eat in America'' dietary survey, while HHS 
is responsible for tracking nutritional status and health parameters.) 
Nutrition monitoring is an inherently governmental function and 
findings are essential for multiple Government agencies, as well as the 
public and private sector. Nutrition monitoring is essential to track 
what Americans are eating, inform nutrition and dietary guidance 
policy, evaluate the effectiveness and efficiency of nutrition 
assistance programs, and study nutrition-related disease outcomes. 
Because of past funding deficiencies, some food composition database 
entries don't reflect the current food supply, which may negatively 
impact programs and policies based on this information. It is 
imperative that needed funds to update USDA's food and nutrient 
databases and the ``What We Eat in America'' dietary survey, both 
maintained by the USDA ARS, are appropriated to ensure the continuation 
of this critical surveillance of the Nation's nutritional status and 
the many benefits it provides.
    With the growing need for agricultural research to ensure that the 
country is healthy, ARS requires access to sufficient funding. 
Therefore, ASN requests that ARS receive $1.2 billion in fiscal year 
2013. At least $10 million above current funding levels is necessary to 
ensure that the critical surveillance of the Nation's nutritional 
status and the many other benefits ARS provides continue. With such 
funding, the ARS will be able to continue its vision of leading America 
toward a better future through agricultural research and information.
    USDA AFRI and ARS programs are both equally important to the 
nutrition field because together they provide the infrastructure and 
the investigator-initiated, peer-reviewed research that generates new 
knowledge and allows for rapid progress toward meeting national dietary 
needs. These programs allow USDA to make the connection between what we 
grow and what we eat. Through strategic nutrition monitoring, we can 
also learn how dietary intake affects our health.
    Thank you for your support of USDA ARS and AFRI, and thank you for 
the opportunity to submit testimony regarding fiscal year 2013 
appropriations. Please contact John E. Courtney, Ph.D., Executive 
Officer, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9b3bab6acabadb7bca099b7acadabb0adb0b6b7f7b6abbe">[email&#160;protected]</a>, if ASN may provide further 
assistance.
                                 ______
                                 
   Prepared Statement of the American Society for the Prevention of 
                           Cruelty to Animals
    On behalf of the American Society for the Prevention of Cruelty to 
Animals (ASPCA) and our 2.5 million supporters nationwide, thank you 
for the opportunity to submit this written testimony. Founded in 1866, 
the ASPCA was the first humane organization in North America. Our 
mission, as stated by founder Henry Bergh, is ``to provide effective 
means for the prevention of cruelty to animals throughout the United 
States.'' The ASPCA works to rescue animals from abuse, pass humane 
laws, and share resources with other animal protection groups 
nationwide.
    The fiscal year 2013 Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriations bill presents 
opportunities to not only cut unnecessary and wasteful Federal 
spending, but also to ensure that programs to protect animals are being 
effectively implemented. As you craft the fiscal year 2013 
appropriations bill, the ASPCA asks that you please consider the 
following provisions to ensure that Federal funds are being effectively 
and responsibly spent to protect animals.
Reinstatement of the Ban on Federal Funding for Horse Slaughterhouse 
        Inspections
    The fiscal year 2012 Agriculture Appropriations bill failed to 
include a provision that barred Federal funding of USDA inspectors at 
horse slaughter plants in the United States. Added as an amendment to 
the Agricultural Appropriations bill in 2005, the original measure was 
supported by huge, bipartisan votes (69-28 in the Senate and 269-158 in 
the House). Each successive appropriations bill included the provision 
until last year. This provision effectively prevented horse slaughter 
in the United States for human consumption and saved taxpayers up to $5 
million a year. Now that the ban on inspections has been removed, horse 
slaughterhouses could resume operations on American soil, even though 
horsemeat is not sold for human consumption in the United States.
    This is distressing on two counts. First, at a time when Congress 
is cutting funds for many vital programs across the entire Federal 
budget, it is outrageous that taxpayers would be asked to spend $5 
million for something as senseless as horse slaughter. Second, since 
Americans do not eat horsemeat, this action will benefit only foreign 
markets in Asia and Europe, where horsemeat is considered a delicacy.
    Contrary to what some may claim, horse slaughter does not create 
jobs. The last three remaining slaughter plants in the United States 
only created a handful of physically dangerous and low paying jobs. Nor 
is horse slaughter a humane way to end a horse's life. Horses are ill-
suited for commercial slaughterhouses due to their biology. They often 
endure repeated blows to the head and remain conscious during slaughter 
and dismemberment. The USDA has documented, at length, the cruel 
treatment of horses at domestic slaughterhouses.
    Ending horse slaughter enjoys mainstream, bipartisan support in 
Congress. The American Horse Slaughter Prevention Act, which would 
permanently ban horse slaughter in this country and the export of 
horses for slaughter abroad, has overwhelmingly bipartisan support in 
Congress with 26 cosponsors in the Senate and over 160 in the House. 
Beyond Congress, efforts to end horse slaughter enjoy strong mainstream 
support with the American public. A 2012 poll commissioned by the ASPCA 
and conducted by Lake Research Partners found that 80 percent of 
American voters are opposed to the slaughter of horses for human 
consumption.
    The ASPCA requests that the Committee make the fiscally responsible 
and humane decision to reinstate the ban on Federal funding for horse 
slaughterhouse inspections by the USDA by inserting the following 
language:

    ``None of the funds made available in this Act may be used to pay 
the salaries or expenses of personnel to--
            ``(1) inspect horses under section 3 of the Federal Meat 
        Inspection Act (21 U.S.C. 603);
            ``(2) inspect horses under section 903 of the Federal 
        Agriculture Improvement and Reform Act of 1996 (7 U.S.C. 1901 
        note; Public Law 104-127); or
            ``(3) implement or enforce section 352.19 of title 9, Code 
        of Federal Regulations.''
Maintain or Increase Animal Welfare Act Enforcement Funding for the 
        Inspection of Puppy Mills
    One of the functions of the USDA's Animal and Plant Health 
Inspection Service (APHIS) is to ensure the humane care and treatment 
of animals by enforcing the requirements of the Animal Welfare Act of 
1966 (AWA). Included in this mandate is the inspection of large-scale 
commercial dog breeding operations, which prioritize profit over 
welfare. Dogs raised in these facilities, commonly known as puppy 
mills, spend their entire lives in small, crowded cages without 
adequate veterinary care, food, water, and socialization. These dogs 
receive no exercise or basic grooming. To minimize waste cleanup, dogs 
are often kept in cages with wire flooring that injures their paws and 
legs. Because these cages are often stacked, waste falls through wire 
floors onto the animals housed below. Female dogs usually have little 
to no recovery time between bearing litters. When, after a few years, 
they can no longer reproduce, the dogs are often abandoned or killed.
    In 2010, the USDA's Office of the Inspector General (OIG) released 
a report detailing the lax and ineffective enforcement of the AWA for 
puppy mills. In response, the House Appropriations Committee late last 
year, recognizing the importance of inspecting ``problematic dog 
dealers,'' repurposed $4 million for puppy mill inspection enforcement. 
The same OIG report recommended closing a loophole in the AWA that 
exempts from regulation breeders selling directly to customers over the 
Internet. In compliance with that request, the USDA is currently 
drafting regulations that would close that loophole, thereby increasing 
the number of entities regulated and inspected under the AWA. These 
rules will likely be final by 2013 and will require increased funding 
for pre-licensing inspections of these new entities and for continued, 
annual inspections of these breeding facilities once licensed. The 
ASPCA is disappointed that the President's fiscal year 2013 budget 
request includes a reduction in funding for APHIS's AWA enforcement 
from $28 million in the previous year to $25 million. For fiscal year 
2012, Congress approved a 20 percent increase in the USDA's annual 
budget to strengthen inspections and enforcement of the AWA. This is on 
top of $4 million in reprogrammed fiscal year 2011 funds approved in 
October by House Agriculture Appropriations leaders to address 
problematic dog dealers. We encourage the Committee to continue this 
trend of prioritizing AWA enforcement. The ASPCA requests that the 
Committee maintain or increase the previous year's funding for APHIS's 
Animal Welfare Act enforcement, build upon the advancements of last 
year's repurposing of funds, and encourage the USDA to improve its 
inspections of puppy mills.
Exceed the Statutory Funding Cap for Horse Soring Enforcement
    In addition to enforcing the Animal Welfare Act, APHIS is charged 
with protecting horses through its enforcement of the Horse Protection 
Act (HPA) of 1970. USDA inspectors enforce the HPA by conducting 
surprise inspections at walking horse shows by examining horses for 
soring and the presence of harmful and illegal chemicals. Horse soring 
is a cruel practice in which trainers use painful chemicals and other 
devices to cause such agony to a horse's front limbs that any contact 
with the ground makes the horse quickly jerk up its leg, producing the 
pronounced gait prized by the walking horse industry. Recently, the 
USDA's Office of Inspector General and the U.S. Attorney's Office for 
the Eastern District of Tennessee successfully obtained guilty pleas 
from four individuals arrested for horse soring in Tennessee.
    While the ASPCA applauds these successful prosecutions, in most 
cases the cruelty of horse soring goes unnoticed because USDA officials 
do not have the resources to oversee most shows. In 2011, USDA 
inspectors had the resources to attend just 62 of approximately 700 
walking horse shows nationwide. Other shows were overseen solely by 
inspectors trained and hired by the horse industry itself. Although 
present at only 8-10 percent of shows, USDA inspectors found over 50 
percent of reported violations last year. One of the defendants in the 
recent case in the Eastern District of Tennessee testified that ``every 
Walking Horse that enters into a show ring is sored . . . They've got 
to be sored to walk.'' Clearly the problem is endemic and industry 
self-regulation is not effectively exposing violators. A greater USDA 
presence is necessary to root out the bad actors and hold them 
accountable.
    Since passage of the HPA in 1970, effective USDA enforcement of 
horse soring has been frustrated by a $500,000 statutory funding cap on 
activities under the authority of HPA. Though Congress can choose to 
ignore the cap and fund the program at higher levels, only once, in 
fiscal year 2012, did the Committee choose to do so. If APHIS is to 
eradicate soring, the program must be adequately funded so that it can 
assert a strong and frequent presence at horse shows. It must also have 
proper funding to sample horses for the presence of foreign substances, 
such as those documented in the most recent criminal soring 
prosecutions. Finally, HPA enforcement should not have to rely on lax 
and inadequate industry self-regulation. The agency requires increased 
funding in order to certify independent veterinarians who are not 
biased by their involvement in the walking horse industry. APHIS has 
now begun this process and needs greater resources for the program to 
be effective.
    The President's fiscal year 2013 budget request includes only 
$493,000 for HPA enforcement, which is below the statutory cap and 
below the $696,000 that this Committee provided last year. The ASPCA 
requests that the Committee continue to furnish the USDA with the 
proper resources and continue to exceed the statutory funding cap to 
allow the USDA to properly enforce the Horse Protection Act and prevent 
the cruel practice of horse soring.
Ensure Proper Enforcement of the USDA Ban on Double-Deck Transport of 
        Horses Bound for Slaughter
    Double-deck trailers are dangerous and inhumane when used to 
transport horses. The USDA bans the use of these trailers for horses 
bound for slaughter, stating: ``We do not believe that equines can be 
safely and humanely transported on a conveyance that has an animal 
cargo space divided into two or more stacked levels.'' The USDA's 
Veterinary Services (VS) program is charged with enforcing this 
regulation.
    Double-deck trailers are designed for cattle and other short-necked 
livestock--not horses. Because horses are significantly taller and 
require more head room, these trailers cannot physically provide enough 
space to stand upright, leading to unstable footing, falls, injuries, 
trampling, and death. As long as Congress allows horses to be 
transported and exported for slaughter, VS should take proper steps to 
ensure that horses are not transported in cramped and inhumane double-
deck trailers during their final journeys. Currently, VS does not 
employ sufficient inspectors in the field or at the border to ensure 
that horses are not being transported to slaughter in double-deck 
trailers.
    The ASPCA requests that the Committee direct Veterinary Services to 
properly and effectively enforce the ban on the use of double-deck 
trailers to transport horses bound for slaughter.
Defund Licensing and Relicensing of Class B Dealers
    Currently, two types of animal dealers are licensed by the USDA to 
sell animals for research: Class A ``purpose-bred'' dealers and Class B 
``random source'' dealers. Class A dealers are highly regulated 
businesses that raise their own animals. Class B dealers, on the other 
hand, routinely obtain animals from suppliers with unknown or 
suspicious backgrounds. Many of these suppliers obtain the dogs and 
cats through theft, or by posing as adopters and responding to ``free 
to good home'' advertisements. Class B dealers pay suppliers for each 
animal, creating a financial incentive for individuals to steal pet 
dogs and cats from owners' properties. Class B dealers then sell the 
pets to researchers. As a result, many lost or stolen family pets could 
end up as part of an experiment.
    The USDA spends hundreds of thousands of taxpayer dollars each year 
unsuccessfully trying to regulate Class B dealers. The process is both 
lengthy and time consuming; the USDA must do lengthy ``tracebacks'' to 
try to determine the source of the animals. At one point, the USDA 
estimated that it spent as much as $300,000 to regulate approximately 
10 Class B dealers, or about $30,000 per license. Even so, the 
department acknowledges that it is unable to guarantee that dogs and 
cats are not being illegally acquired for use in experiments. Five of 
the only eight dealers currently in operation are under investigation 
by the USDA, and one was recently indicted on a number of Federal 
charges, including identity theft. Additionally, the inability to 
effectively regulate Class B dealers leads to animals often being kept 
in deplorable and inhumane conditions.
    Removing animals sourced from Class B dealers would have little 
impact on our Nation's research capabilities. In May 2009, a National 
Academies report released on the Class B dealer system concluded that 
``Class B dealers are not necessary for supplying dogs and cats for 
NIH-funded [National Institutes of Health] research.'' The NIH began 
implementing a pilot program in March 2011 to eliminate the use of 
Class B sourced dogs in favor of other more reputable sources for 
NIHsupported research.
    Since the NIH is already taking steps to phase out the use of 
random sourced animals in research, there is no need or justification 
for the USDA to continue to spend Federal funds to support the inhumane 
and corrupt system of Class B dealers. The Committee has an opportunity 
to not only save tax dollars but to also put an end to its tacit 
endorsement of inhumane and possibly illegal businesses.
    The ASPCA requests that the Committee insert the following language 
to prohibit the USDA from spending funds on new licensing or 
relicensing of Class B Dealers:

    ``Provided, That appropriations herein made shall not be available 
for any activities or expense related to the licensing of new Class B 
dealers who sell live, random source dogs and cats for use in research, 
teaching, or testing, or to the renewal of licenses of existing Class B 
dealers who sell live, random source dogs and cats for use in research, 
teaching, or testing''.
Defund Wildlife Services' Lethal Predator Control
    The USDA's Wildlife Services (WS) division is a little-known 
Federal agency that uses tax dollars to kill wildlife species 
considered by private landowners and ranchers to be problematic or 
nuisances. Unattended traps and poisons--and even helicopter hunting--
are all routine features of WS's campaign to kill wildlife. Their work 
is often carried out without oversight, fiscal accountability, or 
public notification. The methods they employ are often indiscriminate 
and ineffective. In some cases, WS traps and poisons have 
unintentionally killed beloved family pets.
    The WS lethal predator control program is a waste of taxpayer 
dollars. Not only does WS provide a subsidized service for private 
landowners, but also its indiscriminate and random targeting of 
predators is not based on sound science. The USDA estimates that it 
spends $10 million on its lethal predator control program. By cutting 
this wasteful and unnecessary program, Congress can ensure that U.S. 
taxpayers will stop subsidizing risky wildlife control methods for the 
benefit of private property owners.
    The ASPCA requests that the Committee act in a fiscally sound and 
humane manner and reduce funding for Wildlife Services Damage 
Management by $10 million.
Direct APHIS Veterinary Services To Prioritize Twenty-Eight Hour Law 
        Enforcement
    Passed in 1873, the Twenty-Eight Hour Law states that animals 
cannot be transported interstate via ``rail carrier, express carrier, 
or common carrier'' for more than 28 hours consecutively without being 
unloaded for rest, food, and water. It was not until 2005 that the USDA 
agreed to extend the statute to interstate truck transport, which 
comprises the overwhelming majority of modern farm animal transport. 
The Twenty-Eight Hour Law is an important protection for livestock, as 
many travel great distances en route to livestock auctions and 
slaughter facilities. However, enforcement of this act is still 
lacking. APHIS Veterinary Services (VS) program is charged with 
enforcing the Federal Twenty-Eight Hour Law. Like its lax enforcement 
of the ban on double-decked trailers for horses bound for slaughter, VS 
has not made enforcement of the Twenty-Eight Hour Law an enforcement 
priority.
    The ASPCA requests that the Committee direct APHIS Veterinary 
Services to prioritize Twenty-Eight Hour Law enforcement.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB) we 
submit this statement for the official record in support of funding for 
agricultural research by the U.S. Department of Agriculture (USDA). 
ASPB supports the requested level for USDA's Agriculture and Food 
Research Initiative (AFRI) of $325 million as well as the requested 
level of the Agricultural Research Service (ARS) at $1.13 billion.
    This testimony highlights the importance of biology, particularly 
plant biology, as the Nation seeks to address vital issues including a 
sustainable food supply, energy security, and protecting our 
environment. We would like to thank the Subcommittee for its 
consideration of this testimony and for recognizing that its support of 
agricultural research is an important investment in America's future in 
this difficult fiscal environment.
Food, Fuel, Environment, and Health: Plant Biology Research and 
        America's Future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
all life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of basic biological principles that underpin improvements in the health 
and nutrition of all Americans.
    Despite the fact that foundational plant biology research--the kind 
of research funded by agencies such as USDA--underpins vital advances 
in practical applications in agriculture, health, energy, and the 
environment, the amount of money invested in understanding the basic 
function and mechanisms of plants is relatively small. In his 2012 
annual letter Bill Gates wrote, ``Given the central role that food 
plays in human welfare and national stability, it is shocking--not to 
mention short-sighted and potentially dangerous--how little money is 
spent on agricultural research.'' \1\ This is especially true 
considering the significant positive impact crop plants have on the 
Nation's economy and in addressing some of our most urgent challenges 
like food and energy security.
---------------------------------------------------------------------------
    \1\ http://www.gatesfoundation.org/annual-letter/2012/Pages/home-
en.aspx.
---------------------------------------------------------------------------
    Understanding the importance of these areas and in order to address 
future challenges, ASPB organized the Plant Science Research Summit 
held in September 2011. With funding from the National Science 
Foundation, USDA, Department of Energy, and the Howard Hughes Medical 
Institute, the Summit brought together representatives from across the 
full spectrum of plant science research to identify critical gaps in 
our understanding of plant biology that must be filled over the next 10 
years or more in order to address the grand challenges facing our 
Nation and our planet. The grand challenges identified at the Summit 
include:
  --In order to feed everyone well, now and in the future, advances in 
        plant science research will be needed for higher yielding, more 
        nutritious varieties able to withstand a variable climate.
  --Innovations leading to improvements in water use, nutrient use, and 
        disease and pest resistance that will reduce the burden on the 
        environment are needed and will allow for improved ecosystem 
        services such as clean air, clean water, fertile soil, and 
        biodiversity benefits such as pest suppression and pollination.
  --In order to fuel the future with clean energy--and to ensure that 
        our Nation meets its fuel requirements--improvements are needed 
        in current biofuels technologies including breeding, crop 
        production methods, and processing.
  --For all the benefits that advances in plant science bestow--in food 
        and fiber production, ecosystem and landscape health, and 
        energy subsistence--to have lasting, permanent benefit they 
        must be economically, socially, and environmentally 
        sustainable.
    In spring 2012, a report from the Plant Science Research Summit 
will be published. This report will further detail priorities and needs 
to address the grand challenges.
Recommendations
    Because of our membership's extensive expertise and participation 
in the academic, industry and Government sectors, ASPB is in an 
excellent position to articulate the Nation's plant science priorities 
as they relate to agriculture. Our recommendations are as follows:
  --Since the establishment of NIFA and AFRI, interest in USDA research 
        has increased dramatically, a trend ASPB hopes to see grow in 
        the future. However, much higher investment in competitive 
        funding is needed if the Nation is to continue to make ground-
        breaking discoveries and accelerate progress toward addressing 
        urgent national priorities. ASPB encourages the appropriation 
        of the requested level of $325 million in fiscal year 2013 for 
        AFRI, which, although far short of the authorized level of $700 
        million, provides sound investment in today's fiscal 
        environment.
  --The Agricultural Research Service (ARS) provides vital research to 
        serve USDA's mission and objectives and the Nation's 
        agricultural sector. The need to bolster ARS efforts to 
        leverage and complement AFRI is great given the challenges in 
        food and energy security. ASPB is supportive of a strong ARS 
        and supports the $1.13 billion request for ARS in fiscal year 
        2013.
  --USDA has focused attention in several key priority areas including 
        childhood obesity, climate change, global food security, food 
        safety, and sustainable bioenergy. Although ASPB appreciates 
        the value of such strategic focus, ASPB also emphasizes the 
        importance of robust support for AFRI's Foundational Program 
        because scientific research supported by this program provides 
        a basis for outcomes across a wide spectrum, often leading to 
        groundbreaking developments that cannot be anticipated in 
        advance.
  --Current estimates predict a significant shortfall in the needed 
        scientific and engineering workforce as the demographics of the 
        U.S. workforce change. For example, there is a clear need for 
        additional scientists in the areas of interdisciplinary energy 
        research and plant breeding. ASPB applauds the creation of the 
        NIFA Fellows program and calls for additional funding of 
        specific programs (e.g., training grants and fellowships) to 
        provide this needed workforce over the next 10 years and to 
        adequately prepare these individuals for careers in the 
        agricultural research of the future.
  --Considerable research interest is now focused on the use of plant 
        biomass for energy production. However, if crops are to be used 
        to their full potential, extensive effort must be expended to 
        improve the understanding of their basic biology and 
        development, as well as their agronomic performance. Therefore, 
        ASPB calls for additional funding that would be targeted to 
        efforts to increase the utility and agronomic performance of 
        bioenergy crops.
  --With NIFA now in place, USDA is in a strong position to cultivate 
        and expand interagency relationships (as well as relationships 
        with private philanthropies) to take on bolder new initiatives 
        to address grand challenges related to food, energy, the 
        environment, and health. ASPB also appreciates the need to 
        focus resources in key priority areas. However, ASPB emphasizes 
        continued focus on individual grantees, in addition to group 
        awards and larger multi-institution partnerships. Truly 
        paradigm shifting discoveries cannot be predicted through 
        collaborative efforts alone and, thus, there is a need to 
        maintain a broad, diverse, and robust research agenda.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
ASPB if we can be of any assistance in the future. For more information 
about the American Society of Plant Biologists, please see 
www.aspb.org.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    Thank you for the opportunity to submit testimony as you consider 
fiscal year 2013 funding priorities. Our testimony addresses the U.S. 
Department of Agriculture's Animal Care Program of the Animal and Plant 
Health Inspection Service, and the Food Safety and Inspection Service. 
AWI has also joined several horse show industry organizations, other 
animal protection groups, and the key association of equine 
veterinarians on a separate statement calling for sufficient funding to 
enable USDA to do a better job enforcing the Horse Protection Act.
Animal Care/Animal Welfare Act Enforcement/Class B Random Source 
        Dealers
    In 1966, Congress passed the Animal Welfare Act (AWA) to prevent 
the mistreatment of animals and to assure families that their pets 
would not be sold for laboratory experiments after an expose revealed 
the widespread theft of pets for that purpose.
    Unfortunately, 46 years later, this is still a problem. Despite the 
well-meaning intent of the AWA and the enforcement efforts of the U.S. 
Department of Agriculture (USDA), the AWA routinely fails both to 
reliably protect pet owners against the actions of Class B dealers who 
sell random source dogs and cats for use in research (also known as 
``random source'' dealers), and to ensure that these dealers provide 
humane care for the dogs and cats kept on their premises.
    In response to repeated requests from Congress, the National 
Institutes of Health (NIH) funded a study by the National Academy of 
Sciences (NAS) of the use of Class B dogs and cats in NIH-funded 
research. The NAS's 2009 report ``Scientific and Humane Issues in the 
Use of Random Source Dogs and Cats in Research'' describes a 
``complicated tangle of trade'' in animals sold for use in experiments, 
and notes that ``loopholes in the AWR [Animal Welfare Regulations] 
permit pets to enter the research pipeline via Class B dealers.'' 
Furthermore, ``. . . USDA could not offer assurances that pet theft 
does not occur, and agreed that such a crime is exceedingly difficult 
to prove . . .'' That difficulty notwithstanding, the report stated 
that there are ``descriptions of thefts provided by informants in 
prison . . . and documented accounts of lost pets that have ended up in 
research institutions through Class B dealers.'' (p.84)
    [As part of its mandate, the NAS report assessed whether there is a 
scientific rationale for recipients of research grants from NIH to 
purchase dogs and cats from random source Class B dealers. The report 
concluded that there is not.]
    Across the Nation, these random source Class B dealers--and the 
middlemen who work for them, known as ``bunchers''--use deceit and 
fraud to acquire dogs and cats. Their tactics include tricking animals' 
owners into giving away their dogs and cats by posing as someone 
interested in pet adoption, and the outright theft of family pets left 
unattended. The treatment of the animals sold by these random source 
Class B dealers is shocking and cruel. Hundreds of animals are kept in 
squalid conditions and are denied much needed veterinary care. Again, 
the NAS report cited a variety of problems with regard to animal 
welfare and enforcement.
    USDA has had to implement a lengthy and time-consuming enforcement 
protocol for these random source dealers, involving quarterly 
inspections (more than any other licensees) and ``tracebacks,'' in 
order to attempt to verify the source of their animals. While it is 
exceedingly difficult to put a price tag on this exaggerated level of 
oversight, USDA did estimate for the NAS report, at a time when 11 
random source Class B dealers were still in business, that it was 
spending as much as $300,000 per year to regulate that small number of 
dealers. There are now eight dealers left, with one's license still 
suspended and four others under investigation. One dealer who recently 
gave up his license had been indicted on a number of Federal charges, 
including conspiracy, aggravated identity theft, mail fraud, and making 
false statements to a Federal agency.
    Congress, too, has spent an inordinate amount of time reviewing the 
actions of Class B dealers and prodding USDA and NIH to address their 
respective Class B dealer problems. NIH long ago banned its intramural 
researchers from using Class B dealers but had until recently ignored 
Congress' repeated calls for it to do likewise with respect to outside 
researchers.
    As a result of the NAS report, ongoing congressional interest, 
enhanced (but disproportionate to their numbers) oversight by USDA, and 
evaporating demand for their dogs and cats, very few of these dealers 
remain, and with NIH's phased-in ban on the use of Class B dealers by 
its extramural researchers, the Class B dealer system has become a 
cruel and expensive anachronism. Those who continue to operate are an 
unjustifiable drain on USDA's resources. However, as long as it is 
possible to issue and renew licenses for such dealers, there is the 
risk that this anachronism will continue to limp along, wasting 
taxpayer money and perpetuating the inhumane treatment of animals and 
the trade in illegally acquired dogs and cats.
    For this reason, we respectfully request that Congress prohibit any 
further spending by USDA both to grant new licenses and to renew 
existing licenses for Class B dealers selling dogs and cats for 
research purposes by including the following language in the report 
accompanying the fiscal year 2013 agriculture appropriations:

    ``Provided, That appropriations herein made shall not be available 
for any activities or expense related to the licensing of new Class B 
dealers who sell dogs and cats for use in research, teaching, or 
testing, or to the renewal of licenses of existing Class B dealers who 
sell dogs and cats for use in research, teaching, or testing''.

    While this step in and of itself will not immediately save much 
money, it will lead to more significant savings later as USDA's 
enforcement load with respect to these entities is eliminated.
Food Safety and Inspection Service/Humane Methods of Slaughter Act 
        Enforcement
    We appreciate the generous support provided by Congress during the 
past decade for enforcing the Humane Methods of Slaughter Act (HMSA). 
While USDA's enforcement of the law has increased recently, attention 
to the issue remains uneven among Federal regional districts.
    An analysis of Humane Activities Tracking System (HATS) data 
reveals that in calendar year 2010, some USDA districts spent 10-20 
times the number of hours on humane enforcement, per animal 
slaughtered, as other districts. Overall, USDA continues to allot an 
extremely small percentage of its resources to humane slaughter. For 
example, in calendar year 2010, only 0.5 percent of all noncompliance 
records written by FSIS were for humane violations.
    Repeat violators present a major enforcement problem for FSIS. Of 
the 205 federally inspected plants that have been suspended for humane 
slaughter violations since January 1, 2008, 32 percent have been 
suspended more than once within a 1 year period. Moreover, 32 plants 
have been suspended on three or more occasions during the past 4 years.
    Federal inspection personnel have inadequate training in humane 
enforcement and inadequate access to humane slaughter expertise. 
Enforcement documents reveal that inspectors often react differently 
when faced with similar violations. District Veterinary Medical 
Specialists (DVMS) are stationed in each district to assist plant 
inspectors with humane enforcement and to serve as a liaison between 
the district office and headquarters on humane matters. However, the 
work load of each of the 15 DVMSs, which includes visiting each meat 
and poultry plant within the district to perform humane audits and 
conducting verification visits following suspensions, severely limits 
the effectiveness of the role.
    The problems of inadequate and inconsistent enforcement can be 
resolved by increasing the number and qualifications of the personnel 
assigned to humane handling and slaughter duties. No fewer than 140 
full-time equivalent positions should be employed for purposes 
dedicated solely to inspections and enforcement related to the HMSA. In 
addition, the number of DVMS positions should be increased to a minimum 
of two per district. It is essential that the DVMS role, and humane 
slaughter enforcement overall, not be weakened as a consequence of the 
planned consolidation of FSIS districts. Enforcement records suggest 
that violations are reported with greater frequency in the presence of 
outside inspection personnel, such as DVMSs. Hiring additional DVMSs 
will provide for increased auditing and training to help uncover 
problems before they result in egregious humane handling incidents.
Animal Care/Horse Protection Act Enforcement/Requested: $891,000
    We request that you support $891,000 for strengthened enforcement 
of the Horse Protection Act (HPA). Congress enacted the HPA in 1970 to 
make illegal the abusive practice of ``soring,'' by which unscrupulous 
trainers deliberately inflict pain on Tennessee Walking Horses' hooves 
and legs to exaggerate their high-stepping gait and gain unfair 
competitive advantage at horse shows. They use such abominable 
practices as applying caustic chemicals and then using plastic wrap and 
tight bandages to ``cook'' those chemicals deep into the horse's flesh 
for days; attaching heavy chains to slide up and down the horse's sore 
legs; inserting metal screws or other foreign objects into the 
sensitive areas of the hooves; cutting the hooves down to expose the 
live tissue; and using salicylic acid or other painful substances to 
slough off scarred tissue in an attempt to disguise the sored areas.
    A report released in October 2010 by USDA's Office of Inspector 
General documents significant problems with the industry self-
monitoring system on which the seriously understaffed APHIS inspection 
program relies, recommends its abolition, and calls for funding to 
enable the agency to more adequately enforce the law.
    We greatly appreciate the appropriation last year of $696,000 for 
Horse Protection Act enforcement. Under its historic levels of funding, 
Animal Care inspectors were able to attend only about 10 percent of the 
more than 500 Tennessee Walking Horse shows held annually. Sustained 
support at the requested level of $891,000 will help ensure that this 
program doesn't lose ground now that it is finally beginning to address 
the need for additional inspectors, training, security (due to threats 
of violence against inspectors), and advanced detection equipment 
(thermography and gas chromatography/mass spectrometry machines).
Horse Slaughter
    In 2006, the U.S. House of Representatives and U.S. Senate 
overwhelmingly approved language that prevented tax dollars from being 
used to inspected horse slaughter facilities. This language remained in 
effect until it was removed in conference last year, despite having 
been approved by the full House Appropriations Committee. Allowing 
horse slaughter to resume will only bring this well-documented abuse to 
U.S. soil at great expense to the horses and the American public.
    Given the financial troubles facing the Nation, we encourage the 
Committee to accept this bipartisan language while the full Congress 
moves to pass a ban on horse slaughter:

    ``None of the funds made available in this Act may be used to pay 
the salaries or expenses of personnel to--
            (1) inspect horses under section 3 of the Federal Meat 
        Inspection Act (21 U.S.C. 603);
            (2) inspect horses under section 903 of the Federal 
        Agriculture Improvement and Reform Act of 1996 (7 U.S.C. 1901 
        note; Public Law 104-127);
            (3) implement or enforce section 352.19 of title 9, Code of 
        Federal Regulations;
            (4) promulgate or implement a fee-for-service-based Federal 
        horsemeat inspection scheme.''.
                                 ______
                                 
             Prepared Statement of Catholic Relief Services
    On behalf of Catholic Relief Services (CRS) I thank the 
Agriculture, Rural Development, Food and Drug Administration, and 
Related Agencies Subcommittee for this opportunity to testify on fiscal 
year 2013 appropriations under your jurisdiction.
    CRS is the relief and development agency of the U.S. Catholic 
Church. The Catholic Church's social teaching informs the work of CRS 
and our focus on the poorest people in the poorest parts of the world. 
The Church has broad and deep experience combating poverty and CRS has 
direct experience as an implementer of foreign assistance projects for 
almost 70 years, and is currently operating in 100 countries around the 
world. CRS programs address HIV and AIDS, health, education, civil 
society, food security, agriculture, emergency relief, WASH, and peace 
building. The Catholic Church in the United States also has abiding 
relationships and regular contact with the church in developing 
countries, where our worldwide community serves the needs of the 
poorest members of the human family. In fact, CRS counts institutions 
of the local Catholic Church as important local partners in many 
countries, and works through the church's network abroad to reach 
significantly more people, and often in communities inaccessible to the 
local government or other actors.
    CRS acknowledges the difficult fiscal challenges that Congress 
faces, including fulfilling our obligations to future generations. We 
welcome thoughtful efforts to reduce our Nation's deficit and debt. But 
even in this context, the most poor and vulnerable must have adequate 
access to our Nation's limited resources. We therefore urge Congress to 
be fiscally responsible in morally responsible ways. We urge Congress 
and the Subcommittee in particular, not to make cuts to international 
poverty-focused humanitarian relief and development assistance.
    CRS has five specific requests related to the Agriculture 
appropriations that we ask you to consider:
  --CRS is advocating for a reauthorization of Title II of Public Law 
        480, the Food for Peace Program, of at least $2 billion per 
        year before the Senate and House Agriculture Committees. We 
        encourage the Agriculture Appropriations Subcommittee to meet 
        our recommended authorized funding levels, but in light of the 
        tight fiscal climate, we consider $1.5 billion the absolute 
        minimum that should be appropriated to Title II in fiscal year 
        2013.
  --Within the amounts appropriated for Title II, CRS requests that the 
        Agriculture Appropriations Subcommittee direct a minimum of 
        $450 million to development programs, and that the existing 
        waiver system safe guarding these funds remain unchanged and 
        intact.
  --To make more efficient use of resources, CRS encourages the 
        Agriculture Appropriations Subcommittee to direct additional 
        Title II funding to cash resources, which we believe will help 
        to address the inefficiencies of commodity monetization.
  --Similarly, to make more efficient use of resources, CRS encourages 
        the Agriculture Appropriations Subcommittee to direct the use 
        of Title II funds toward Local and Regional Procurement (LRP), 
        which has proven to be an effective tool in the implementation 
        of emergency and development programs under certain 
        circumstances.
  --CRS requests that the Agriculture Appropriations Subcommittee 
        appropriate $250 million for the McGovern-Dole Food for 
        Education Program.
    For the duration of the testimony, I will explain our 
justifications for these requests.
    Title II should be reauthorized for at least $2 billion per year, 
and CRS supports yearly appropriations that match this level, but at 
minimum $1.5 billion should to be appropriated to Title II in fiscal 
year 2013.
    It is estimated that around 100 million people will require 
emergency food assistance \1\ and more than 925 million people will 
continue to suffer from chronic hunger worldwide.\2\ CRS estimates it 
would take more than $12 billion annually to effectively address these 
needs. While this global need exceeds the budgetary constraints of the 
U.S. Government, we believe it is our moral imperative to provide as 
much assistance as we can to the world's poor.
---------------------------------------------------------------------------
    \1\ World Food Program USA, Emergency Response, at http://
usa.wfp.org/advocate/emergency-response, last visited March 21, 2012.
    \2\ United Nations Food and Agriculture Organization, The State of 
Food Insecurity in the World (2010), at 8, available at http://
www.fao.org/docrep/013/i1683e/i1683e00.htm.
---------------------------------------------------------------------------
    Title II has been, and continues to be, the U.S. Government's 
premier mechanism to fight chronic hunger and meet the food needs of 
those in emergency situations. In 2011, Title II funding helped CRS 
respond to the devastating drought and famine in the Horn of Africa 
that affected more than 12 million people.\3\ CRS worked in consortium 
with other international and local organizations to provide life-saving 
food to more than 2 million Ethiopians, while also helping households 
protect productive assets, particularly livestock, which is an 
important source of food and serves as a savings mechanism that is 
available when absolutely necessary.
---------------------------------------------------------------------------
    \3\ Drought and Famine in the Horn of Africa, Testimony of 
Assistant Administrator, Bureau for Democracy, Conflict, and 
Humanitarian Assistance, U.S. Agency for International Development 
(USAID), Nancy E. Lindborg, Before the Committee on Foreign Relations 
Subcommittee on African Affairs. Washington, DC. August 3, 2011.
---------------------------------------------------------------------------
    Looking ahead to 2012, the Famine Early Warning System has 
predicted food shortfalls in the Sahel region of West Africa for the 
coming year. Much like the Horn of Africa, the Sahel has faced in 
recent years cyclical periods of food deficit due to increasingly 
inadequate rainfall and farmers' unfamiliarity with cultivation 
practices tailored to such dry conditions. CRS's current development 
programs in the region help the poor and vulnerable prepare for 
impending food crises through interventions like dry season market 
gardening projects.\4\ In areas where no development programs exist, 
Title II will likely be needed to fund any potential emergency response 
in the Sahel to meet impending acute food needs. Title II will also 
continue to be a necessary source of funding for other unexpected 
global emergencies stemming from natural disasters and human conflict.
---------------------------------------------------------------------------
    \4\ Nancy Lindborg, Assistant Administrator, Democracy, Conflict, 
and Humanitarian Assistance, USAID, Responding Early and Building 
Resilience in the Sahel, The Huffington Post, March 3, 2012, available 
at http://www.huffingtonpost.com/nancy-lindborg/responding-early-and-
buil_b_1316234.html. The article focuses on a CRS market garden program 
in Burkina Faso that was funded through 2009, and is still in operation 
under its own accord.
---------------------------------------------------------------------------
    Within the amounts appropriated for Title II, a minimum of $450 
million should be directed to development programs and the existing 
waiver system protecting these funds should be preserved.
    As mentioned above, more than 925 million people suffer from 
chronic hunger worldwide, yet there are insufficient resources to meet 
these needs. Title II development programming is the primary U.S. 
Government funded program to directly address the underlying causes of 
chronic hunger. These programs distribute U.S. food commodities and use 
complementary programming to address all aspects of food security, 
including agricultural production, health, and nutrition.
    Development programs are designed to promote self reliance, long-
term sustainability, resilience in poor communities, which in the long-
run can reduce their need for emergency assistance. For example, in the 
recent drought and famine in the Horn of Africa in 2011, CRS worked 
alongside other aid providers, the U.S. Agency for International 
Development, and the Government of Ethiopia, to implement a national 
Productive Safety Net Program (PSNP). The program, funded in large part 
by Title II development resources, distributed food and cash to the 
most vulnerable, giving communities the means to withstand the 
drought's affects and making more costly emergency assistance 
unnecessary for 7 million Ethiopians.\5\
---------------------------------------------------------------------------
    \5\ Nancy Lindborg, Assistant Administrator, Democracy, Conflict, 
and Humanitarian Assistance, USAID, Building Resilience in the Horn of 
Africa, USAID IMPACT blog, Dec. 19, 2011, available at http://
blog.usaid.gov/2011/12/building-resilience-in-the-horn-of-africa/.
---------------------------------------------------------------------------
    The United States response to chronic hunger through Title II 
continues to be disproportionately low compared to the need, and 
compared to resources provided for emergencies. Prior to the 2008 farm 
bill, 75 percent of Title II resources were allocated to development 
programs, but a weak waiver system allowed these resources to be 
diverted for emergencies. Ultimately, development program funding 
during this period was whittled down to only a small fraction of 
overall Title II funding. To address this siphoning of development 
funding, the 2008 farm bill authorized specific funding levels each 
fiscal year \6\ and established a stronger waiver mechanism.\7\ Both of 
these additions have greatly aided development programming by ensuring 
a reliable funding source, and are generally referred to as the 
``safebox.''
---------------------------------------------------------------------------
    \6\ 7 U.S.C. Sec. 1736f(e)(1).
    \7\ This waiver requires following to occur before funds protected 
by the development safebox can be used for emergencies: (1) the 
President to determine that an extraordinary food emergency exists; (2) 
resources from the Bill Emerson Humanitarian Trust be exhausted; and 
(3) the President has to submit a request for additional appropriations 
to Congress equal to the reduction in the safe box and Emerson Trust. 
See, 7 U.S.C. Sec. 1736f(e)(2).
---------------------------------------------------------------------------
    It is critical that development programs have steady and reliable 
funding because they require a multiyear approach to achieve a 
sustainable impact on chronic hunger. When funding levels shift 
dramatically from year to year, it is hard to ensure program 
objectives, like improved agricultural production or behavior changes 
around nutrition practices, are met. Funding for development programs 
should remain consistent with recent authorized and appropriated 
amounts. CRS therefore requests that the Subcommittee direct $450 
million to development programs in fiscal year 2013, the same level 
authorized in fiscal year 2012. Furthermore, CRS requests that the 
Subcommittee protect the integrity of the safebox by maintaining the 
current waiver provision. We believe it is a common sense approach to 
ensuring development funding is not siphoned off for emergencies unless 
other emergency funding sources have been exhausted.
    To make more efficient use of resources, CRS encourages the 
Agriculture Appropriations Subcommittee to consider making more cash 
resources available within Title II funding.
    Improving food security requires more than just food. Essential 
complementary activities in development programs ensure that gains made 
by food distribution programs can be sustained.\8\ For example, some 
development programs provide new mothers with nutrition and sanitation 
education so that good health practices continue even after programs 
are completed. Programs also distribute food in exchange for community 
work. These programs contribute to long-term food security by building 
roads for better access to markets and by digging irrigation systems to 
grow crops.
---------------------------------------------------------------------------
    \8\ Bonnard, P., et al. Report of the Food Aid and Food Security 
Assessment: A Review of the Title II Development Food Aid Program 
(2002).
---------------------------------------------------------------------------
    Complementary programs require cash funding to acquire basic inputs 
such as tools, seeds, and building materials, as well as to hire 
technical staff to train, mentor and support beneficiaries. However, 
Title II does not provide cash funding to cover these expenses. Rather, 
implementers like CRS engage in the practice of monetization, which is 
the sale of U.S. in-kind food donations abroad to generate proceeds 
that go to pay for program costs. Monetization is considered an 
inefficient mechanism to pay for development programs because the costs 
incurred to buy, ship, and sell U.S. commodities overseas are often 
greater than the proceeds raised. In the absence of cash resources, CRS 
values the use of monetization to support program activities, but to 
address the inefficiencies of monetization CRS believes more cash 
resources should be made available within Title II, which can be used 
to fund the necessary complementary activities that are vital in 
development programming.
    One option to increase cash resources is to increase funding 
available under the existing 202e provision of Title II, and broaden 
the allowable uses of this funding source. Under the current 
authorization of the farm bill, 202e permits up to 13 percent of Title 
II funding to be provided in cash and used for a discrete set of 
purposes related to program implementation.\9\ However, the limitations 
placed on the use of 202e hamstring the ability of this mechanism to 
provide necessary flexibility in program budgets. The Committee could 
address this by expressly directing additional Title II funding to be 
used for 202e, and allowing 202e to cover any type of program cost. If 
the Agriculture Appropriations Subcommittee pursued this course, CRS 
recommends that appropriations directed to 202e should be to up to 25 
percent of overall Title II funding. Further, other options for 
providing additional cash resources do exist, and CRS would be happy to 
discuss these with the Subcommittee.
---------------------------------------------------------------------------
    \9\ 7 U.S.C. 1721(e)(1).
---------------------------------------------------------------------------
    To make more efficient use of resources, CRS encourages the 
Agriculture Appropriations Subcommittee to consider allowing the use of 
Local and Regional Procurement (LRP) as a tool to implement emergency 
and development programs under Title II.
    The 2008 farm bill authorized a small 5-year pilot program for 
Local and Regional Procurement (LRP) of food assistance.\10\ Recent 
analysis conducted through Cornell University and implementing 
organizations demonstrates that program activities undertaken as part 
of the pilot can be cost-efficient, effective in saving lives during 
emergencies, and enables communities to improve long-term food security 
through development activities.\11\ More specifically, the pilot showed 
that LRP can save money, varying by commodity, with the most cost 
savings at 53 percent for cereals when compared to U.S. commodities. 
LRP can also save time, reducing the transportation costs relative to 
U.S. in-kind shipments by an average of 13.8 weeks. Further, several 
development LRP interventions funded through the pilot program showed 
that LRP has multiple potential benefits, including linking smallholder 
food producers to markets, building local capacity for food processing, 
milling and fortification, and expanding availability and access to 
highly nutritious foods.\12\
---------------------------------------------------------------------------
    \10\ Currently USAID provides a limited level of assistance for 
local and regional purchase in emergencies through the Emergency Food 
Security Program funded in the International Disaster Assistance (IDA) 
Account. Unlike the LRP Pilot Program, IDA funded LRP cannot be used 
for non-emergency purpose.
    \11\ Erin C. Lentz, Christopher B. Barrett, and Miguel I. Gomez, 
``The Impacts of Local and Regional Procurement of U.S. Food Aid: 
Learning Alliance Synthesis Report, ``Final Report: A Multidimensional 
Analysis of Local and Regional Procurement of U.S. Food Aid,'' January 
2012, available at http://dyson.cornell.edu/faculty_sites/cbb2/papers/
LRP%20Ch%201%20Lentz%20et%20al%2011Jan2012Update.pdf. Formally, this 
collaboration was known as the Local and Regional Procurement (LRP) 
Learning Alliance, which began as a collaboration among organizations 
implementing LRP programs (Catholic Relief Services, Land O'Lakes, 
Mercy Corps, World Vision) and Cornell University, to monitor and 
analyze the market impacts of LRP. Since the closing of the LRP Pilot 
Program, the Learning Alliance continues to work on knowledge sharing 
to improve the efficacy of LRP as a whole, and has welcomed other LRP 
implementers, including Fabretto Children's Foundation, International 
Relief and Development, ACDI/VOCA, CARE and the United Methodist 
Committee on Relief.
    \12\ At present, food assistance programs authorized through the 
farm bill allow implementing partners to purchase enriched, nutritious 
products only if they are produced in the United States. By supporting 
the development and production of locally procured foods, including 
those used for therapeutic and targeted feeding programs, LRP can 
address this gap.
---------------------------------------------------------------------------
    CRS's LRP pilot program in Mali successfully integrated into an 
existing school feeding initiative, and realized cost savings of 46 
percent for peas and 62 percent for grains. In our program, LRP was 
also timely by having food available at the beginning of the school 
year. The program also had noteworthy developmental impacts; for 
instance, through farmer field trainings, the program improved local 
production and storage of harvests, and by purchasing locally sourced 
foods the program helped develop a source for locally led school 
feeding programs in the future.
    The evidence to date demonstrates that LRP can have significant 
benefits, though it also shows that LRP isn't necessarily appropriate 
in all situations. The context of any food crisis should frame the 
decision of which food assistance tool should be used. We simply 
encourage the Agriculture Appropriations Subcommittee to allow LRP 
programming to be used as a tool within Title II, so that LRP can, 
where appropriate, achieve cost savings in some Title II programs.
    CRS requests that the Agriculture Appropriations Subcommittee 
appropriate at minimum $250 million for the McGovern-Dole Food for 
Education Program.
    The McGovern Dole Food for Education (FFE) program supports 
education, child development, and food security initiatives for some of 
the world's poorest children through donations of U.S. food 
commodities, as well as financial and technical assistance for school 
feeding and nutrition projects. FFE has successfully increased school 
enrollment by feeding school children. CRS recently implemented a FFE 
program in Mali, serving 45,000 individuals over 3 years. In this 
program more than 5 million meals, as well as vitamins and medications, 
were distributed among 120 schools. Our program increased school 
enrollment in targeted communities for boys from 26 percent to 32 
percent and for girls from 39 percent to 55 percent. As education and 
nutrition are inextricably linked to a promising future for all 
children, CRS requests $250 million be appropriated for the FFE 
program. By targeting the most poor and vulnerable early in their 
lives, we hope to curb their need for U.S. assistance in the future.
    Thank you for your many years of partnership with CRS and for this 
opportunity to reiterate our values and report back to you on our 
experiences.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    Waters from the Colorado River are used by approximately 35 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (BOR) has estimated 
the current quantifiable damages at about $300 million per year. 
Congress authorized the Colorado River Basin Salinity Control Program 
(Program) in 1974 to offset increased damages caused by continued 
development and use of the waters of the Colorado River. Modeling by 
BOR indicates that the quantifiable damages would rise to more than 
$500 million by the year 2030 without continuation of the Program. The 
USDA portion of the Program, as authorized by Congress and funded and 
administered under the Environmental Quality Incentives Program (EQIP), 
is an essential part of the overall effort. A funding level at 
approximately $18 million annually is required to prevent further 
degradation of the quality of the Colorado River and increased 
downstream economic damages.
    Congress concluded that the Colorado River Basin Salinity Control 
Program should be implemented in the most cost-effective way. The 
Program is funded under EQIP, the U.S. Bureau of Reclamation's 
Basinwide Program, and a cost share for both of these programs provided 
by the Basin States. Realizing that agricultural on-farm strategies 
were some of the most cost-effective strategies,
    Congress authorized a program for the United States Department of 
Agriculture (USDA) through amendment of the Colorado River Basin 
Salinity Control Act (Act) in 1984. With the enactment of the Federal 
Agriculture Improvement and Reform Act of 1996 (FAIRA), Congress 
directed that the Program should continue to be implemented as part of 
the newly created Environmental Quality Incentives Program. Since the 
enactment of the Farm Security and Rural Investment Act (FSRIA) in 
2002, there have been, for the first time in a number of years, 
opportunities to adequately fund the Program within EQIP. In 2008, 
Congress passed the Food, Conservation and Energy Act (FCEA). The FCEA 
addressed the cost sharing required from the Basin Funds. In so doing, 
the FCEA named the cost sharing requirement as the Basin States Program 
(BSP). The BSP will provide 30 percent of the total amount that will be 
spent each year by the combined EQIP and BSP effort.
    The Program, as set forth in the act, is to benefit Lower Basin 
water users hundreds of miles downstream from salt sources in the Upper 
Basin as the salinity of Colorado River water increases as the water 
flows downstream. There are very significant economic damages caused 
downstream by high salt levels in the water source. There are also 
local benefits from the Program in the form of soil and environmental 
benefits, improved water efficiencies and lower fertilizer and labor 
costs. Local producers submit cost-effective proposals to the State 
Conservationists in Utah, Wyoming and Colorado and offer to cost share 
in the acquisition of new irrigation equipment. It is the act that 
provides that the seven Colorado River Basin States will also cost 
share with the appropriated funds for this effort. This has brought 
together a remarkable partnership.
    After longstanding urgings from the States and directives from 
Congress, USDA has concluded that this Program is different than small 
watershed enhancement efforts common to EQIP. In the case of the 
Colorado River salinity control effort, the watershed to be considered 
stretches more than 1,400 miles from the River's headwater in the Rocky 
Mountains to the River's terminus in the Gulf of California in Mexico 
and receives water from numerous tributaries. The USDA has determined 
that this effort should receive a specific funding designation and has 
appointed a coordinator for this multi-state effort.
    In recent fiscal years, the Natural Resources Conservation Service 
(NRCS) has directed that about $18 million of EQIP funds be used for 
the Program. The Colorado River Basin Salinity Control Forum (Forum) 
appreciates the efforts of NRCS leadership and the support of this 
Subcommittee. Colorado River water quality standards have been prepared 
by the Forum, adopted by the States, and approved by the United States 
Environmental Protection Agency (EPA). The Forum has taken the position 
that funding for the EQIP portion of the Program should be consistent 
with the 3-year funding plan submitted by the three NRCS State 
Conservationists for Colorado, Utah and Wyoming. This amount for 2013 
is $18 million and includes both farm and technical assistance. Over 
the last few fiscal years, funding has reached the needed level. State 
and local cost-sharing is triggered by the Federal appropriation. In 
fiscal year 2013, it is anticipated that the States will cost share 
with about $7.7 million and local agriculture producers will add about 
$5.5 million. Hence, it is anticipated that in fiscal year 2013 the 
State and local contributions will be about 42 percent of the total 
cost. The Basin States have cost sharing dollars available to 
participate in funding on-farm salinity control efforts. The 
agricultural producers in the Upper Basin are waiting for their 
applications to be considered so that they might improve their 
irrigation equipment and also cost share in the Program, and 
specifically for the USDA portion of the effort which was added by 
amendments to the act in 1984. It has been determined that the 
agricultural efforts are some of the most cost-effective opportunities.
    Since congressional mandates of more than three decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. BOR has conducted studies on the economic impact of these 
salts. BOR recognizes that the damages to United States water users 
alone are hundreds of millions of dollars per year.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
is charged with reviewing the Colorado River's water quality standards 
every 3 years. In so doing, it adopts a Plan of Implementation 
consistent with these standards. The level of appropriation requested 
in this testimony is in keeping with the adopted Plan of 
Implementation. If adequate funds are not appropriated, significant 
damages from the higher salt concentrations in the water will be more 
widespread in the United States and Mexico.
    Concentrations of salt in the River cause approximately $300 
million in quantified damages and significantly more in unquantified 
damages in the United States and result in poor water quality for 
United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the use of water for cooling and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector,
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and
  --increased use of imported water for leaching and cost of 
        desalination and brine disposal for recycled water.
    Over the years, NRCS personnel have developed a great working 
relationship with farmers within the Basin. Maintaining salinity 
control achieved by implementation of past practices requires 
continuing education and technical assistance from NRCS personnel. 
Additionally, technical assistance is required for planning and design 
of future projects. Last, the continued funding for the monitoring and 
evaluation of existing projects is essential to maintaining the 
salinity reduction already achieved.
    In summary, implementation of salinity control practices through 
EQIP has proven to be a very cost effective method of controlling the 
salinity of the Colorado River and is an essential component to the 
overall Colorado River Basin Salinity Control Program. Continuation of 
EQIP with adequate funding levels will prevent the water quality of the 
River from further degradation and significantly increased economic 
damages to municipal, industrial and irrigation users.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    This testimony is in support of funding for the U.S. Department of 
Agriculture (USDA) and its on-farm Colorado River Basin Salinity 
Control Program (Program) for fiscal year 2013. This program has been 
carried out through the Colorado River Basin Salinity Control Act 
(Public Law 93-320) (Act), since it was enacted by Congress in 1974. 
Further, with the enactment of the Federal Agricultural Improvement and 
Reform Act (FAIRA) in 1996 (Public Law 104-127), Congress directed that 
the Program should continue to be implemented as one of the components 
of the Environmental Quality Incentives Program (EQIP). Finally, 
Congress passed the Food, Conservation, and Energy Act (FCEA) in 2008, 
that addressed the cost-sharing required from the Basin Funds, and 
redesignated the cost-sharing requirement as the Basin States Program 
(BSP). Currently, the BSP provides approximately 30 percent of the 
total amount that will be spent each year by the combined EQIP and BSP 
efforts.
    The Salinity Control Program benefits both the Upper Basin water 
users through more efficient water management and the Lower Basin water 
users, through reduced salinity concentration of Colorado River water. 
For example, California's Colorado River water users continue to suffer 
economic damages in the hundreds of million of dollars per year due to 
the current salinity of the Colorado River.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California participates along with the other six 
Colorado River Basin States through the Colorado River Basin Salinity 
Control Forum (Forum), the interstate organization responsible for 
coordinating the Basin States' salinity control efforts. In close 
cooperation with the U.S. Environmental Protection Agency (EPA) and 
pursuant to requirements of the Clean Water Act (Public Law 92-500), 
the Forum is charged with reviewing the Colorado River's water quality 
standards every 3 years. The Forum adopts a Plan of Implementation 
consistent with these water quality standards. The level of 
appropriation being supported in this testimony is consistent with the 
Forum's 2011 Plan of Implementation. If adequate funds are not 
appropriated, significant damages associated with increasing salinity 
concentrations of Colorado River water will become more widespread in 
the United States and Mexico.
    Currently, the salinity concentration of Colorado River water 
causes about $300 million in quantifiable damages in the United States 
annually. Economic and hydrologic modeling by U.S. Bureau of 
Reclamation (Reclamation) indicates that the quantifiable damages could 
rise to more than $500 million by the year 2030 without the 
continuation of the Salinity Control Program as identified in the 2011 
Plan of Implementation. For example, salinity damages occur from:
  --A reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    In recent fiscal years, the Natural Resources Conservation Service 
(NRCS) has directed that about $18 million of EQIP funds be used for 
the Salinity Control Program. The Colorado River Board respectfully 
urges the Subcommittee to support funding for the Colorado River Basin 
Salinity Control Program for fiscal year-2013 at least at this level.
    The Forum has taken the position that funding for the Program 
should be consistent with the 3-year funding plan submitted by the 
three NRCS State Conservationists for Colorado, Utah and Wyoming. The 
NRCS funding plan for 2013 is $18 million and includes both farm and 
technical assistance program elements. It should also be pointed out 
that State and local cost-sharing is triggered by Federal 
appropriations. In fiscal year 2013, it is anticipated that the States 
will cost-share with about $7.7 million and that local agriculture 
producers will add another $5.5 million. Consequently, it is 
anticipated that the fiscal year 2013 State and local contributions are 
expected to be approximately 42 percent of the total Program costs.
    In conclusion, the Colorado River Board of California recognizes 
that the Federal Government has made significant commitments to the 
seven Colorado River Basin States with regard to the delivery of 
Colorado River water. In order for those commitments to continue to be 
honored, it is essential that Congress continue to provide funds to the 
USDA to allow it to provide needed technical support to agricultural 
producers for addressing salinity control activities in the Colorado 
River Basin. Over the past 28 years, the Colorado River Basin Salinity 
Control program has proven to be a very cost-effective and 
collaborative approach to help mitigate the impacts of the salinity of 
Colorado River water. Continued Federal funding of the USDA elements of 
this important Basin-wide program is essential to maintaining this 
effort.
                                 ______
                                 
            Prepared Statement of Colorado State University
    Mister Chairman, Ranking Member and Members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. I am 
writing to share my concerns regarding a recently recognized fungal 
canker disease that poses an enormous economic and ecological risk to 
our Nation's walnut resources. Over the past decade, thousand cankers 
disease (TCD) has caused the death of thousands of black walnut trees 
in nine western States (Arizona, California, Colorado, Idaho, Oregon, 
New Mexico, Tennessee, Utah, and Washington) and recently has been 
discovered in Tennessee, Virginia and Pennsylvania. The negative 
economic impacts of TCD are felt by our Nation's timber, nut and 
nursery producers, furniture manufacturers, and private landowners. 
While States are attempting to stop the spread of TCD through surveys 
and quarantines, greater Federal oversight and funding are needed. I 
request dedicated funding be allocated to the U.S. Department of 
Agriculture's Plant Protection and Early Detection and Rapid Response 
programs for fiscal year 2013 for the study and management of TCD.
What is TCD?
    TCD results from the combined activity of a fungus (Geosmithia 
morbida) and the walnut twig beetle (Pityophthorus juglandis). As the 
beetle moves through a tree's twigs, branches and main stem it creates 
galleries beneath the bark of the branches and introduces the fungal 
spores. Numerous cankers develop and disrupt the flow of nutrients 
throughout the tree. Over time the tree is unable to store and move 
nutrients and starves. The most likely pathway for transmission of TCD 
is through the movement of raw wood (logs, firewood, stumps, burls and 
wood packaging materials) with bark attached. It is not known whether 
transmission to the eastern United States occurred through natural 
dispersal or by human transport of twig beetle infested walnut 
products.
Need for Greater Federal Funding and Oversight
    At the Federal level, pests and diseases similar to TCD are 
addressed by the USDA's Animal and Plant Health Inspection Service 
(APHIS) and the U.S. Forest Service (USFS). Within APHIS, the Plant 
Protection and Quarantine (PPQ) program is primarily responsible and 
has the regulatory authority for all pests coming to the Nation's 
borders and the interstate movement of regulated pests. The USFS 
oversees the Early Detection and Rapid Response (EDRR) program, which 
detects new invasive species infestations and support the 
infrastructure necessary to rapidly contain or eradicate these 
infestations.
    To date, USDA has provided some funding and technical assistance 
for TCD, mainly through fiscal year 2010 farm bill funding for survey, 
detection and mitigation methods. However, it has not identified TCD as 
an actionable pest as was done with the emerald ash borer and Asian 
long horned beetle and it has determined that Federal regulatory 
oversight of TCD would be challenging due to the interstate movement of 
products, poor detection capability and the widespread distribution of 
the disease. I believe that it is for these reasons that greater 
Federal oversight and funding is needed.
Funding Needs
    Funding for basic research to study the life history, biology and 
behavior of the walnut twig beetle and the fungus is needed and would 
inform and improve management of the disease. Examples of priority 
research needs include developing an effective lure for the walnut twig 
beetle, the development of data and maps that would inform where the 
pest is most likely to migrate, and evaluating methodologies on 
survival of the insect and the pathogen after debarking and kiln drying 
or other treatments.
    I thank the committee for this opportunity to provide testimony on 
this important subject. Please do not hesitate to contact me/us if you 
should require additional information.
                                 ______
                                 
   Prepared Statement of Copperhead Hill Ranch--John A. and Karen M. 
                            Buchanan, Owners
    Mister Chairman, Ranking Member and Members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. I am 
writing to share my concerns regarding a recently recognized Thousand 
Cankers Disease (TCD) that poses an enormous economic and ecological 
risk to our Nation's black walnut resources. Over the past decade, TCD 
has caused the death of millions of black walnut trees in nine western 
States (Arizona, California, Colorado, Idaho, Oregon, New Mexico, 
Nevada, Utah, and Washington) and recently has been discovered in the 
native walnut range (Tennessee, Virginia and Pennsylvania). The USDA-
APHIS has estimated the standing value of walnut timber as being $539 
billion. This does not include potential loss of: Jobs related to 
logging, transportation, and domestic milling; derivatives of the 
domestic milling industry to make veneer and lumber for furniture, 
cabinetry, paneling, flooring, and gun stocks; export market accounts 
for about 60 percent of the harvested logs; and nuts are shelled into 
nutmeats and the shells are processed for many industrial uses.
    The negative economic impacts of TCD will be felt by private 
landowners with immature walnut timber and by home owners with millions 
of walnut trees in residential areas of the Midwest and Eastern States. 
It will be any ugly site and very expensive to safely remove all the 
walnut trees as they succumb to TCD over the next couple of decades if 
this disease is not contained, suppressed, and locally eradicated. 
Research efforts to date have been limited to monitoring, ecological 
studies of the walnut twig beetle, epidemiology of the fungal pathogen, 
and development of phyto-sanitation treatment of walnut logs harvested 
in quarantined areas. Insecticide and fungicide application is not 
feasible or practical as a means of controlling the spread of TCD. 
Development of biological insect control of the walnut twig beetle is 
expected to be the most effective and feasible technique in stopping 
the advancement of TCD through the native range of black walnut.
    While States are attempting to stop the spread of TCD through 
surveys and quarantines, greater Federal assistance and funding are 
needed. I request dedicated funding be allocated to the USDA-ARS for 
leadership in the development of biological insect control techniques 
of the walnut twig beetle and to the USDA-FS for continued efforts in 
monitoring for TCD for fiscal year 2013.
What is TCD?
    TCD is a recently recognized disease in which a tiny walnut twig 
beetle (Pityophthorus juglandis) spreads a fungal organism (Geosmithia 
morbida) that causes cankers under the bark which prevents nutrient 
flow to the foliage leading to dieback of branches and ultimately death 
to the tree. While the walnut twig beetle advances only a mile or two 
per year, humans are the vector that spread TCD great distances within 
days by hauling walnut slabs with fresh bark attached that harbor the 
tiny beetles and fungal spores. Such shipments are believed to be the 
reason TCD moved into the native walnut range from the western States. 
Movement of firewood, logs, stumps, and burls with fresh bark attached 
can spread the disease great distances.
Need for Greater Federal Funding and Specific Directives
    The USDA-APHIS considers both the walnut twig beetle and the fungal 
pathogen to be indigenous to the USA (historical evidence shows them to 
reside on a different walnut species in Arizona and New Mexico). Since 
neither is considered exotic to the USA, APHIS is not productively 
serving any role in combating TCD.
    Federal funding needs to be directed to the USDA-ARS to lead 
research and development of techniques that will contain, suppress, or 
potentially locally eradicate the walnut twig beetle. Additional 
funding needs to be directed to the USDA-FS for continued effort in 
monitoring and development of phyto-sanitization treatment of walnut 
logs harvested in quarantined areas.
    I thank the committee for this opportunity to provide testimony on 
this important subject. Please do not hesitate to contact me if you 
should require additional information.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation
    On behalf of the Cystic Fibrosis Foundation and the approximately 
30,000 people with cystic fibrosis (CF) in the United States, we are 
pleased to submit the following testimony to the Senate Appropriations 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies requesting sufficient funding for 
the Food and Drug Administration in fiscal year 2013. This testimony 
urges the Committee to provide the Food and Drug Administration the 
funding it needs to quickly and efficiently review treatments for CF 
and other rare diseases and encourages the FDA to reach out on a more 
systematic basis to outside experts early in the drug development 
process. Additionally, the CF Foundation urges the Committee to support 
collaborative efforts by the FDA and the National Institutes of Health, 
such as the Regulatory Science Initiative and the FDA-NIH Joint 
Leadership Council. Collaboration between the NIH and FDA has the 
potential to help move innovative new drugs more quickly through the 
development process and into the hands of patients.
    In particular, the Foundation wishes to commend the speed with 
which the FDA approved Kalydeco<SUP>TM</SUP>, a breakthrough treatment 
for cystic fibrosis that is the first to address the underlying genetic 
cause of the disease for 1,200 people with CF who carry a specific 
genetic mutation. The agency reviewed and approved Kalydeco's New Drug 
Application in only 3 months--one of the fastest approvals of any drug 
in the history of the agency. The speed with which this review was 
conducted is a testament to the FDA's commitment to collaboration with 
Vertex Pharmaceuticals, Kalydeco's developer, and the Cystic Fibrosis 
Foundation, as well as its commitment to the patients who are already 
benefiting from the drug. The science behind Kalydeco has opened 
exciting new doors to research and development that may eventually lead 
to a cure for all people living with CF.
About Cystic Fibrosis
    Cystic fibrosis is a life-threatening genetic disease for which 
there is no cure. People with CF have two copies of a defective CFTR 
gene, which causes the body to produce abnormally thick, sticky mucus 
that clogs the lungs and results life-threatening lung infections. This 
mucus also obstructs the pancreas, preventing pancreatic enzymes from 
assisting in the breakdown of food and the absorption of nutrients.
    The mission of the Cystic Fibrosis Foundation is to find a cure for 
cystic fibrosis and improve the quality of life for people living with 
the disease. This is accomplished by funding life-saving research and 
working to provide access to quality care and effective therapies for 
people with CF. Through the Foundation's efforts, the life expectancy 
of a child with CF has doubled in the last 30 years. Although real 
progress toward a cure has been made, the lives of young people with CF 
are still cut far too short.
    The promise for people with CF lies in research. The CF Foundation 
has raised and invested hundreds of millions of dollars in private 
money to help develop CF drugs and therapies and nearly every CF drug 
available today was made possible because of the Foundation's support. 
The Foundation accredits a nationwide network of over 110 CF care 
centers that has been widely recognized as a national model for 
specialized treatment of a disease.
Sustaining Funding for Rare Disease Drug Review at the FDA
            Funding for Rare and Orphan Disease Drug Review
    In order to encourage swift review of drugs for CF and other rare 
diseases, we urge the Committee to recommend sufficient funding for the 
Food and Drug Administration, particularly the Center for Drug 
Evaluation and Research (CDER)'s Office of New Drugs, in fiscal year 
2013.
    To be effective, the FDA needs an adequate number of reviewers with 
the appropriate skills and expertise to evaluate therapies for rare 
diseases like cystic fibrosis. Additional support for the FDA through 
increased funding not only ensures that the Nation has a safe and 
effective supply of drugs and devices, but also that the agency can 
give the necessary attention to reviewing therapies that treat small 
populations and serve specific unmet medical needs.
    It is more critical than ever that Congress significantly increase 
funding for the Center for Drug Evaluation and Research (CDER) at the 
FDA and for the agency as a whole in fiscal year 2013 so that it can 
meet its statutory obligations in a timely manner.
            Accelerating the Rare Disease Drug Review Process at the 
                    FDA
    The Cystic Fibrosis Foundation applauds the FDA and Associate 
Director for Rare Diseases Dr. Anne Pariser in particular for their 
attention to rare disease drugs and sensitivity to the unique 
challenges posed by the evaluation of these treatments.
    As we reap the benefits of the mapping of the human genome, 
treatments like Kalydeco are being developed that target smaller and 
smaller populations. This aspect of personalized medicine holds the 
promise to treat or cure rare diseases and subsets of more common 
diseases that plague millions of Americans.
    However, as the scientific landscape changes, it is important that 
the FDA has access to the expertise it needs to swiftly review 
innovative new treatments. FDA review officials have taken steps to 
improve access to scientific expertise during the review of therapies 
that treat rare diseases, and FDA leaders and review staff have been 
willing to engage in constructive dialogue to address the challenges of 
rare disease review. The agency has taken part in productive 
conversations with researchers and patients at the CF Foundation, 
including with many of the world's foremost experts on cystic fibrosis, 
on the development and review of potential therapies to treat cystic 
fibrosis and on topics separate from specific drug review, such as 
improving tools for Patient Reported Outcomes (PROs). In particular, 
the collaboration showcased during the review of Kalydeco is an 
excellent example of how the FDA, a drug sponsor, patients and external 
experts can work to effectively evaluate new drugs and accelerate the 
approval process.
    However, in some cases the opportunity for public comment is not 
available if the product in question is not the subject of an advisory 
committee. In all cases, this public comment period occurs very late in 
the review process. While FDA review divisions do conduct some 
consultations with external experts separate from the advisory 
committee process, the complexity and diversity of applications for 
rare disease therapies suggest that the agency would benefit from more 
regular consultation with extramural experts early in the review 
process. The Cystic Fibrosis Foundation asks that the Committee 
encourage the FDA to reach out on a more systematic basis to outside 
experts early in the drug development process.
    One such strategy the House of Representatives is considering is 
the proposed Expanding and Promoting Expertise in Review of Rare 
Treatments (EXPERRT) Act, H.R. 4156. CFF strongly supports the EXPERRT 
Act, which establishes a program to facilitate FDA outreach to external 
experts earlier and throughout the drug review process on issues such 
as unmet medical need, genetically targeted treatments, disease 
severity, clinical trial design and patient demographics.
    Additionally, the CF Foundation urges the Committee to support 
collaborative efforts by the Food and Drug Administration and the 
National Institutes of Health, such as the Regulatory Science 
Initiative and the FDA-NIH Joint Leadership Council. Collaboration 
between the NIH and FDA has the potential to help move innovative new 
drugs more quickly through the development process and into the hands 
of patients by ensuring that the FDA has the resources, strategies, and 
tools it needs to efficiently review and regulate drugs in this ever 
changing scientific landscape. As treatments like Kalydeco are being 
developed to target specific genetic mutations and smaller and smaller 
populations, it is important that the FDA has the expertise it needs to 
quickly move these drugs through the review process.
    The Cystic Fibrosis Foundation's unique and successful drug 
development model for creating treatments for a rare disease has helped 
create a robust pipeline of potential therapies to fight cystic 
fibrosis. The Food and Drug Administration has played a critical role 
in this process, working with the Foundation as they review treatments 
and move them into the hands of patients. Encouraged by our successes, 
we believe the experience of the CF Foundation in clinical research can 
serve as a model of drug discovery and development for research on 
other orphan diseases and we stand ready to work with the FDA and 
congressional leaders. On behalf of the Cystic Fibrosis Foundation, we 
thank the Committee for its consideration.
                                 ______
                                 
           Prepared Statement of the Farmers Market Coalition
    The Farmers Market Coalition (FMC) represents more than 2,700 
farmers markets across the United States, as well as the more than 
30,000 farmers that depend upon them. We seek to build viable 
agricultural economies by expanding farmers' marketing choices while 
expanding consumers' opportunities to purchase fresh, locally grown 
foods. Herein, we urge you to fully fund both the Farmers Market 
Promotion Program and the WIC Farmers Market Nutrition Program.
    Farmers markets have grown in response to consumer demand in recent 
years, emerging as cornerstones in more than 7,100 communities across 
the United States. Markets are extending their seasons into winter 
months, too, offering farmers income throughout the year. Uniquely, 
they have the potential to bridge urban and rural divides, 
strengthening the fabric of our country while addressing the 
nutritional needs of Americans at every income level. The percentage of 
SNAP dollars redeemed at farmers markets, for example, is increasing as 
more markets become EBT-equipped and program participants choose to use 
their benefits there. For this reason, FNS and AMS programs that 
facilitate the sector's growth are of critical importance not just to 
farmers, but to families, and community economies. FMC urges the 
following:
    Reauthorize and increase funding for the Farmers Market Promotion 
Program.--The ripple effects of the FMPP program are impressive, 
providing small infusions of funding to communities and groups of 
farmers in all 50 States since 2006. These awardees grow capacity, 
increase farmer income, help new entrepreneurs get started in feeding 
their local communities, and build local partnerships for long-term 
viability. However, the program is highly competitive, funding only 444 
of the Nation's 7,100 farmers markets since 2006. With rural jobs on 
the line, and the nascent local food sector in need of training, 
capacity building, and technical assistance, now is not the time to 
turn our backs on a program with such far-reaching positive impacts, as 
illustrated in recent Senate Agriculture Committee briefings and 
testimonies.
    We urge you to reauthorize funding for the Farmers Market Promotion 
Program, and increase funding to $20 million annually so that it can 
fully serve farmers markets and the many farmers choosing to begin 
marketing to consumers in their local communities.
    Restore full funding to the WIC Farmers Market Nutrition Program 
(WIC FMNP).--In 2010, WIC FMNP served more than 2.1 million WIC 
families, bringing more than $22 million in income directly to more 
than 18,000 small and mid-scale produce farmers. Proposed cuts of $3.5 
million to this important program threaten access to fresh local 
produce for WIC eligible clients in 45 State agencies, Territories and 
Indian Tribal Organizations. For example, in Wisconsin alone, WIC FMNP 
provided fresh fruits and vegetables to approximately 100,000 women and 
their children in 2011, simultaneously providing $864,037 in additional 
income to 1,552 participating Wisconsin produce farmers. Proposed cuts 
to this effective win-win program would mean thousand fewer families in 
need having access to nutritious, locally grown produce, and many 
hardworking farmers unable to serve them.
    New York State, which serves almost 400,000 WIC mothers and their 
children, calculated the devastating impact of these proposed WIC FMNP 
cuts on their agricultural sector. They estimate that small family 
farmers in the State would lose approximately $1.1 million in revenues.
    We urge you to restore WIC FMNP funding to $20 million for fiscal 
year 2013.
    Thank you for your consideration of this testimony, and, on behalf 
of the Farmers Market Coalition Board of Directors and members, thank 
you for all you do on a daily basis to support America's family 
farmers.
                                 ______
                                 
          Prepared Statement of Florida Home Partnership, Inc.
    On behalf of Florida Home Partnership, I wish to thank you for 
accepting this testimony on Rural Housing Funding for fiscal year 2013. 
Florida Home Partnership, Inc. (FHP) is a nonprofit Community Housing 
Development Organization (CHDO). Our mission is to provide low and 
moderate income families affordable, quality-built, energy efficient 
homes in communities that offer long-term value and comfort. I am 
urging the Appropriations Subcommittee to fund the following USDA Rural 
Housing Programs at the higher of fiscal year 2012 levels or the 
President's fiscal year 2013 budget request: (1) $900 million for 
Section 502 Family Direct Homeownership Loans, (2) $30 million for 
Section 523 Self-Help Housing Program, and (3) $13 million for the 
Rural Community Development Initiative. The Section 502 Loans provide 
affordable mortgage opportunities for low-income rural Americans, while 
the Section 523 funds allow Self-Help Housing grantees across Rural 
America provide technical assistance to Rural Americans engaged in 
building their own homes through USDA's Mutual Self-Help Housing 
Program.
    FHP administers the USDA Mutual Self-help Program in the rural 
areas of Hillsborough and Pasco Counties in Florida. The impact of this 
service asserts a positive result in four areas: Affordable quality 
housing for low- to moderate-income families; Green Built and Energy 
Star certified homes conserve precious resources; safe and affordable 
housing instills higher goals for the future of youth and teens; and 
the Mutual Self-help Program sustains and stimulates the local economic 
environment.
    With the support of the USDA Mutual Self-Help Program, Florida Home 
Partnership guides groups of 6 to 10, low- to moderate-income families 
to work together to help build each other's homes. In the past 15 
years, over 500 homes and 5 communities have been built. Leveraging 
dollars from the USDA Mutual Self-Help Program, the State of Florida's 
Home Ownership Pool and down payment assistance through Hillsborough 
and Pasco Counties, Federal funds enable FHP to efficiently operate a 
very complex yet effective program. FHP has successfully administered 
over $65 million to implement this USDA affordable housing program.
    Family members of the groups share the common goal of homeownership 
and commit themselves to share in the work that will make that goal a 
reality. When all homes in the construction group are completed, all 
homeowners are authorized to move into their new homes on the same day, 
creating an instant community.
    Families and individuals contribute a minimum of 600 hours of 
``sweat equity'' in the construction of their new homes in exchange for 
their down payment. Hard work is the key, along with a willingness to 
work cooperatively with other participants. No construction experience 
is necessary! Participants perform a variety of unskilled and semi-
skilled tasks from digging the foundation, to carpentry, painting, 
electrical and plumbing activities through construction clean-up and 
landscaping--along with everything in between! Our knowledgeable family 
construction coordinators (who themselves have gone through the 
program) guide participants through the construction process all the 
while teaching the participants many new skill sets. Friends, family, 
church members, and others help these families accomplish the labor 
requirements. Therefore, it becomes a community endeavor to complete 
all the homes in a group.
    Each Self Help Home is currently being built as a GREEN Certified 
home, and is constructed to Exceed Energy Star Standards. To date, FHP 
has constructed over 150 GREEN and Energy Star Certified homes. These 
homes conserve energy resources for our country, and just as 
importantly, conserve the precious financial resources of the low-
income rural clients we serve. Many of the Self-Help Housing 
organizations across America build their homes to these same GREEN and 
Energy Conserving Standards.
    FHP provides services before, during and after to assure the 
success of the families. Services provided ``during'' the application 
process include homeownership education, improving credit, and 
understanding the responsibilities of homeownership. Once the home is 
built, homeowners are also educated and encouraged to become active 
with their homeowners association to assure their community remains a 
quality and safe neighborhood. FHP recently hosted a Parliamentary 
Procedure Training class for interested homeowners and to train new and 
seasoned HOA board members.
    While FHP provides safe housing and encourages community 
involvement, the groundwork is being laid to support a positive outlook 
for youth and teens in the community. The youth of our communities have 
witnessed the hard work of their parents leading to the accomplishment 
of the American Dream, homeownership. We have had multiple experiences 
where children growing up in our decent affordable self help housing 
communities, have gone on to build self help homes of their own. These 
children have learned that hard work and perseverance do pay off.
    The USDA Mutual Self-help Program has also had a positive impact on 
the local economy. In addition to a staff of 17 employees, in which 58 
percent are Self Help Homeowners, FHP has been able to regularly 
subcontract with small family owned, mid-size and chain store 
businesses. A great portion of the $65 million has been circulated to 
these various businesses since our inception in 1993. Consequently, as 
a primary client for many businesses, including Home Depot, in the 
Ruskin, Florida area, FHP has contributed to supporting jobs throughout 
its rural service area.
    The value of the Mutual Self-Help Housing Program has inherent 
benefits that provide answers to other social problems in our society 
by meeting the needs of affordable, quality and energy-efficient 
housing that provides safe environments for our rural families. 
Accordingly, the program also prepares the children of these homeowners 
with the tools to change their collective destinies; all while creating 
and maintaining meaningful jobs for rural Americans.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests a fiscal year 2013 appropriation of $325 
million for the Agriculture and Food Research Initiative (AFRI) within 
the National Institute of Food and Agriculture. This funding level 
matches the recommendation made in the President's fiscal year 2013 
budget request. FASEB's broader goal is to support sustainable growth 
so that AFRI funding reaches its authorized level of $700 million as 
soon as feasible.
    As a federation of 26 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences through service to 
its member societies and collaborative advocacy. FASEB enhances the 
ability of scientists and engineers to improve--through their 
research--the health, well-being, and productivity of all people.
    As the Department of Agriculture's premier competitive grants 
program, AFRI supports agricultural research, education, and extension 
projects at public land grant universities and other institutions 
nationwide. In order to optimize the effectiveness of its resources, 
AFRI facilitates collaborative, interdisciplinary research to address 
key societal problems and build foundational knowledge in high-priority 
areas of the food and agricultural sciences. AFRI also encourages young 
scientists to pursue careers in agricultural research by providing 
research funding for over 1,700 of the Nation's most promising pre- and 
postdoctoral scholars.
    According to the results of a recent study published in the 
Proceedings of the National Academy of Sciences, global food demand is 
expected to double by the year 2050. The world must meet the increasing 
need for food while simultaneously providing better nutrition, new 
biofuel materials, sustainable farming practices, and greater food 
safety. The effective coordination of research, education, and 
extension activities like those supported by AFRI enables efficient 
translation of scientific discoveries into a broad range of 
applications to overcome some of our most daunting food and agriculture 
challenges. For example, a team of scientists supported by AFRI are 
discovering the biological processes that determine how warm 
temperatures affect corn seed development and crop production. With 
this knowledge, researchers can develop hardier genetic variants of 
corn that are able to overcome the negative effects of heat stress and 
produce higher yields--advances which will be important for maintaining 
an adequate food supply. Other AFRI-funded scientists are studying the 
genomes of soilborne microorganisms responsible for damaging soybeans 
and other crops. By understanding the pathogen's ability to harm 
plants, research and extension specialists can develop methods to 
manage the disease, increase crop production, and assist farmers, who 
lose an estimated $300 million to soybean root and stem rot diseases 
each year. AFRI also makes critical contributions to improving human 
health; scientists are using multidisciplinary approaches to examine 
the process by which disease-causing E. coli are released from the 
digestive tracts of cattle into the food supply. Research on the 
genetic, microbial, and environmental factors that cause the bacteria 
to spread throughout livestock populations enables scientists to devise 
new strategies for reducing cattle infections and preventing food 
contamination.
    Robust AFRI funding will also help attract talented young 
scientists to careers in agricultural research. A new AFRI-sponsored 
fellowship program has been established to help train and develop the 
next generation of agricultural, forestry, and food scientists and 
educators. In its first year of funding, the program awarded a total of 
$6 million to 54 students from 32 universities across the country. 
Fellows are already advancing important research projects, including a 
study to identify sources of microbial contamination in imported foods.
    Agricultural research directly benefits all sectors of society and 
every geographic region of the country. Furthermore, the private sector 
relies on public investments in USDA research to increase productivity, 
improve crops, and train future cohorts of agricultural scientists. The 
estimated value of U.S. agricultural exports increased 32.2 percent 
between fiscal year 2007 and fiscal year 2010, illustrating the growing 
demand for agricultural products worldwide, and yet the AFRI budget has 
stagnated since the program was established with an authorized funding 
level of $700 million in the 2008 farm bill. In fiscal year 2010, 
AFRI's limited resources could only support 40 percent of project 
proposals recommended for funding by review panels, and the program 
remains significantly underfunded relative to its current capacity. The 
fiscal year 2012 AFRI budget of $264 million is woefully inadequate to 
ensure viability of a research enterprise at the core of human 
prosperity.
    Thank you for the opportunity to offer FASEB's support for AFRI.
    FASEB is composed of 26 societies with more than 100,000 members, 
making it the largest coalition of biomedical research associations in 
the United States. Celebrating 100 Years of Advancing the Life Sciences 
in 2012, FASEB is rededicating its efforts to advance health and well-
being by promoting progress and education in biological and biomedical 
sciences through service to our member societies and collaborative 
advocacy.
                                 ______
                                 
  Prepared Statement of Friends of Agricultural Research--Beltsville, 
                                  Inc.
    Mister Chairman and Members of the Subcommittee, thank you for this 
opportunity to present our statement supporting funding for the USDA's 
Agricultural Research Service (ARS), and especially for its flagship 
research facility, the Henry A. Wallace Beltsville Agricultural 
Research Center (BARC), in Beltsville, Maryland. We strongly recommend 
full fiscal year 2013 funding support for research programs at 
Beltsville.
    We begin our recommendations, Mr. Chairman, by drawing attention to 
Agriculture Secretary's Tom Vilsack's February 13, 2013, remarks on the 
proposed fiscal year 2013 budget: ``USDA has supported farmers, 
ranchers and growers so that last year they enjoyed record farm income. 
. . . To help sustain record farm income, we will invest in research 
and development to improve agricultural productivity. [And continue] 
support for in-house research and the land grant universities. We'll 
continue our efforts to combat destructive pests and disease that 
threaten crops and livestock.
    Following a Department-wide review of operations, we created a 
Blueprint for Stronger Service to make USDA work better and more 
efficiently for the American people. We found savings in areas like 
technology, travel, supplies and facilities. We've been able to avoid 
the interruptions in service that come with furloughs and employee 
layoffs.
    The Blue Print for a Stronger Service holds out substantive agency-
wide impacts for the Agricultural Research Service as a whole as well 
as for Beltsville in particular. The agency is streamlining its 
business operations, consolidating activities such as human resources 
and procurement into three ``business service centers.'' In fiscal year 
2011, ARS cut its travel costs by approximately 28 percent from the 
past year, and the ARS printing fund has been cut by more than half. 
While continuing to serve the research needs of American agriculture 
and the Nation, ARS is committed to ``doing more with less.''
    We strongly endorse the remarks of Secretary Vilsack and the 
purposes and goals of the Blue Print for a Stronger Service. Overall, 
ARS will close 12 of its research programs at 10 locations in 2012, 
none of them at Beltsville--a recognition of the outstanding research 
conducted at Beltsville.
    Beltsville--the Nation's premier agricultural research center--has 
spearheaded technical advances in American agriculture for over 100 
years. Beltsville celebrated 100 years of research leadership and 
technical advances in 2010. The long list of landmark research 
achievements over that time is truly remarkable. Still at the threshold 
of its second century, Beltsville stands unequalled in scientific 
capability, breadth of agricultural research portfolio, and 
concentration of scientific expertise. Under the leadership of Director 
Dr. Joseph Spence and with its powerful scientific capability, the 
Beltsville Agricultural Research Center is distinctively, indispensably 
prepared for the challenges that lie ahead.
    Toward that end, the scientists of Beltsville have developed a new, 
bold vision for the future. Titled Innovation and Integration: 
Agricultural Research for a Growing World, this visionary document 
stems from the realization that broader, multidisciplinary approaches 
will be needed to address new, perhaps unforeseeable agricultural 
challenges of the future. New approaches will be needed to reach beyond 
the confines of traditional research approaches tied to narrow issues 
or specific commodities. Traditionally, for instance, plant scientists 
may have worked in some combination with animal scientists or with 
human nutritionists. Only rarely, however, have scientists combined 
efforts across many disciplines to solve problems. Given its broad 
research portfolio and its many disciplines, Beltsville is perfectly 
situated for broad, multidisciplinary approaches to flourish. Thus, in 
every way, Beltsville remains and will continue to be a national Center 
of Excellence for the highest agricultural research priorities.
    We are aware of the financial constraints facing our country. We 
are aware, too, of urgent demands for funding among compelling national 
priorities. Securing ample, safe, and nutritious food--food security--
has always been the most compelling of human priorities. That is true 
today, and it will be no less so in the years ahead. Commentators such 
as Robert Samuelson speculate that as much as oil, scarce food could 
shape global politics for decades to come. In summation, Mr. Chairman, 
we strongly support adequate funding for Beltsville. We would 
respectively suggest that adequate funding for the Agriculture 
Department's flagship research center is central to maintaining 
national and world food security.
Priorities in the President's Fiscal Year 2013 Budget Request
    Now, Mr. Chairman, we turn to key research areas highlighted in the 
President's proposed budget. We strongly recommend this proposed 
funding. Our recommendation is consistent with the remarks of Secretary 
Vilsack.
    We were pleased to see that the fiscal year 2013 budget includes 
increases for environmental stewardship; crop breeding and protection; 
animal breeding and protection; food safety; and human nutrition. 
Obviously, these are areas of great concern to all Americans, and they 
are certainly among the highest priorities for agricultural research 
today. All of these research areas are strengths of the Beltsville 
Agricultural Research Center and they will benefit well from the unique 
facilities and scientific expertise at the Center. We encourage you to 
seriously consider funding the proposed budget and to ensure that 
Beltsville receives the funding that it needs to address these critical 
research needs.
    Although funds are not requested for major facilities projects in 
the fiscal year 2013 budget, we would like to bring to your attention 
the urgent need for renovation of Building 307 on the Beltsville 
campus. The Center has aggressively moved to consolidate space and 
reduce costs and has been very successful at doing so. However, these 
plans require the renovation of a building--Building 307--that was 
vacated some years ago in anticipation of a complete renovation. In the 
past, Congress approved partial funding for this renovation, and those 
monies were retained pending appropriation of the full amount required 
for the renovation. Unfortunately, those funds now have been lost to 
ARS. Consequently, renovation of this vacant, highly useful building is 
on indefinite hold. While we realize that funding is extremely tight, 
we confirm that Beltsville urgently needs a renovated Building 307 for 
adequate, high quality lab space. Moreover, a renovated Building 307 
would not only yield substantial energy savings, but also would allow 
Beltsville to move forward with other long-delayed relocation and 
consolidation plans.
    In summation, we would highlight these spheres of excellence:
    Animal Breeding and Protection.--Beltsville conducts extensive 
research on animal production and animal health. The research center is 
the foundation of genetic improvement in dairy cow production. 
Beltsville is examining ways to prevent resistance to drugs for animal 
parasite prevention and control.
    Crop Breeding and Protection.--Beltsville scientists have an 
extensive record of ongoing research relating to protecting crops from 
pests and emerging pathogens. Beltsville has distinctive expertise for 
identifying pathogens, nematodes, and insects that destroy crops or 
make crops ineligible for export. Beltsville houses the Germplasm 
Resource Information Network, the United States coordinating body to 
identify and catalog plant germplasm.
    Child and Human Nutrition.--The Beltsville Human Nutrition Research 
Center (BHNRC) is the Nation's largest, most comprehensive Federal 
human nutrition research center; unique activities include the What We 
Eat in America survey, which is the Government's nutrition monitoring 
program, and the National Nutrient Databank, which is the gold standard 
reference of food nutrient content that is used throughout the world. 
These two activities are the basis for food labels, nutrition education 
programs, food assistance programs including SNAP, the Supplemental 
Nutrition Assistance Program, school feeding programs, and Government 
nutrition education programs.
    Global Climate Change.--Beltsville became actively engaged in 
climate change research long before climate change became a topic of 
intense media interest. Beltsville scientists are at the forefront of 
climate change research--understanding how climate change affects crop 
production and the effects of climate change on growth and spread of 
invasive and detrimental plants (such as weeds.) A central aim is 
finding ways to mitigate negative effects of climate change on crops. 
Beltsville houses unequalled facilities for replicating past climates 
or climates that may exist in the future.
    Plant, Animal, and Microbial Collections.--Beltsville houses 
matchless national biological collections that are indispensable to the 
well-being of American agriculture. In addition to the actual 
collections, Beltsville scientists are internationally recognized for 
their expertise and ability to quickly and properly identify insect 
pests, fungal pathogens, bacterial threats, and nematodes. This 
expertise is crucial to preventing loss of crops and animals, ensuring 
that invasive threats to American agriculture are identified before 
they can enter the country, thus helping to protect homeland security, 
and ensuring that American exports are free of pests and pathogens that 
could prohibit exports. Also, Beltsville houses the National Animal 
Parasite collection and has the expertise to identify parasites that 
are of importance to agricultural animals.
    Mr. Chairman, this concludes our statement. Thank you for 
consideration and support for the educational, research, and outreach 
missions of the Beltsville Agricultural Research Center.
                                 ______
                                 
     Prepared Statement of the Global Health Technologies Coalition
    Chairman Kohl, Ranking Member Blunt, and members of the Committee, 
thank you for the opportunity to provide testimony on the fiscal year 
2013 appropriations funding for the U.S. Food and Drug Administration 
(FDA). We appreciate your leadership in global health, and we hope that 
your support will continue. I am submitting this testimony on behalf of 
the Global Health Technologies Coalition (GHTC), a group of nearly 40 
nonprofit organizations working together to advance U.S. policies that 
can accelerate the development of new global health innovations--
including new vaccines, drugs, diagnostics, microbicides, multi-purpose 
technologies, and other tools--to combat global health diseases and 
conditions. The GHTC members strongly believe that to meet the world's 
most pressing global health needs, it is critical to invest in research 
today so that the most effective health solutions are available now and 
in the future. We also believe that the U.S. Government has a historic 
and unique role in doing so. My testimony reflects the needs expressed 
by our member organizations, which include nonprofit advocacy 
organizations, policy think-tanks, implementing organizations, product 
development partnerships (PDPs), and many others.\1\ We strongly urge 
the Committee to continue its established support for global health 
research and development (R&D), as well as product safety by (1) 
sustaining and supporting the U.S. investment in global health 
research, product development, and global regulation; (2) instructing 
the FDA to prioritize the review and licensure of global health 
technologies; and (3) requiring leaders at the FDA to put plans in 
place to ensure that global health product regulation is efficient, 
coordinated, and streamlined.
---------------------------------------------------------------------------
    \1\ Global Health Technologies Coalition. http://
www.ghtcoalition.org/coalition-members.php.
---------------------------------------------------------------------------
Critical Need for New Global Health Tools
    Every day, more than 35,000 people die from AIDS, tuberculosis 
(TB), malaria, and other neglected diseases. The health detriments 
these diseases cause, even when not fatal, have profound implications 
in other areas such as economic stability and access to education. This 
highlights the urgent need for sustained investment in global health 
research to deliver new tools to combat these devastating diseases. 
While drugs and other health technologies exist for these diseases, 
many have grown ineffective due to increasing drug resistance and 
toxicity or are costly and difficult to administer in poor, remote, and 
unstable settings. While we must increase access to proven, existing 
drugs, vaccines, diagnostics, and other health tools to tackle global 
health problems, it is just as critical to develop the next generation 
of tools to fight existing disease and address emerging threats such as 
malaria, dengue, and drug-resistant TB. There are several very 
promising technology candidates in the R&D pipeline; however, these 
tools will never be available if the support needed to continue R&D is 
not supported and sustained.
Innovation as a Smart Economic Choice
    Global health R&D brings lifesaving tools to those who need them 
most; however, the benefits are much broader than preventing and 
treating disease. It is also a smart economic investment in the United 
States, where it drives job creation, spurs business activity, and 
benefits academic institutions. Biomedical research, including global 
health, is a $100 billion enterprise in the United States. In 
Washington State, $4.1 billion is generated annually from global health 
activities, including R&D. In North Carolina, the economic impact from 
global health is roughly $2 billion. It is important that the U.S. 
Government support industries, such as global health R&D, which exhibit 
such strong potential to build the economy at home and abroad. Global 
health R&D has been an important legacy of USAID's work for over three 
decades, and should be supported and protected. History has shown that 
investing in global health research not only saves lives but also 
produces cost-savings and efficiencies. In the United States alone, for 
example, polio vaccinations during the last 50 years have resulted in a 
net savings of $180 billion. New therapies to treat drug-resistant TB 
have the potential to reduce the price of treatment by 90 percent and 
cut health system costs significantly. The United States has made smart 
investments in research in the past that have resulted in lifesaving 
breakthroughs for global health diseases, as well as important advances 
in diseases endemic to the United States. It is essential that we keep 
this momentum going and not allow this research to lag behind, in order 
to maximize the resources we have put into these programs. We must now 
build on those investments to turn those discoveries into new vaccines, 
drugs, tests, and other tools.
Advancing Global Health Product Development
    Because private industry does not invest significantly in the 
development of products for diseases for which there are no lucrative 
markets, a host of new organizational models and incentive mechanisms 
have emerged to address this challenge, with varying success.
    One organizational model that has proven promising is the product 
development partnership (PDP). PDPs are a unique form of a public-
private partnership established to drive greater development of 
products for neglected diseases. Currently, there are more than 26 PDPs 
developing drugs, vaccines, microbicides, and diagnostics that target a 
range of infectious and neglected diseases, including HIV/AIDS, 
malaria, TB, Chagas disease, dengue fever, and visceral leishmaniasis.
    While each PDP operates differently depending on its disease 
area(s) of focus, they typically employ a portfolio approach to R&D to 
accelerate product development by pursuing multiple strategies for the 
same disease area. They also work in close partnership with academia, 
large pharmaceutical companies, the biotechnology industry, and with 
regulatory and other Government agencies in developing countries.
    PDPs are delivering on their promise to develop lifesaving products 
for use in countries where disease burdens are highest and no viable 
commercial markets exist. To date, PDPs have developed and licensed 16 
products to combat neglected diseases in low- and middle-income 
countries. More can be expected from PDPs in the future with sustained 
and additional support: in 2009, PDPs had more than 120 
biopharmaceutical, diagnostic, and vector-control candidates in various 
stages of development, including 32 in late-stage clinical trials. In 
the next 5 years, it is anticipated that several new technologies could 
be ready for use or in final stages of clinical development.
    For example the RTS,S/AS01 malaria vaccine candidate, manufactured 
by GlaxoSmithKline and co-developed with the PATH Malaria Vaccine 
Initiative, has produced positive results in clinical trials thus far, 
and could be available for general implementation for infants in Africa 
within 5 years or so. Such a vaccine would significantly reduce the 
burden of sickness and death from malaria. Additionally, six TB vaccine 
candidates are in clinical trials worldwide, including the first late-
stage infant study of a TB vaccine in more than 80 years. There are 
also several new TB drug candidates in testing, which, if approved, 
would become the first new TB drugs in nearly 50 years. These therapies 
could help reduce the 8 million new TB infections and nearly 1.7 
million TB-related deaths that happen each year. Also, a vaccine 
candidate and drug candidates are currently in clinical trials to 
prevent and treat visceral leishmaniasis, a neglected disease whose 
current treatments are costly and toxic. Additionally, two artemisinin 
combination therapies--the gold standard of malaria drug treatment--
developed in partnership with Medicines for Malaria Venture have 
recently been approved and will be reaching those in need in the near 
future.
Global Health Product Development Challenges
    Developers of products intended for the developing world face 
challenges in three key areas:
    First, capacity to conduct as well as adequately regulate clinical 
trials does not exist or is often weak in countries where diseases are 
endemic. Second, there is a lack of financing for late-stage clinical 
trials, which are necessary for testing the efficacy and safety of new 
tools. And third, the approval process for new products for neglected 
diseases is poorly coordinated and involves multiple, complex steps. 
Global regulatory systems are not sufficiently streamlined and the 
capacity of regulatory authorities to approve products for the 
developing world is frequently weak. Therefore, regulatory review and 
introduction of new safe and effective products takes longer than 
necessary.
    The FDA has demonstrated through a number of recent actions that it 
can have an impact on the introduction of global health tools. These 
include:
  --The FDA's program to review HIV/AIDS drugs delivered in the 
        developing world through the U.S. President's Emergency Plan 
        for AIDS Relief.
  --The release of guidance documents that outlined the FDA's 
        willingness to review vaccines and other products for diseases 
        not endemic to the United States.
  --The agency's partnership with global bodies, such as the World 
        Health Organization (WHO), to enhance access to medicines for 
        the developing world and assist other countries in bolstering 
        their regulatory capacity.
  --The FDA's Priority Review Voucher Program, which awards a voucher 
        for future expedited product review to the sponsor of a newly 
        approved drug or biologic that targets a neglected tropical 
        disease (NTD).
  --The FDA's Office of Critical Path Initiatives, which supports the 
        development of regulatory science such as biomarkers and animal 
        models to better evaluate and register new TB tools.
  --The FDA's issuance of a guidance for testing new anti-TB drugs in 
        combination, which accelerates the development of new, safe, 
        and highly effective treatment regimens with shorter therapy 
        durations.
    The FDA's efforts in these areas are to be applauded. The agency 
can and should continue to increasingly leverage its expertise to 
benefit the millions of people affected by infectious diseases around 
the world.
Recommendations
    Support for global health research that saves lives around the 
world--while at the same time promoting innovation, creating jobs, and 
spurring economic growth at home--is unquestionably one of the Nation's 
highest priorities. In keeping with this value, the GHTC respectfully 
requests that the Committee do the following:
  --Sustain and support U.S. investments in the FDA's funding 
        resources, as well as its capacity to provide technical advice 
        to other regulatory bodies and review and license health 
        products for diseases not usually endemic to the United States, 
        and its authority to fund research and development for global 
        health technologies, including but not limited to those created 
        though the Critical Pathways Initiative.
  --Instruct all U.S. agencies in its jurisdiction involved in global 
        health to prioritize R&D within all development programs by 
        creating actions plans, including metrics to measure progress. 
        We request that leaders at the FDA to work with leaders at 
        other U.S. agencies, including the State Department, U.S. 
        Agency for International Development, the National Institutes 
        of Health, the Centers for Disease Control and Prevention, and 
        the Department of Defense to ensure that efforts in global 
        health R&D are coordinated, efficient, and streamlined. This 
        should include establishing transparency mechanisms designed to 
        show what global health R&D efforts are taking place and how 
        U.S. agencies are collaborating with each other to make 
        efficient use of the U.S. investment, and align with the goals 
        and intentions of the recently released Health and Human 
        Services Global Health Strategy.\2\
---------------------------------------------------------------------------
    \2\ HHS Global Health Strategy. http://www.globalhealth.gov/global-
programs-and-initiatives/global-health-strategy/.
---------------------------------------------------------------------------
  --Direct that the results of these initiatives should be reported on 
        to Congress and be made publicly available. Past reports of the 
        health R&D activities at U.S. agencies have helped coordinate 
        efforts between agencies and transparently inform the public 
        about the investment of taxpayer money. These reports must be 
        continued in the future and should include information on all 
        U.S. Government agencies involved in global health R&D.
    We respectfully request that the Committee consider inclusion of 
the following language in the report on the fiscal year 2013 
Agriculture and FDA appropriations legislation: ``The Committee 
recognizes the critical contribution that the U.S. Food and Drug 
Administration's (FDA) funding for new global health tools and its 
leadership in reviewing and licensing global health technologies makes 
to the impact of new global health technologies, and also recognizes 
the need to sustain and support U.S. investment in this area by fully 
funding the FDA to carry out this work. The Committee acknowledges the 
FDA's essential role in capacity-building abroad to help build strong 
regulatory authorities in other nations, and asks that the FDA continue 
and expand on this work. New global health products are cost-effective 
public health interventions that play an important role in improving 
global health and are vital in protecting the lives of Americans and 
populations abroad. The Committee directs the FDA to expand its 
outreach and information-sharing activities with product developers--
including but not limited to industry groups, nonprofit organizations, 
and other product development partnerships (PDPs)--to support the 
development of safe and effective global health tools. Further, the 
Committee directs the FDA to submit a report to Congress and the public 
outlining the monitoring, evaluation, and progress of its `Pathway to 
Global Product Safety and Quality' as it pertains to products outlined 
in paragraphs (2) and (3) of section 740(c) of the Agriculture, Rural 
Development, Food and Drug Administration, and Related Agencies 
Appropriations Act, 2010 (Public Law 111-80). In its review of drugs 
and other products for neglected diseases, the Committee requests that 
FDA:
  --Maximize the use of priority review where feasible and appropriate.
  --Work with sponsors to facilitate expanded access to investigational 
        products.
  --Increase coordination and interaction with the World Health 
        Organization, European Medicines Agency, and other 
        international regulatory agencies.
  --Implement mechanisms for enhanced collaboration between the FDA and 
        national regulatory authorities in developing countries.
  --Increase coordination among individual drug, biological product, 
        and device review divisions across FDA centers to support the 
        development and monitoring of safe and effective medical 
        products for rare and neglected diseases.
    The Committee is also aware that Chagas disease is not on the list 
of neglected diseases as currently defined by the FDA. The Committee 
urges the FDA to make the necessary modifications to include Chagas 
disease in its list of neglected diseases in line with the World Health 
Organization (WHO) list of neglected tropical diseases. The Committee 
is pleased with FDA's current activities in the areas of regulatory 
capacity-building and the promotion of sound regulatory science 
practices abroad, and recommends that the FDA explore how to expand on 
such activities.''
    On behalf of the members of the GHTC, I would like to extend my 
gratitude to the Committee for the opportunity to submit written 
testimony for the record.
                                 ______
                                 
      Prepared Statement of the Housing Development Alliance, Inc.
    On behalf of Housing Development Alliance, Inc. and the communities 
we serve, I wish to thank the Subcommittee for the opportunity to 
submit testimony on fiscal year 2013 Appropriations for the Department 
of Agriculture (USDA) Rural Housing Programs. I urge this subcommittee 
to fund USDA Rural Housing's Section 502 Single Family Direct Loan 
Program at $900 million (the fiscal year 2012 level); Section 504 Very-
Low Income Rural Housing Repair Loans at $28 million; and Section 504 
Very-Low Income Rural Housing Repair Grants at $29.5 million.
    Housing Development Alliance, Inc. (HDA) serves Perry, Knott, 
Leslie and Breathitt Counties in Kentucky. These are among four of the 
poorest counties in the Nation with poverty rates ranging from 24 
percent to over 33 percent. In these four counties over 12,650 
households have annual incomes of less than $25,000 including over 
5,100 households with incomes less than $10,000. Furthermore, these 
counties suffer from persistent poverty (having more than 20 percent of 
population in poverty for more than five decades) which has resulted in 
a poor housing stock and a broken housing market. In short, our 
community has a critical need for safe, decent and affordable housing.
    Since 1996, the Housing Development Alliance has constructed 90 new 
homes which were sold to qualified low and very-low income homebuyers 
who received financing through the Section 502 Single Family Direct 
Loan Program. In this same period, the Housing Development Alliance has 
repaired nearly 180 homes using Section 504 Loan and Grants. These 
programs often serve the poorest of the poor. In fact, the average 
annual income of our Section 502 Direct Loan homebuyers was $14,252 and 
the average annual income of our Section 504 Loan and Grant repair 
client was $10,660 per year.
    In many cases the living conditions of the households prior to 
receiving assistance are deplorable. These homes often lack an adequate 
heat source; have little or no insulation; often have major structural 
defects including collapsing foundations, rotting floors and walls and 
leaking roofs; have unsafe electrical wiring; and lack complete 
plumbing. For example recently the Housing Development Alliance 
encountered an elderly woman whose gas water heater was spewing 
potentially deadly levels of carbon monoxide into her home and another 
elderly woman whose tub/shower was not hooked to the sewer and was 
draining directly under her home.
    However, the benefits of these programs are not limited to just to 
the households purchasing the new home or receiving the affordable home 
repair. The programs provide jobs and other needed economic activity to 
our community. For example, in 2011 the constructed seven homes 
financed in part by the Section 502 Single Family Direct Loan Program. 
Using the National Association of Home Builders' estimate that each 
home constructed creates/preserve 3 construction job per year, in 2011 
the Housing Development Alliance's use of Section 502 Direct Loans 
created/preserved 21 construction jobs. Even more jobs were created/
preserved through our use of the Section 504 Repair Loans and Grants 
which funded 14 home repairs. While these numbers may seem modest, as 
they are repeated in rural communities throughout America these 
programs have a huge impact on jobs in rural America.
    Furthermore the Section 502 Single Family Direct Loan Program is 
the most cost effective Federal housing program. Despite serving low 
and very-low income households, the average lifetime cost of a Section 
502 Single Family Direct Loan is just $7,200 while the average cost of 
Section 8 Housing Assistance is nearly $7,000 per year. This low cost 
is due in part to the fact that Section 502 Direct portfolio maintains 
an excellent repayment history with a foreclosure rate of just over 4 
percent.
    The administration and others have suggested that the Section 502 
Guarantee Program is a suitable alternative to the Section 502 Direct 
Loan Program; this is simply not true in our community. We completed a 
study of our 502 Direct Loan Program recipients and found that only 1 
out of 10 would have been able to afford the higher interest cost 
associated with a Section 502 Guarantee Loan.
    Thank you again for the opportunity to provide testimony on the 
critically important programs. Without adequate funding for these 
programs low income households will remained trapped in substandard, if 
not outright deplorable, housing and construction and other related 
jobs will be lost across rural America.
                                 ______
                                 
              Prepared Statement of the Hunger Task Force
    I am writing to provide comments on the fiscal year 2013 
Agriculture Appropriations bill.
    Hunger Task Force is a nonprofit, independent food bank located in 
Milwaukee County. We have been feeding emergency food free of charge to 
needy people in southeastern Wisconsin since 1974. Last year we 
distributed 9.8 million pounds of food to programs in our network.
    Currently, our network of 81 food pantries, soup kitchens and 
homeless shelters is providing food to over 35,000 people per month in 
our food pantry network, and we are serving over 60,000 hot meals in 
our soup kitchen network each month. We have seen an 11.9 percent 
increase in the number of people using our food pantries in the last 12 
months. The numbers do not surprise us as 1-in-3 City of Milwaukee 
residents continue to live at or below the poverty level, and 1-in-2 
Milwaukee children live at the poverty level. Milwaukee County's 2-1-1 
IMPACT emergency hotline says that the number one reason people call 
them (27 percent of all calls) is to connect to an emergency food 
provider. A record 272,661 Milwaukee County residents (1-in-5 residents 
in the county) now receive FoodShare benefits. In Wisconsin, a record 
831,000 people now receive FoodShare benefits. A recent report by our 
State's Department of Public Instruction notes that the percentage of 
children in Wisconsin receiving free and reduced-price meals has 
increased 8 consecutive years--a record 41 percent of Wisconsin's 
children now receive free and reduced-price meals, and in the City of 
Milwaukee a record 83 percent of students now receive subsidized meals.
    The increasing poverty and ongoing demand for emergency food in 
southeastern Wisconsin and throughout the State make the Federal 
nutrition and commodity programs more important than ever.
    Hunger Task Force continues to be involved in many of the Federal 
nutrition programs. We have been a contracted provider of TEFAP foods 
since 1999, and we have implemented the CSFP (we call it StockBox) 
since 2003. TEFAP and CSFP commodity foods now account for 75 percent 
of the food we distribute every year. We coordinate 100 StockBox sites 
in southeastern Wisconsin at which 9,300 low-income seniors receive 
monthly box deliveries to their doorstep. The CSFP boxes are incredibly 
important to the seniors we serve. A recent survey of our StockBox 
beneficiaries told us that 39 percent of recipients would eat less, go 
hungry or have a hard time obtaining enough food in they could no 
longer obtain a StockBox. Another 21 percent of StockBox beneficiaries 
mentioned that they would have to look for additional assistance, such 
as meal sites or food pantries, if they did not receive a StockBox each 
month.
    Hunger Task Force has also administered the Senior Farmers Market 
Nutrition Program since 2004. Last year we distributed 3,200 vouchers 
to needy seniors in Milwaukee County. We know Milwaukee's seniors value 
these vouchers, as 91 percent of the vouchers were redeemed in 2011.
    Hunger Task Force has also been actively involved in improving and 
expanding participation in programs such as SNAP (Supplemental 
Nutrition Assistance Program), School Lunch and School Breakfast, WIC 
(Women, Infants and Children), CACFP after-school suppers, and the SFSP 
(Summer Food Service Program). For example:
  --We worked with the Milwaukee Public School district to pilot and 
        then expand a universal-breakfast-in-the-classroom program. 
        This program now provides free breakfast every day to all MPS 
        schoolchildren in 87 schools--over 25,000 children per day now 
        receive this benefit.
  --We have spearheaded a local coalition that provides summer meals 
        (including suppers) to low-income children in Milwaukee. This 
        summer feeding initiative, which is in large part subsidized by 
        the Kohl's Corporation, provided over 720,000 meals (including 
        89,000 suppers) to needy children last summer.
  --We continually strive to ``modernize'' FoodShare programming in 
        Milwaukee County. Since 2009, through our three satellite self-
        service locations, we have helped over 47,000 people apply for 
        FoodShare or retain benefits. We also have received Federal/
        state SNAP Outreach Grant funding to ensure that all people 
        eligible for SNAP benefits receive them.
  --We worked with Senator Kohl's office to bring the CACFP after-
        school supper program to Wisconsin in 2009. Currently, 36 MPS 
        schools provide more than 40,000 after-school suppers each 
        month to schoolchildren.
  --We have been a member of the Wisconsin WIC Advisory Committee since 
        2000. As a member, we work with local practitioners and State 
        officials to ensure that WIC participation is maximized for 
        those who are eligible. We also have begun attempting to work 
        with State officials on a transition to EBT, and we have 
        conducted outreach in our network around the new WIC food 
        package.
    Our experience with the Federal nutrition programs is diverse and 
extensive. We see the value of these programs to the people who need 
benefits, as well as to the service providers and local economy. In 
general, we are very pleased with President Obama's fiscal year 2013 
Proposed Budget for USDA's nutrition programs. In particular:
  --We support continued investment in the SNAP, including a 
        continuation of State options to suspend time limits on SNAP 
        for able-bodied adults without dependent children and 
        restoration of cuts to SNAP benefits made in the 2010 child 
        nutrition bill.
  --We support the increased investment in the SFSP and WIC Program, 
        including an increase in the cash value vouchers for fruits and 
        vegetables for children from $6 to $8 per month.
  --We support the competitive grants to fund school meal equipment 
        needed for the implementation of the new school meal standards 
        and expansion of the School Breakfast Program.
  --We are supportive of the $187 million provided to support the 
        existing CSFP caseload, but disappointed that CSFP is not made 
        into a seniors-only program. We also would like to see a 
        seniors-only CSFP expanded to all 50 States.
  --We are supportive of the increased funding for TEFAP (both 
        commodity purchases and administrative funding).
  --We are disappointed that the budget does not provide increased 
        investment in the Senior Farmers Market Nutrition Program and 
        WIC FMNP. Although we provided SFMNP vouchers to 3,200 needy 
        seniors last year, poverty among the elderly continues to grow 
        and we could easily triple the number of distributed vouchers 
        with additional Federal funding. Also, the WIC FMNP is proposed 
        to receive a 30 percent reduction, which will impact families 
        who need healthy and nutritious produce as well as small 
        farmers at farmers markets that operate in low-income 
        communities.
    As an experienced emergency food provider and advocacy-driven 
organization, we ask that you consider our comments as you move forward 
with fiscal year 2013 budget deliberations. Thank you for your 
consideration.
            Sincerely,
                                              Jon Janowski,
                                              Director of Advocacy.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America
    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2013 for 
various agencies and programs under the jurisdiction of the 
Subcommittee. The League is a national, nonprofit organization founded 
in 1922. We have more than 39,000 members and 250 community-based 
chapters nationwide. Our members are committed to advancing common 
sense policies that safeguard wildlife and habitat, support community-
based conservation, and address pressing environmental issues. The 
League has been a partner with farmers and a participant in forming 
agriculture policy since the 1930s. The following pertains to 
conservation programs administered by the U.S. Department of 
Agriculture.
    The Food, Conservation, and Energy Act of 2008 (farm bill) was 
enacted with a prominent commitment to increased mandatory conservation 
spending. It was bipartisan and supported by more than a thousand 
diverse organizations engaged in farm bill policy. We urge the 
Subcommittee to maintain the mandatory spending levels for conservation 
programs as provided in the farm bill. The League strongly opposes the 
administration's proposal to cut essential conservation programs, 
unilaterally reducing the farm bill baseline for fiscal year 2013 and 
beyond.
    The League is concerned that the administration's budget would 
deprive farmers and ranchers of conservation and environmental 
stewardship assistance in fiscal year 2013 and reduce the farm bill 
conservation baseline. These programs benefit producers through 
improved soil quality and productivity of their land, and the American 
people through cleaner air and water and healthy habitat. Reducing the 
farm bill baseline in the face of increasing future demands for 
resource protection and productivity is counterproductive.
    The League and its members across the country are especially 
focused on the following core conservation programs:
    Conservation Reserve Program (CRP).--The Conservation Reserve 
Program (CRP) reduces soil erosion, protects water quality, and 
enhances habitat through long-term contracts with landowners that 
convert highly erodible cropland to more sustainable vegetative cover. 
The administration's fiscal year 2013 budget for CRP proposes a 
reduction in the farm bill authorized acreage limit from 32 million to 
30 million. It is encouraging to see the announcement of a general 
sign-up in fiscal year 2012, and the special provision for 1 million 
acres of wetland and grassland restoration, but that does not alter the 
proposed cut to CRP's mandatory authorization for fiscal year 2013.
    Wetlands Reserve Program (WRP).--The Wetlands Reserve Program (WRP) 
provides technical and financial assistance to landowners to restore 
and protect wetlands on their properties. Wetlands are generally 
conserved through permanent or 30-year easements purchased by the U.S. 
Department of Agriculture. Unfortunately, the administration takes no 
action to request new farm bill funding for WRP, which expires with the 
current farm bill authorization in fiscal year 2012. The League urges 
Congress to continue the decades-long commitment made to the goals of 
the program.
    Grassland Reserve Program (GRP).--The Grassland Reserve Program 
(GRP) focuses on limiting conversion of pasture and other grasslands to 
cropland or development while allowing landowners to continue grazing 
and other operations that align with this goal. Again, the League is 
disappointed that the administration has not proposed continuing GRP or 
any form of the program beyond fiscal year 2012. The League opposes 
this reduction because it will undermine efforts to protect one of the 
country's most threatened natural resources.
    Conservation Stewardship Program (CSP).--The Conservation 
Stewardship Program (CSP) is a comprehensive approach to conserving 
soil, water, and other natural resources across a range of lands, 
including cropland, prairie, and forests. CSP makes conservation the 
basis for a producer to receive Federal financial support rather than 
limitless subsidies for intensive production of a few crops. It is 
troubling that the administration's fiscal year 2013 budget is 
proposing to cut the mandatory spending for CSP by $68 million. The 
League opposes this cut because CSP is a comprehensive, whole-farm 
approach to conservation that can maximize benefits to natural 
resources, fish and wildlife, and producers alike.
    Wildlife Habitat Incentives Program (WHIP).--The Wildlife Habitat 
Incentives Program helps agricultural landowners develop habitat for 
upland wildlife, wetland wildlife, threatened and endangered species, 
fish, and other wildlife. The President's fiscal year 2013 proposal 
also seeks to permanently reduce the mandatory commitment established 
for WHIP in the farm bill. The budget would cut fiscal year 2013 
funding for WHIP by $12 million. The League opposes this damaging cut 
to a program with the central goal of supporting wildlife resources in 
rural America.
    Finally, effective implementation of farm bill conservation 
programs depends upon adequate technical resources to work with 
landowners in addressing their unique environmental concerns. Although 
conservation programs are available, under-investment in technical 
assistance limits agency support to assist farmers and ranchers in 
selecting and optimizing appropriate programs for their operations. The 
technical expertise of the Natural Resource Conservation Service and 
partners that assist in the delivery of programs and technical 
assistance directly to landowners is necessary for the adoption and 
maintenance of conservation practices. We request that the Subcommittee 
support the mandatory levels of conservation program funding as 
provided in the farm bill to enable robust technical resources to 
implement those programs successfully.
    We appreciate the opportunity to testify in strong support of fully 
funding agricultural conservation programs.
                                 ______
                                 
  Prepared Statement of the Little Dixie Community Action Agency, Inc.
    LDCAA is requesting adequate funding provided to support $900 
million in lending authority for the Section 502 Single Family Direct 
Loan Program. It is disappointing to see the USDA relinquish the 
section 502 direct loan program. The section 502 direct loan program 
has far exceeded in successful outcomes any other Federal homeownership 
program. No other Federal program can equal the profile of families 
served: approximately 60 percent of the families receiving section 502 
loans have incomes of less than 60 percent of the median income, and 40 
percent of families participating in the program have incomes that do 
not exceed 50 percent of the median income.
    Despite serving families with limited economic means, the section 
502 direct loan program is the most cost effective affordable housing 
program in the Federal Government. In fiscal year 2010, the total per 
unit cost for a homeownership loan to a low income family was less than 
$5,000. This stands in significant contrast to the Section 8 Rental 
Assistance program with the annual per unit costs exceeding the total 
Federal expense of a section 502 direct loan.
Section 523 Mutual Self-Help Housing Program
    LDCAA is requesting national funding of $30 million for the Section 
523 Mutual Self-Help Housing Program. Currently, more than 100 
organizations across America participate in the self-help housing 
program. These organizations unite groups of 8 to 10 self-help families 
who work collectively in the construction of each family's home. They 
perform approximately 65 percent of the overall construction labor. 
This ``Sweat Equity'' results in each homeowner earning and gaining 
instant equity in their homes. It also makes a significant investment 
in their community often resulting in the building of homes and 
neighborhoods together. And despite the fact that self-help families 
constitute the lowest incomes of participants in the section 502 
portfolio, data demonstrates that these families prove to have the 
lowest rates of default and delinquency.
    For the past 3 years, self-help housing organizations have 
constructed almost 3,500 homes. This construction has in turn led to 
more than 11,000 jobs, more than $738 million in local income and $77 
million in taxes and revenue in rural communities across the Nation as 
evidenced from economic impact numbers from the National Association of 
Homebuilders.
                                 ______
                                 
                 Prepared Statement of the Lummi Nation
    Mr. Chairman and subcommittee members, thank you for the 
opportunity to provide testimony on the fiscal year 2013 Agriculture, 
Rural Development, Food and Drug Administration and Related Agencies 
appropriations. The following are the requests and priorities of the 
Lummi Nation.
                         background information
    The Lummi Nation is located on the northern coast of Washington 
State, and is the third largest Tribe in Washington State serving a 
population of over 5,200. The Lummi Nation is a fishing Nation. We have 
drawn our physical and spiritual sustenance from the marine tidelands 
and waters for hundreds of thousands of years. Now the abundance of 
wild salmon is gone, and the remaining salmon stocks do not support 
commercial fisheries. Consequently, our fishers are trying to survive 
off the sale of shellfish products. In 1999 we had 700 licensed fishers 
who supported nearly 3,000 tribal members. Today, we have about 523 
remaining. This means that over 200 small businesses in our community 
have gone bankrupt in the past 15 years. This is the inescapable 
reality the Lummi Nation fishers face without salmon. We were the last 
surviving society of hunters/gatherers within the contiguous United 
States, but we can no longer survive living by the traditional ways of 
our ancestors.
                   government-to-government protocol
    Executive Order No. 13175.--The United States has a unique legal 
and political relationship with Indian tribal governments, established 
through and confirmed by the Constitution of the United States, 
treaties, statutes, executive orders, and judicial decisions. In 
recognition of that special relationship, pursuant to Executive Order 
13175 of November 6, 2000, executive departments and agencies 
(agencies) are charged with engaging in regular and meaningful 
consultation and collaboration with tribal officials in the development 
of Federal policies that have tribal implications, and are responsible 
for strengthening the government-to-government relationship between the 
United States and Indian tribes.
                        lummi specific requests
Rural Development Loan Fund
    Tribal Financing and Access.--It is critical that Tribal 
governments acquire affordable and assessable financing for 
infrastructure development, to build facilities that provide tribal 
governmental services to our member and other governmental projects. 
Tribes must have equitable access and the same loan eligibility 
criteria as counties and States. Currently, existing loan criteria is 
inequitable and obligates valuable Tribal financial resources that 
otherwise would be allocated to providing needed services to our 
community.
    Water Supply.--Phase 1 funding of +$2 million, for a new Water 
Supply System--Increase in funding for Hatchery construction, operation 
and maintenance. Funding will be directed to increase hatchery 
production to make up for the shortfall of wild salmon.
    The Lummi Nation currently operates two salmon hatcheries that 
support tribal and non-tribal fishers in the region. The tribal 
hatchery facilities were originally constructed utilizing Federal 
funding from 1969-1971. Understandably most of original infrastructure 
needs to be repaired, replaced and/or modernized. Lummi Nation Fish 
Biologists estimate that these facilities are currently operating at 30 
percent of their productive capacity. Through the operation of these 
hatcheries the Tribe annually produces 1 million fall Chinook and 2 
million Coho salmon. To increase production, we must pursue a ``phased 
approach'' that addresses our water supply system first. The existing 
system only provides 850 GPM to our hatchery. To increase production to 
a level that will sustain tribal and non-tribal fisheries alike, we 
need to increase our water supply four-fold. A new pump station and 
water line will cost the Tribe approximately $6 million. We are 
requesting funding for the first phase of this project. Our goal is to 
increase fish returns by improving aquaculture and hatchery production 
and create a reliable, sustainable resource to salmon fishers by 
increasing enhancement.
    Lummi Nation needs financial resources to develop comprehensive 
water resources conservation and utilization plans that accommodates 
the water needs of its residents, its extensive fisheries resources.
    To ensure related to the removal of wild stocks from the salmon 
available for harvest are compensated through increased hatchery 
construction, operations and maintenance funding.
    Job Development.--The Lummi Nation needs support of its 
comprehensive Fisherman's Cove Harbor and Working Water Front Project 
which addresses Indian Energy, Economic and Workforce Development needs 
of the Lummi Nation membership.
    Unemployment on the reservation has been very difficult to address 
with limited on-reservation jobs. Tribal governments need to be able to 
meet the employment and training needs of our membership as well as the 
business development needs of our communities. This is the objective of 
the Lummi Nation Fisherman's Cove Harbor and Working Waterfront 
Project. We need financial assistance to enable our membership to get 
the job skills the local (Reservation and Non-Reservation) labor market 
demands. We ask the Committee to direct the Bureau to require this 
Office to work with the Lummi Nation to fully develop the Working 
Waterfront Project for the benefit of the Lummi Nation fishers, members 
and others invested in the marine economy of the extreme northwest 
corner of the United States.
USDA--Natural Resources Conservation Service
    Treaty Reserved Rights.--The Lummi Nation and other western 
Washington tribes are in danger of losing our treaty reserved rights. 
At risk are our constitutionally protected treaty reserved rights to 
harvest salmon. Because of the diminishing salmon populations and 
subsequently constrained tribal harvests--all due to the inability to 
restore salmon habitat faster than it is currently being destroyed and 
limitation on hatchery production to mitigate for lost natural 
production. To stop this habitat degradation, we are requesting that 
our Federal trustee to implement their fiduciary duties by better 
protecting salmon habitat. By fulfilling these essential Federal 
obligations, it is our hope that our salmon resource--the foundation of 
our cultures, our economies, and our rights--will be restored. We are 
urging the following action:
  --Require that all Federal funding for agricultural BMPs are 
        contingent upon agreement to imp implement full suites of NMFS/
        USFWS/EPA's western Washington BMP performance standards.
  --Consult with NMFS regarding the impacts of agricultural subsidy 
        programs on western Washington salmon.
  --Fund tribal riparian easement and fee simple habitat conservation 
        acquisitions.
  --Make the production of traditional tribal foods eligible for 
        agricultural subsidy and conservation programs.
                      family and children wellness
    Healthy, Hunger-Free Kids Act of 2010.--Lummi Nation needs 
assistance to develop and implement our tribal program to take full 
advantage of the National School Lunch Program reimbursement by having 
our tribal traditional foods eligible for reimbursement/subsidy.
    Child Abuse and Neglect.--Poverty is the primary factor in 
predicting incidents of child abuse and neglect. When the whole family 
is living in a car or a camper or in a low income house sparsely 
furnished house stimulation for positive mental, physical and emotional 
child development is absent. Poverty starts a downward spiral that is 
further fueled by the lack of traditional teachings, which values 
working together, not competing with one another. The first and most 
important step in reversing this trend is a job. Jobs not only change 
the life of the one who gets the job, but the lives of everyone in 
their family and positive impact to the community. The reverse is also 
true when jobs are lost. Over the last 10 years over 300 hundred small 
fishing businesses operated by members of the Lummi nation have 
financially failed. The people employed and families supported by these 
businesses are unemployed without access to unemployment insurance. 
Most of these people have replaced their employment with access to 
TANF, GA and other related income transfer programs. Lummi Nation needs 
financial assistance to insure that every Lummi Nation members who 
needs a job has access to a job.
    Domestic Violence.--Poverty starts a downward spiral that is 
further fueled by the lack of traditional teachings, which values 
working together and not competing with one another. Domestic Violence 
is a function of poverty and a lack of traditional values about the 
most prominent difference in our lives is the difference between men 
and women. Traditionally both are considered sacred functions and 
cannot be pre-empted by the other. The first and most important step in 
reversing this trend is a job.
    Elder Abuse.--Lummi Nation is concerned that incidents of elder 
abuse have been identified in our community. The Lummi Nation is 
committed to identify conditions which lead to and support elder abuse 
and eliminating those conditions from the community. Those elders who 
have secured social security payments are often the only family member 
with cash income. As the head of a family they are looked to support 
others who do not have a cash income. When the available resources do 
not match required expenditures month after month tension builds and 
tragic incidents result. Lummi Nation needs financial assistance to 
insure that all of its members who need jobs have jobs. This is the 
best way to insure that our elders may live in our community without 
harm.
    Thank you again for this opportunity to provide you with the 
priorities and requests of the Lummi Nation.
    Hy'shqe.
                                 ______
                                 
   Prepared Statement of the Massachusetts Vegetable & Flower Grower
    U.S. agriculture is made up of hundreds of crops of which only a 
dozen or so are considered major crops. The rest are referred to as 
minor or specialty crops and form the backbone and bloodline of our 
country's food supply. The commodity groups supporting this letter 
represent those who grow all the high quality vegetables and fruits we 
eat, the herbs and spices that add flavor to our lives, and the flowers 
and landscape plants that make America a beautiful place to live. All 
crops require pest control whether grown organically or conventionally. 
Due to cost of meeting EPA standards, which ensure all pest control 
compounds are safe to both human health and the environment, it is 
often economically unfeasible to commercialize pest control products 
for minor markets without public support. The limited acres on which 
these crops are grown do not provide the economic incentive for the 
private sector to register these products on our crops. Recognizing the 
need for the Government to assist with pest management in specialty 
crops, the IR-4 \1\ Project was created nearly 50 years ago to help 
America's specialty crop growers. The IR-4 Project is widely considered 
to be a model program with a history of successfully providing 
specialty crop growers with needed production tools and has deep 
support throughout the agricultural community.
---------------------------------------------------------------------------
    \1\ The Friends of IR-4 is a large diversified assemblage of 
commodity/agricultural organizations that rely upon and support the IR-
4 Project as it currently exists. For more information, go to 
www.saveir-4.org.
---------------------------------------------------------------------------
    We believe the IR-4 Project has become one of the most efficient, 
indispensable and reliable Government programs ever developed. Simply 
put, specialty crops cannot economically survive without the IR-4 
Project. Since the IR-4 Project is so crucial to our existence, we felt 
great alarm and deep concern when the fiscal year 2013 President's 
budget proposal for the USDA National Institute Food and Agriculture 
(NIFA) was proposing to transfer the IR-4 budget line item (Minor Crop 
Pest Management in Research and Education Activities) into a proposed 
new Crop Protection Program which includes five integrated pest 
management (IPM) programs. This proposed elimination of dedicated 
funding for the IR-4 Project will have profound negative impacts on 
production costs for all specialty crops and will result in 
unsustainable economic losses to growers, food processers and, 
ultimately, the consumers.
    We support the logic and financial considerations behind the 
proposal to consolidate five similar Integrated Pest Management 
Programs into the proposed Crop Protection Program. However, we believe 
that the Crop Protection Program is not the appropriate place to merge 
IR-4 due to its distinct objectives, which do not dovetail into the 
other IPM programs.
    We offer the following reasons why we are adamantly opposed to this 
move:
  --The five Focus Areas for the proposed Crop Protection program, as 
        documented in the Explanatory Notes, which was submitted to 
        Congress in the President's budget, do not include the primary 
        IR-4 mission of ``supporting the development of appropriate 
        data to facilitate registration of sustainable pest management 
        technologies for specialty crops and minor uses''. Thus, it 
        appears that USDA does not intend to continue to support the 
        regulatory approvals of new crop protection chemicals and 
        biopesticides for food and nonfood specialty crops in the 
        proposed Crop Protection Program. We consider this change to be 
        a serious threat to specialty crop agriculture in the United 
        States.
  --IR-4 is exempt from indirect cost recovery by the host land-grant 
        universities under 7 U.S.C. 450i(e), the NIFA grant currently 
        provided to fund IR-4. The proposed Crop Protection Program 
        transfers funds to Integrated Activities which would allow up 
        to 30 percent indirect cost recovery. If IR-4 is included as 
        part of the Crop Protection program, it means a 30 percent 
        decrease in funds available for IR-4 project. This funding 
        decrease is a very threatening proposition for specialty 
        agriculture and is something that we cannot accept.
  --IR-4 does much more than crop protection chemical testing. IR-4 
        collaborates with:
    --USDA-Foreign Agricultural Service.--To reduce the impact of 
            pesticide residues in/on specialty crops from being a 
            barrier of trade for U.S. grown exports.
    --Department of Defense.--To prevent sickness/death within deployed 
            U.S. military forces who are exposed to insect pests which 
            transmits diseases to humans by facilitating the 
            availability of public health pesticides.
    --USDA-APHIS.--To perform collaborative research to combat invasive 
            pests.
    --USEPA.--To review IR-4 submitted data to help with their 
            priorities to provide new technology to reduce the risk 
            from pesticides.
    --Department of Commerce/OMB.--IR-4 is involved in a critical 
            project supporting the U.S.-Canada agreement to accomplish 
            key objectives of the Regulatory Cooperation Council.
  --IR-4 food residue research often takes 3 to 5 years to complete, 
        involves highly trained staff that are proficient with USEPA's 
        Good Laboratory Practices regulations, and requires expensive 
        analytical instruments. This is vastly different from NIFA's 
        typical research grants. Restructuring or eliminating IR-4 and 
        abandoning numerous ongoing studies would be extremely 
        expensive and a waste of already appropriated taxpayer money.
  --Investment in IR-4 has yielded a huge return on investment. Since 
        its inception, IR-4 has facilitated the registration of over 
        25,000 crop uses. The Michigan State University Center for 
        Economic Analysis (Dec. 2011) determined that for a total 
        budget of $18 million (USDANIFA and other public/private 
        sources), IR-4 efforts contribute over $7.2 billion to annual 
        U.S. Gross Domestic Product and supports 104,650 U.S. jobs.
    These comments are on behalf of the 88 undersigned commodity 
associations/grower groups who represent American specialty 
agriculture. Collectively, we represent growers with operations in 
almost every congressional district of every State. Our operations are 
a huge driver in American agriculture; the farm gate value of specialty 
crops is over $67 billion annually. For more information on this topic 
please see: www.saveir-4.org.
    In summary, the proposed consolidation of the IR-4 Project into the 
Crop Protection Program significantly hurts growers of food and non-
food specialty crops and our food systems. It will lead to higher 
prices for the food that enhances health, and plants that enhance the 
environment. Consolidating IR-4 with the proposed Crop Protection 
Program will substantially increase costs to the taxpayer or result in 
a much smaller program providing significantly less service to American 
growers and ultimately the American public. We urge the Senate 
Appropriations Committee Subcommittee on Agriculture, Rural 
Development, Food and Drug Administration, and Related Agencies to 
continue to dedicate at least $12 million net dollars for Minor Crop 
Pest Management (IR-4) in fiscal year 2013 USDA-NIFA Research and 
Education Activities. Simply put, the United States specialty crop 
growers ask Congress to let the IR-4 Project continue to do the 
excellent job it has done for the past 49 years.
    The following commodity associations/grower groups support the 
above written testimony:
(while looking at this list, consider the breadth of crops, regions and 
                          states represented)
Ag Matters, LLC
American Farm Bureau Federation
American Mushroom Institute
American Nursery & Landscape Association
Ball Horticultural Company
California Apple Commission
California Asparagus Commission
California Blueberry Commission
California Garlic and Onion Research Advisory Board
Cherry Marketing Institute, Inc.
Center for Applied Horticultural Research
Cranberry Institute
Dill Growers of Oregon and Washington
Engage Agro USA
Essex County Fruit Growers
Florida Blueberry Growers Association
Florida Fruit and Vegetable Association
Florida Strawberry Growers Association
Ginseng board of Wisconsin
Great Lakes IPM, Inc.
Hawleys Florist
Hoogasian Flowers, Inc.
Hop Growers of Washington, Inc.
Hop Growers of American, Inc.
Idaho Grain Producers Association
Idaho Hop Commission
Idaho Hop Growers Association
Idaho Sugar Beet Growers Association, Inc.
Iwasaki Bros, Inc.
Kona Perfect Estate Grown Coffee
Lavender Growers of Oregon
Maine Vegetable & Small Fruit Growers Association
Massachusetts Fruit Growers Association
MGB Marketing
Meister Media Worldwide-Publisher of:
    American Western Fruit Grower
    American Vegetable Grower
    Florida Grower
    Greenhouse Grower
    CropLife
Michigan Asparagus Advisory Board
Michigan Cherry Committee
Michigan Mint Growers Association
Minor Crop Farmers Alliance
Mint Industry Research Council
Montana Mint Committee
Nash Produce
National Asparagus Council
National Barley Growers Association
National Greenhouse Manufacturers Association
National Onion Association
National Potato Council
National Watermelon Growers Association
NC Commercial Blackberry & Raspberry Growers Association
NC Pickles Packers Association
NH Vegetable & Small Fruit Growers Association
New England Vegetable & Berry Growers Association
North American Blueberry Council
North American Greenhouse/Hothouse Vegetable Growers Association
North American Strawberry Growers Association
North California Garlic & Onions Growers
North Carolina Blueberry Council
North Carolina Nursery & Landscape Association
North Carolina Strawberry Association
Oregon Blueberry Commission
Oregon Essential Oil Growers League
Oregon Fine Fescue Commission
Oregon Hop Commission
Oregon Mint Commission
Oregon Ryegrass Commission
Oregon Seed Council
Oregon Tall Fescue Commission
Pacific Northwest Christmas Tree Association
Pacific Northwest Vegetable Association
Pickle Packers International
Rudd Farm
Society of American Florists
Texas Citrus Mutual
Texas Vegetable Association
Tulelake Growers Association Mint Research Advisory Committee
U.S. Apple Association
U.S. Dry Pea & Lentil Council
U.S. Hop Industry Plant Protection Committee
Washington Asparagus Commission
Washington Blueberry Commission
Washington Hop Commission
Washington Mint Growers Association
Washington Red Raspberry Commission
Washington State Commission on Pesticide Registration
Western Alfalfa Seed Growers Association
Wisconsin Mint Industry
Wisconsin Muck Farmers Association
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    The Metropolitan Water District of Southern California 
(Metropolitan) encourages the Subcommittee's support for fiscal year 
2013 Federal funding of about $18 million from the U.S. Department of 
Agriculture's Environmental Quality Incentives Program for the Colorado 
River Basin Salinity Control Program.
    The concentrations of salts in the Colorado River cause 
approximately $300 million in quantified damages in the lower Colorado 
River Basin States each year and significantly more in unquantified 
damages. Salinity concentrations of Colorado River water are lower than 
at the beginning of Program activities by over 100 milligrams per liter 
(mg/L). Modeling by the U.S. Bureau of Reclamation indicates that the 
quantifiable damages would rise to more than $500 million by the year 
2030 without continuation of the Colorado River Basin Salinity Control 
Program (Program).
    Water imported via the Colorado River Aqueduct has the highest 
level of salinity of all of Metropolitan's sources of supply, averaging 
around 630 mg/L since 1976, which leads to economic damages. For 
example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations, and the cost of 
        water softening, and a decrease in equipment service life in 
        the commercial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission approved Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed into law the Colorado River 
Basin Salinity Control Act in 1974 (Act). High total dissolved solids 
in the Colorado River as it enters Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum.
    The salts in the Colorado River system are indigenous and 
pervasive, mostly resulting from saline sediments in the Basin that 
were deposited in prehistoric marine environments. They are easily 
eroded, dissolved, and transported into the river system, and enter the 
River through both natural and anthropogenic sources.
    The Program reduces salinity by preventing salts from dissolving 
and mixing with the river's flow. Irrigation improvements (sprinklers, 
gated pipe, lined ditches) and vegetation management reduce the amount 
of salt transported to the Colorado River. Point sources such as saline 
springs are also controlled. The Federal Government, Basin States, and 
contract participants spend over $40 million annually on salinity 
control programs.
    The Program, as set forth in the act, benefits both the Upper 
Colorado River Basin water users through more efficient water 
management and the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the river's salinity.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom the U.S. Department of Agriculture 
contracts for implementation of salinity control measures. Over the 
past years, the Colorado River Basin Salinity Control program has 
proven to be a very cost effective approach to help mitigate the 
impacts of increased salinity in the Colorado River. Continued Federal 
funding of this important Basin-wide program is essential.
    Metropolitan urges the Subcommittee to support funding for fiscal 
year 2013 of about $18 million from the U.S. Department of 
Agriculture's Environmental Quality Incentives Program for the Colorado 
River Basin Salinity Control Program.
                                 ______
                                 
   Prepared Statement of the National Association of County and City 
                            Health Officials
    The National Association of County and City Health Officials 
(NACCHO) is the voice of the approximately 2,800 local health 
departments across the country. City, county, metropolitan, district, 
and tribal health departments work every day to ensure the safety of 
the water we drink, the food we eat, and the air we breathe. Local 
health departments work with State, local, and national partners to 
prevent, identify, and respond to outbreaks of foodborne illness.
    The Nation's current financial challenges are compounded by those 
in State and local governments further diminishing the ability of local 
health departments to address community health and safety needs. 
Repeated rounds of budget cuts and lay-offs continue to erode local 
health department capacity. NACCHO surveys have found that since 2008, 
local and State health departments have lost 52,000 jobs due to budget 
reductions. In the area of food safety, that means there are fewer 
inspectors and trained food safety and food service professionals--from 
restaurants and school cafeteria workers to street fair vendors--able 
to identify risks and prevent foodborne illness.
    Local health departments have wide ranging responsibilities 
including measuring population-wide illness and organizing efforts to 
prevent disease and prolong quality of life. In the area of food 
safety, local health department responsibilities are focused on 
preventing foodborne illness and investigating the cause and spread of 
illness. Local health departments represent two-thirds of the 3,000 
State, local and tribal agencies that have primary responsibility to 
regulate the more than 1 million food establishments in the United 
States.
    Despite the best efforts of public officials, over 48 million cases 
of preventable foodborne illness occur every year in this country. Many 
of these cases cause pain and suffering, high medical bills, 
disability, lost productivity, lower life expectancy and death. 
Foodborne illness causes an estimated 128,000 hospital visits and 3,000 
deaths annually. Foodborne illness has significant costs associated 
with direct medical expenses, lost productivity, and decreased revenue 
for food manufacturers and retail establishments. Salmonella, which 
causes 1 million cases of foodborne illness, costs $365 million a year 
in direct medical expenses. The 2009 salmonella outbreak saw a double 
digit decline in the amount of peanut products purchased.
    In 2011, the United States experienced the deadliest foodborne 
illness outbreak in 90 years, an outbreak of listeria in cantaloupe 
that killed 32 people and infected 146 people in 28 States. This 
outbreak was quickly contained and the loss of life limited because of 
coordinated action between local, State and Federal public health 
agencies, including local and State health departments.
    Local health departments are on the front lines conducting food 
safety inspections and have the expertise to educate food handlers in 
their communities. Local health departments inspect restaurants, 
grocery stores, daycare facilities, hospitals, schools, and some food 
manufacturing plants to ensure safe food handling practices and 
sanitary conditions. Local health departments investigate citizen 
complaints and when necessary, will take action to ensure that a food 
establishment complies with sanitation standards.
    In 2010, Congress passed the Food Safety Modernization Act (FSMA), 
which recognized the importance of protecting the public from foodborne 
illness and the need to strengthen our current system for prevention of 
these costly illnesses. In the 21st century, our global food supply 
system is more complex than ever before and has an increased risk of 
accidental or intentional contamination. In FSMA, the Federal 
Government made a commitment to foster coordination and increase 
capacity at the local, State and Federal level to prevent and respond 
to foodborne illness. The return on Federal investment in food safety 
training, surveillance and investigation capacity can be measured in 
improved health and lower health care costs and lost productivity. In 
fiscal year 2012, Congress made a down payment on the implementation of 
FSMA by providing $39 million. NACCHO recommends Congress take further 
steps in fiscal year 2013 to fully implement FSMA and fund the Food and 
Drug Administration's food safety programs as outlined below.
 food and drug administration--center for safety and applied nutrition
NACCHO Request: $1.0 Billion
President's Fiscal Year 2013 Budget: $1.0 Billion
Fiscal Year 2012: $883 Million
    FDA's Center for Safety and Applied Nutrition (CFSAN) supports 
partnerships at the local, State and Federal level to protect consumers 
from, and quickly respond to and track, foodborne illness outbreaks. 
CFSAN also oversees the food safety training program which helps to 
maintain uniform standards in food inspection and the retail food 
safety initiative which provides best practices for retail food 
handlers.
    A national food safety training system, including a certification 
system, will ensure that officials at all levels of government have 
consistent, up-to-date knowledge, as well as the necessary skills, to 
do their jobs. Without a robust national training system, there is less 
capacity to consistently and continuously improve knowledge and skills 
based on the latest science and risk assessments. It is crucial that 
regulators and public health partners have the appropriate knowledge 
and training to carry out their duties to safeguard the public from 
foodborne illness. Food safety training requires continued funding to 
increase capacity and adequately train our Nation's food protection 
workers.
    FDA's dedicated retail food safety initiative supports research and 
distribution of technologies that prevent, mitigate, or detect 
foodborne illness hazards in the retail environment. FDA resources 
allow local health departments to learn about and adopt best practices 
for prevention of foodborne illness in the retail setting and to 
utilize products developed by FDA to educate the public and food 
service workers in their communities.
    As you draft the fiscal year 2013 Agriculture-Rural Development--
FDA Appropriations bill, we urge consideration of these recommendations 
for FDA programs that are critical to ensuring the safety of our 
Nation's food supply and protecting our Nation's people.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Chairman Kohl and Ranking Member Blunt, I am David Terry, Executive 
Director of the National Association of State Energy Officials (NASEO) 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee8a9a8b9c9c97ae808f9d8b81c0819c89">[email&#160;protected]</a>), and I am testifying in support of funding for the 
energy title of the farm bill. Specifically, we support funding of at 
least $39 million in discretionary funds for the Rural Energy for 
America (REAP) program (Section 9007 of the farm bill), in addition to 
any mandatory funding. The REAP program was created in the 2002 farm 
bill and it has been a huge success. Over 9,600 energy efficiency and 
renewable energy projects have been implemented in every State since 
2003. With a required $3 match of non-Federal funds for every Federal 
dollar invested in REAP, over $1.6 billion in matching funds have been 
provided. This program has specifically benefitted farmers, ranchers 
and rural small businesses. NASEO members work directly with eligible 
entities, as well as State agricultural agencies and rural interests to 
promote this successful program. Rising oil and distillate prices have 
made this program even more important.
    NASEO represents the energy offices in the States, territories and 
the District of Columbia. The REAP program, and the other critical 
programs in the energy title of the farm bill, helps create jobs, 
increases agricultural productivity, saves energy for farmers, ranchers 
and rural small businesses, generates energy, promotes use of 
alternative fuels, reduces our dependence on imported petroleum and 
saves money in rural America. The cost is very low and the payback is 
very high. REAP is about rural economic development.
    We urge your support for the REAP program.
                                 ______
                                 
Prepared Statement of the National Commodity Supplemental Food Program 
                              Association
    Mister Chairman and Subcommittee members, thank you for this 
opportunity to present information regarding the USDA/FNS Commodity 
Supplemental Food Program (CSFP).
    The National Commodity Supplemental Food Program Association 
(NCSFPA) requests the Senate Agriculture Appropriations Subcommittee 
fund CSFP for fiscal year 2013 at $191,935,000; $186,935,000 as 
requested by the U.S. Department of Agriculture, an additional $5 
million to begin CSFP operations in six States (Connecticut, Hawaii, 
Idaho, Maryland, Massachusetts, and Rhode Island) with USDA-approved 
plans. Additionally, the subcommittee should note that current States 
requested approximately 116,350 additional slots to meet the rising 
demand for nutritional assistance among our vulnerable senior 
population.
    CSFP is a unique program because it brings together Federal and 
State agencies, along with public and private entities. In fiscal year 
2011, the CSFP provided services through 150 nonprofit community and 
faith-based organizations at 1,800 sites located in 39 States, the 
District of Columbia, and two Indian Tribal Organizations (Red Lake, 
Minnesota and Oglala Sioux, South Dakota).
    In fiscal year 2011, 97 percent of all CSFP recipients were low-
income seniors. Our association has proposed as part of the next farm 
bill fully converting the program into a seniors-only program, allowing 
sufficient time for those mothers and children to transition off CSFP.
    USDA purchases specific nutrient-rich foods at wholesale prices, 
including canned fruits and vegetables, juices, meats, fish, peanut 
butter, cereals, grain products, cheese and dairy products from 
American farmers. State agencies provide oversight, contract with 
community and faith-based organizations to warehouse and distribute 
food, certify eligibility and educate participants. Local organizations 
build broad collaboration among nonprofits, health units, and area 
agencies for effective access to these supplemental foods as well as 
nutrition education to improve participants' health and quality of 
life. This partnership reaches even homebound seniors in both rural and 
urban settings with vital nutrition and remains an important ``market'' 
for commodities supported under various farm programs.
    CSFP continues to be a testimony to the power of community 
partnerships between faith-based organizations, farmers, private 
industry and Government agencies. The CSFP offers a unique combination 
of advantages that are unparalleled by any other food assistance 
program:
  --The CSFP specifically targets one our Nation's most nutritionally 
        vulnerable populations: low-income seniors (but association is 
        suggesting that this becomes senior-only project, so don't 
        mention children?).
  --The CSFP provides a monthly selection of food packages tailored to 
        the specific nutritional needs of seniors. The nutritional 
        content of the food provided has improved with the introduction 
        of low-fat cheese, whole grain products, canned fruits packed 
        in fruit juice or extra light syrup, and low-salt canned 
        vegetables.
  --The CSFP purchases foods at wholesale prices, directly supporting 
        American farmers. The average cost of a CSCP food package is 
        estimated at $19.85 while the retail value is $50.
  --The CSFP involves the entire community. Thousands of volunteers and 
        private companies donate money, equipment, and most importantly 
        time and effort to deliver food to needy and homebound seniors. 
        These volunteers not only bring food but companionship and 
        other assistance to seniors who might have limited support 
        systems.
    In the most recent CSFP survey, more than half of seniors living 
alone reported an income of less than $750 per month. One-half of 
respondents from two-person households reported an income under $1,000 
per month. Twenty-five percent were enrolled in the Supplemental 
Nutrition Assistance Program (SNAP) and 50 percent said they ran out of 
food during the month. Seventy percent of senior respondents said they 
choose between medicine and food.
    The Senate Agriculture Appropriations Subcommittee has consistently 
supported CSFP, acknowledging that it is a cost-effective way of 
providing nutritious supplemental foods. While USDA's budget request 
will provide adequate resources for our monthly caseload of 599,380 
seniors, mothers, and children--a reduction from the 604,931 packages 
USDA was able to support in fiscal year 2011--we urge the Subcommittee 
to strongly consider our request for increased funding to allow six 
additional States to begin providing nutritional assistance to their 
vulnerable seniors.
    CSFP and other nutrition programs such as SNAP are only 
supplemental programs by design. Together they cover a shortfall that 
many seniors face each month. These programs must have support to meet 
the increasing need as part of the ``safety net''.
    According to the 1997 report by the National Policy and Resource 
Center on Nutrition and Aging at Florida International University, 
Miami--Elder Insecurities: Poverty, Hunger, and Malnutrition, 
malnourished elderly patients experience 2 to 20 times more medical 
complications, have up to 100 percent longer hospital stays, and incur 
hospital costs $2,000 to $10,000 higher per stay. Proper nutrition 
promotes health, treats chronic disease, decreases hospital length of 
stay and saves healthcare dollars. America is aging. CSFP must be an 
integral part of Senior Nutrition Policy and plans to support the 
productivity, health, independence and quality of life for America's 
seniors, many of whom now need to continue working at least part-time 
beyond retirement age to afford basics.
    CSFP recipients believe this is a very significant and vital 
program; our belief is supported by agency and recipient testimonials. 
An Arkansas recipient tells us that they would not be able to eat the 
balanced meals that CSFP provides each month. Arkansas program 
operators talk about the importance of interaction between seniors and 
program staff, saying this interaction is very important for the well-
being of recipients, and recipients are able to live more stable, self-
sufficient lives as a result. Colorado participants say that they would 
not be able to have juice and cereal without CSFP, and many appreciate 
the program because they are homebound, and that there are 100 clients 
on the waiting list in El Paso County. Seniors in St. Louis, Missouri, 
say that CSFP foods help them get through to their next checks. 
Participants in Nebraska say that they don't know what they would do 
without this food, calling the program a ``lifesaver''. New Hampshire 
participants tell us that they use CSFP as a primary source of 
nutrition each month and would see a dramatic loss in food availability 
without the program. One Wisconsin recipient said that they would 
starve without the program, while others said that CSFP on their 
limited income meant that they could pay their telephone and electric 
bills.
    These anecdotes represent just a small portion of those affected, 
but it highlights the deep and rising need we are seeing in communities 
across the country. Whether urban, suburban, or rural--we have seen 
dramatic rises in the demand from the community--and have become more 
limited in available resources. With an ever-growing senior population 
living on fixed incomes, there has never been a more pressing time to 
fund this vital program.
    The CSFP is supported by committed grassroots operators and 
dedicated volunteers with a mission to provide quality nutrition 
assistance economically, efficiently, and responsibly always keeping 
the needs and dignity of our participants first. We commend the Food 
Distribution Division of Food and Nutrition Service of the Department 
of Agriculture for their continued innovations to strengthen the 
quality of the food package and streamline administration.
                                 ______
                                 
          Prepared Statement of the National Organic Coalition
    Chairman Kohl, Ranking Member Blunt, and Members of the 
Subcommittee: My name is Steven Etka. I am submitting this testimony on 
behalf of the National Organic Coalition (NOC) to detail our fiscal 
year 2013 funding requests for USDA programs of importance to organic 
agriculture.
    The NOC is a national alliance of organizations working to provide 
a voice for farmers, environmentalists, consumers, cooperative 
retailers and others involved in organic agriculture. The current 
members of NOC are the Beyond Pesticides, Center for Food Safety, Equal 
Exchange, Food and Water Watch, Maine Organic Farmers and Gardeners 
Association, Midwest Organic and Sustainable Education Service, 
National Cooperative Grocers Association, Northeast Organic Dairy 
Producers Alliance, Northeast Organic Farming Association-Interstate 
Policy Council, Organically Grown Company, Organic Seed Alliance, Rural 
Advancement Foundation International-USA, and the Union of Concerned 
Scientists.
               usda/agricultural marketing service (ams)
National Organic Program
            Request: 9.896 Million
    Sales of organic food and beverages have experienced a rapid growth 
over the last decade, averaging nearly 20 percent per year. Despite the 
recession, organic sales grew at a rate of 5 percent in 2009 and 8 
percent in 2010. In 2011, the organic sector experienced a 9.5 percent 
growth rate. The National Organic Program (NOP) is the agency charged 
with regulating and enforcing the USDA organic label. For years, the 
rapid growth of the organic industry has far outpaced the resources 
provided to the NOP, which has greatly limited the ability of NOP to 
fulfill its regulatory and enforcement role credibly.
    Fortunately, both Congress and the Administration responded with an 
increase in funding in fiscal years 2009 and 2010 to meet these needs. 
In the final fiscal year 2011 Continuing Resolution cuts were made to 
AMS overall, and funding levels for individual AMS programs were left 
to the discretion of the agency. The resulting NOP funding level for 
fiscal year 2011 is $6.919 million.
    We are requesting for $9.896 million for the NOP, which is the same 
level requested by the Administration's fiscal year 2012 budget, 
representing an increase of $2.98 million over current levels. The 
Administration's fiscal year 2013 level-funding request for NOP does 
not adequately address the needs of this rapidly growing sector. 
Increased funding is needed to accelerate the review and amendment of 
program standards and regulations to reflect industry and consumer 
expectations through a transparent and participatory process; improve 
the consistency in certifier application of the standards; and improve 
timeliness and effectiveness of enforcement actions to protect organic 
integrity.
                         usda (ams, ers, nass)
Organic Data Initiative
            Request: $300,000 for AMS Price Report; Report Language for 
                    NASS Organic Production Survey, and ERS Organic 
                    Data Analysis
    Authorized by Section 7407 of the 2002 Farm Bill, the Organic 
Production and Marketing Data Initiative states that the ``Secretary 
shall ensure that segregated data on the production and marketing of 
organic agricultural products is included in the ongoing baseline of 
data collection regarding agricultural production and marketing.'' 
Section 10302 of the Farm, Conservation, and Energy Act of 2008 amends 
the provision to provide mandatory funding, and to authorize $5 million 
annually in discretionary funding.
    As the organic industry matures and grows at a rapid rate, the lack 
of national data for the production, pricing, and marketing of organic 
products has been an impediment to further development of the industry 
and to the effective functioning of many organic programs within USDA. 
The organic data collection and analysis effort at USDA has made 
significant strides in recent years, but remains in its infancy. 
Because of the multi-agency nature of data collection within USDA, 
organic data collection and analysis must also be undertaken by several 
different agencies within the Department.
    In 2008, NASS conducted the first-ever comprehensive Organic 
Production Survey as a follow-on survey to the 2007 Census of 
Agriculture. Published in February 2010, the survey has provided 
information vital to the organic sector's growth and to the U.S. 
Department of Agriculture. The Organic Production Survey should be 
conducted on a regular basis to properly assess the characteristics, 
trends, and changes in the sector.
    The Administration's fiscal year 2013 budget proposes to address 
organic data collection needs within the overall budget request for the 
data collection agencies. However, we are requesting that report 
language be included in the fiscal year 2013 report to clearly specify 
the organic data collection efforts within AMS, ERS and NASS. 
Specifically, we are requesting report language identifying $300,000 
for AMS organic price reporting, level with fiscal year 2012 funding. 
In addition, we are requesting report language urging NASS to undertake 
the necessary planning to conduct an Organic Production Survey on an 
on-going 5-year cycle, as a follow-on survey to the Census of 
Agriculture, starting in 2013; and for ERS to continue its organic data 
analysis efforts.
         usda/national institute of food and agriculture (nifa)
Organic Transitions Program
            Request: $5 Million
    The Organic Transition Program, authorized by Section 406 of the 
Agricultural Research, Education and Extension Reform Act (AREERA) for 
Integrated Research Programs, is a research grant program that helps 
farmers surmount some of the challenges of organic production and 
marketing. As the organic industry grows, the demand for research on 
organic agriculture is experiencing significant growth as well. The 
benefits of this research are far-reaching, with broad applications to 
all sectors of agriculture, even beyond the organic sector. Yet funding 
for organic research is minuscule in relation to the relative economic 
importance of organic agriculture and marketing in this Nation.
    The Organic Transition Program was funded at levels ranging between 
$2.1 and $1.8 million during the period of fiscal year 2003 through 
fiscal year 2009, received an increase to $5 million in fiscal years 
2010, and $4 million in fiscal years 2011 and 2012. The 
Administration's fiscal year 2013 budget requested level funding. We 
are requesting $5 million to restore the program to its fiscal year 
2010 level.
Agriculture and Food Research Initiative (AFRI)
            Request: Report language on Conventional/Classical Plant 
                    and Animal Breeding
    In recent decades, public resources for classical plant and animal 
breeding have dwindled, while resources have shifted toward genomics 
and biotechnology, with a focus on a limited set of major crops and 
breeds. This problem has been particularly acute for organic and 
sustainable farmers, who seek access to germplasm well suited to their 
unique cropping systems and their local environment.
    Since fiscal year 2005, the Senate Agriculture Appropriations 
Subcommittee has included report language raising concerns about this 
problem, and urging CSREES (now NIFA) to give greater consideration to 
research needs related to classical plant and animal breeding when 
setting priorities within the National Research Initiative (now AFRI).
    In Section 7406 of the Food, Conservation, and Energy Act of 2008, 
the National Research Initiative was merged with the Initiative for 
Future Agriculture and Food Systems to become the Agriculture and Food 
Research Initiative (AFRI). Congress included language within AFRI to 
make ``conventional'' plant and animal breeding a priority for AFRI 
research grants, consistent with the concerns expressed by the 
Appropriations Committee in preceding appropriations cycles.
    Despite the many years of Senate report language and the 2008 Farm 
Bill language on this matter, research proposals for classical breeding 
that have sought AFRI funding in recent years have been consistently 
denied. Of the 127 AFRI-funded projects in 2009, 2010, and 2011 related 
to plant breeding and genomics, there was only one project that could 
truly be classified as classical breeding, which was a 2010 grant to 
Kansas State University for $210,000. Of the 59 AFRI-funded projects in 
animal breeding, fertility and genomics, there appear to be no 
classical animal breeding projects funded at all.
    It is becoming clear that unless a separate AFRI subgrant category 
dedicated to classical plant and animal breeding and the development of 
public cultivars is created, the 2008 Farm Bill classical breeding 
requirement and concerns stated in years of Senate report language will 
not be adequately addressed.
    We are requesting strong report language from the Subcommittee to 
reiterate that the funding for classical plant and animal breeding and 
pubic cultivar development should be a priority area within the AFRI 
program, and urging that a separate and distinct RFA be created within 
AFRI to address this critical need. Specifically, we are requesting the 
following report language in the AFRI section of the Committee report:

The Committee believes that funding for classical plant and animal 
breeding that results in finished public cultivars and breeds should be 
a priority area within the AFRI program, and urges the agency to create 
a separate and distinct RFA within AFRI to address this critical need.
Sustainable Agriculture Research and Education (SARE)
            Request: $30 Million ($18 Million for Research and 
                    Education Grants, $7 Million for the Federal-State 
                    Matching Grant Program, and $5 Million for 
                    Extension and Outreach Grants)
    The SARE program has been very successful in funding on-farm 
research on environmentally sound and profitable practices and systems, 
including organic production. The reliable information developed and 
distributed through SARE grants have been invaluable to organic 
farmers. The President's budget requests $22.7 million for SARE program 
for fiscal year 2013, including $3.5 million to start the Federal-State 
Matching Grant program. We are requesting $18 million for research and 
education grants, $7 million for Federal-State Matching Grant program, 
and $5 million for extension and outreach.
                usda/rural business cooperative service
Appropriate Technology Transfer for Rural Areas (ATTRA)
            Request: $3 Million
    ATTRA, authorized by Section 6016 on the Food, Conservation, and 
Energy Act of 2008, is a national sustainable agriculture information 
service, which provides practical information and technical assistance 
to farmers, ranchers, Extension agents, educators and others interested 
and active in sustainable agriculture. ATTRA interacts with the public, 
not only through its call-in service and website, but also provides 
numerous excellent publications written to help address some of the 
most frequently asked questions of farmers and educators. Much of the 
real-world information provided by ATTRA is extremely helpful to both 
the conventional and organic communities, and is available nowhere 
else. As a result, the growth in demand for ATTRA services has 
increased significantly, both through the website-based information 
services and through the growing requests for workshops.
    Funding for ATTRA was completely eliminated in the fiscal year 2011 
Continuing Resolution, greatly jeopardizing information transfer to 
farmers seeking the most up-to-date scientific and practical 
information about sustainable farmers systems, but was funded at $2.25 
million in fiscal year 2012. The President's fiscal year 2013 budget 
requests level funding ($2.25 million) for ATTRA. We are requesting $3 
million for fiscal year 2013, to help meet the growing demand from 
farmers for up-to-date, science-based information.
                usda/agriculture research service (ars)
Classical Plant and Animal Breeding Activities
            Request: $9.03 Million
    As noted above in the AFRI section of this request, public 
resources for classical plant and animal breeding have dwindled in 
recent decades, and as a result, our capacity for public breeding in at 
a critical point. While USDA's statutory obligation to address this 
problem through the AFRI competitive grant program remains strong, ARS 
also has an obligation in this regard. Although ARS has the resources 
and expertise to help reverse this dangerous trend, the agency has not 
made a concerted effort in this regard.
    We are requesting $9 million for ARS classical plant and animal 
breeding efforts, to be utilized in a manner similar to that described 
in the Administration's fiscal year 2011 budget request (pages 16-19 
and 16-29 of USDA's fiscal year 2011 Budget Justification document), 
which called for an increase of $4.289 million for ``crop breeding to 
enhance food and production security'' and other $4.75 million for 
``crop protection to enhance food and production security,'' with a 
clear focus on classical plant and animal breeding activities. With the 
change in leadership at USDA, the Administration's fiscal year 2012 and 
2013 requests for ARS have failed to reiterate this request. However, 
we believe the fiscal year 2011 ARS request for this research was well 
stated, and urge the Subcommittee to provide funding for this critical 
ARS activity.
    Thank you for your consideration of these fiscal year 2013 funding 
priorities. We look forward to working with the Subcommittee throughout 
this year's appropriations process.
                                 ______
                                 
       Prepared Statement of the National Rural Housing Coalition
    On behalf of the National Rural Housing Coalition (NRHC), I would 
like to thank the Subcommittee for the opportunity to submit testimony 
on fiscal year 2013 appropriations for Department of Agriculture (USDA) 
Rural Housing Programs. I strongly urge this Subcommittee to fund USDA 
Rural Housing programs at the higher of fiscal year 2012 levels or the 
President's fiscal year 2013 budget request: (1) $900 million for 
Section 502 Family Direct Homeownership Loans; (2) $28 million for 
Section 504 Very-Low Income Rural Housing Repair Loans; (3) $29.5 
million for Section 504 Very-Low Income Rural Housing Repair Grants; 
(4) $26 million for Section 514 Farm Labor Housing Program Loans; (5) 
$9 million for Section 516 Farm Labor Housing Program Grants; (6) $64.5 
million for Section 515 Rural Rental Housing Program; (7) $907 million 
for Section 521 Multi-Family Rental Housing Rental Assistance Program; 
(8) $30 million for Section 523 Self-Help Housing Program: (9) $3.6 
million for Section 533 Housing Preservation Grants Program; (10) $150 
million for Section 538 Guaranteed Multi-Family Housing Loans; (11) 
$46.9 million for the Multi-Family Housing Preservation and 
Revitalization Program; and (12) $13 million for the Rural Community 
Development Initiative.
    NRHC is a national membership organization consisting of housing 
developers, nonprofit housing organizations, State and local officials, 
and housing advocates. Since 1969, NRHC has promoted and defended the 
principle that rural people have the right, regardless of income, to a 
decent, affordable place to live, clean water, and basic community 
services.
Housing Needs in Rural America
    Even in strong economic times, the needs of rural America are too 
often overlooked. And, although our most recent economic crisis pushed 
these many of these communities to the brink, their needs continue to 
be neglected by the mainstream media, traditional sources of capital, 
and Federal policymakers. For example, although nearly 20 percent of 
the population lives in rural communities, other Federal agencies 
consistently overlook their unique housing needs; less than 7 percent 
of the Federal Housing Administration assistance, 10 percent of 
Veterans Affairs programs, and 12 percent of Section 8 Rental 
Assistance serves rural areas.
    Rural communities have severe housing and development needs. With 
some of the Nation's lowest incomes, rural communities are four times 
more likely to have at least 20 percent of their population living in 
poverty. About 98 percent of ``consistently poor counties'' are rural, 
as are nearly all communities with inadequate drinking water. As a 
result, rural families are far more likely to live in substandard 
housing or be overburden by rent. Housing in rural America is simply 
too expensive relative to household income, overcrowded, or lacks 
certain basic facilities.
    Despite the overwhelming need for safe, clean, and affordable 
housing in rural America, Congress has consistently cut funding for the 
very programs specifically tailored to meet this need. And now, 
President Obama has proposed significant cuts to the Section 502 Direct 
Loan and Self-Help Housing programs, and the elimination of the Section 
515 Rural Rental Housing program. Because these programs overwhelmingly 
serve our most vulnerable residents--lower income families, the 
elderly, and persons with disabilities, these cuts will only make it 
harder for low-income, rural Americans to access safe, decent, 
affordable housing. As such, I would like to focus my testimony on how 
these programs are critical to meeting the needs of rural families.
Section 502 Single-Family Direct Homeownership Loans
    Over 60 years, the Section 502 Direct Loan Program has helped more 
than 2.1 million families realize the American Dream and build their 
wealth by more than $40 billion. Despite the program's success, demand 
for Section 502 loans continues to outpace supply. Over 25,000 loan 
applications--amounting to more than $2 billion--are currently on 
Section 502 waiting lists.
    No other Federal home ownership program can match the profile of 
the families served under Section 502. It is the only Federal 
homeownership program that is exclusively targeted to very low- and 
low-income rural families. By law, at least 40 percent of Section 502 
funds must be used to assist families earning less than 50 percent of 
the area median income. Two-thirds borrowers have incomes less than 60 
percent of AMI, with an average income less than $27,000.
    Despite serving families with limited economic means, Section 502 
is the single, most cost-effective Federal housing program, period. On 
average, each Section 502 loan costs less than $7,200 over its entire 
lifetime. Compare that to the average Section 8 Housing Assistance 
payment, which costs taxpayers nearly $7,000 each year.
    Although some have suggested that the Section 502 Guarantee Program 
can serve as an adequate alternative, this is simply untrue. Unlike the 
Direct Loan program, the Guarantee program overwhelmingly serves 
higher-income individuals--with an average income of nearly twice that 
of Direct Loan families--leaving rural communities with the greatest 
credit needs without any alternative. Even the USDA has held that the 
guarantee program is the worst-targeted of all its rural development 
guarantees, with loans going to larger, wealthier communities. 
Likewise, the guarantee program does not provide interest rate 
subsidies. This defect will become even more harmful when interest 
rates return to normal levels.
Section 523 Mutual Self-Help Housing
    The Self-Help Housing program adapts the rural tradition of barn-
raising to provide housing opportunities for families with limited 
economic means. Through this program, more than 3,500 families have 
been able to realize the American Dream in the past 3 years. This 
construction has led to over 11,000 jobs, more than $738 million in 
local income and $77 million in taxes and revenue in rural communities 
across the country. If the President's budget is approved by Congress, 
Self-Help Housing will be cut to its lowest funding in more than 30 
years, decimating the network of over 100 Self-Help organizations over 
37 States and deserting 50,000 families currently on their waiting 
lists.
    Self-Help Housing is the only Federal program that combines ``sweat 
equity'' homeownership opportunities with technical assistance and 
affordable loans for America's rural families. Self-Help Housing 
families work nights and weekends to provide 65 percent of the 
construction labor on their own and each other's homes. In doing so, 
families earn equity, decrease construction costs, and make lasting 
investments in their community. The hallmark of the Self-Help Housing 
program is its emphasis on hard work, self-reliance, and community.
    This program is exclusively targeted to very low- and low-income 
families who are otherwise unable to access decent housing. Over half 
of the participants are minorities. Although these families have lower 
incomes, default rates are significantly lower than other borrowers. 
Section 515 Rural Rental Housing
    Section 515 is the principal source of financing for rental housing 
in rural communities. Today, more than 500,000 families live in housing 
financed by Section 515. If approved by Congress, the President's 
budget will end a 40-year effort to improve the quality of rural 
housing, leaving seniors, low-income families, and those with 
disabilities even more vulnerable.
    Rental units developed with Section 515 loans are exclusively 
targeted to very low-, low-, and moderate-income families, the elderly, 
and persons with disabilities. A vast majority--94 percent--of Section 
515 tenants have very-low incomes. The average yearly income is only 
$11,000. Some 57 percent these households are elderly or disabled, 26 
percent are headed by persons of color, and 73 percent are headed by 
women.
    Demand for affordable, rural rental housing continues to outpace 
supply. More than 7.8 million rural residents--including 19 percent of 
all rural children--live in poverty. Almost 1 million rural renters 
live in substandard housing. Yet, despite its success and increased 
demand, Section 515 funding has been cut drastically, stalling the 
production of new units and the preservation of existing ones.
Conclusion
    Providing adequate funding for USDA Rural Housing programs is 
essential to efforts to improve the quality of life and economic 
opportunity in rural America. These programs are all part of the 
toolbox that USDA employs address the shortfall in decent, clean, and 
affordable housing in these communities. For a very small fraction of 
the USDA's budget, Congress can provide affordable rental and 
homeownership opportunities to thousands of rural families with limited 
means and boost flagging economies in small communities.
    Thank you for this opportunity to submit this statement.
                                 ______
                                 
  Prepared Statement of the National Sustainable Agriculture Coalition
    Thank you for the opportunity to present our fiscal year 2013 
funding requests. NSAC is a national alliance of over 90 organizations 
that advocates for policies that support the economic, social, and 
environmental sustainability of agriculture, natural resources, and 
rural communities. Our USDA requests are as follows, in the order they 
appear in the appropriations bill.
Departmental Administration
    Office of Advocacy and Outreach.--The Office of Advocacy and 
Outreach coordinates policy and outreach in two vital areas--small and 
beginning farmers, and socially disadvantaged or minority farmers. It 
administers the Outreach and Technical Assistance for Socially 
Disadvantaged Farmers and Ranchers program and the Farm Labor Grants 
program. We support USDA's request for $1.4 million for the OA&O.
National Institute of Food and Agriculture
    Sustainable Agriculture Research and Education Program (SARE).--We 
urge you to fund this innovative competitive grants program at $30 
million, divided among research and education grants ($18 million), 
extension and professional development grants ($5 million), and 
Federal-State matching grants ($7 million). SARE has helped turn 
farmer-driven research, education, and extension initiatives into 
profitable and environmentally sound practices for over 20 years.
    Organic Transitions Integrated Research Program.--We request $5 
million to maintain the funding level established in fiscal year 2010 
and in USDA's fiscal year 2012 request. Maintaining the fiscal year 
2010 funding level will allow cooperation with natural resource 
programs to provide environmental solutions with strong farmer delivery 
mechanisms built in. Without full funding, organic research will fall 
further behind in its fair share of the research budget, a share that 
continues to lag behind trends in agriculture.
    National Food Safety Training, Education, Extension, Outreach, and 
Technical Assistance.--We request $10 million to help small and mid 
size farms and small processing facilities comply with new food safety 
regulations. This food safety training for farmers and small 
processors, authorized in the Food Safety Modernization Act of 2010, is 
one of the best, quickest, and least costly ways to improve food safety 
outcomes without resorting to excessive regulation.
Agricultural Marketing Service
    Federal-State Market Improvement Program (FSMIP).--The FSMIP 
provides matching funds to State departments of agriculture to help 
grantees increase marketing efficiency and innovation, reduce costs, 
stabilize food prices, and support local and regional food marketing 
opportunities. NSAC supports the USDA request of $1.3 million.
    Organic Market Reporting.--NSAC requests level funding at $0.3 
million for AMS for this price data collection and reporting 
initiative. As the organic industry surpasses $30 billion a year in 
sales, this multi-agency initiative is vital to maintaining markets, 
creating risk management tools, and negotiating equivalency agreements 
with foreign governments. We also support baseline funding for NASS and 
ERS to continue coordinated data collection and reporting on organic 
production, marketing, and pricing, including NASS funding for the 
Organic Production Survey.
Farm Service Agency
    Direct Farm Ownership and Operating Loans--(Program Levels).--
Direct loans provide a crucial source of capital for beginning farmers 
and others not well served by commercial credit. The final fiscal year 
2011 continuing resolution cut direct farm ownership loan funding by 
$175 million and the fiscal year 2012 bill retained this lower level. 
Nearly $130 million worth of qualified applications were turned away in 
fiscal year 2011. In light of the increasing age of farmers and the 
challenges faced by beginning farmers, it is critical that we fund 
these direct loan programs in the most effective way possible. We ask 
that Congress appropriate sufficient funds to provide for program 
levels of $600 million for Direct Farm Ownership loans and $1,050 
million for Direct Operating Loans.
    Beginning Farmer and Rancher Individual Development Account (IDA) 
Program.--We urge you to provide $5 million for this program, as 
authorized in the 2008 farm bill. This competitive grants program 
enables low-income, limited resource beginning farmers and ranchers to 
open an IDA (matched savings account) to save for asset-building 
purchases, including farmland, equipment, breeding stock, or similar 
expenditures. A 50 percent local match is required.
Natural Resources Conservation Service
    Conservation Technical Assistance (CTA).--CTA, a subset of 
Conservation Operations, supports farmers enrolling in financial 
assistance programs and helps farmers with conservation planning and 
implementation. CTA also funds assessment of conservation practices and 
systems that underpin the conservation programs, as well as NRCS 
collection, analysis, and dissemination of information on the condition 
of the Nation's natural resources. NSAC urges you to provide $740 
million for CTA in order to adequately support and maximize the 
effectiveness of conservation financial assistance. We also support the 
addition of report language encouraging a modest net increase in the 
percentage of farm bill mandatory funding that may be used for 
technical assistance.
Rural Business and Cooperative Service
    Value-Added Producer Grants (VAPG).--VAPG offers grants to farmers 
and ranchers developing new farm and food-related businesses that boost 
farm income, create jobs, and increase rural economic opportunity. VAPG 
grants encourage the kind of entrepreneurship in agriculture that 
enables farms and communities to survive economically. Moreover, 
growing interest in local and regional foods is generating greater 
demand for mid-tier value chains and enterprises that aggregate local 
production, exactly the kind of rural development strategy VAPG is 
designed to support. We request VAPG funding of $30 million.
    Rural Microentrepreneur Assistance Program (RMAP).--RMAP provides 
business training, technical assistance, and loans to owner-operated 
businesses with up to 10 employees. Small businesses make up 90 percent 
of all rural businesses, and micro-businesses are the fastest growing 
segment in many areas. RMAP creates jobs and local markets and 
alleviates poverty. This program was stripped of its mandatory farm 
bill funding (only $3 million) in fiscal year 2012. NSAC requests $5.7 
million in discretionary funding in fiscal year 2013 and opposes any 
limitation to renewed or extended direct Farm Bill spending for RMAP.
    Appropriate Technology Transfer for Rural Areas (ATTRA).--The ATTRA 
program, also known as the National Sustainable Agriculture Information 
Service, provides critical support to farmers and Extension agents 
throughout the country. The national program was reauthorized by the 
2008 farm bill. We urge $3 million for fiscal year 2013.
General Provisions
    Repeated annual cuts the Conservation Stewardship Program, 
Environmental Quality Incentives Program, and other mandatory 
conservation programs have created enormous backlogs among highly 
qualified producers and made it more difficult for farmers to maintain 
healthy, productive soil and to protect water and other natural 
resources. These programs provide critical public benefits such as 
clean water, erosion reduction, and carbon sequestration and act as a 
key piece of the farmer safety net. We strongly oppose the proposed 
cuts to these critical conservation programs. We also oppose changes in 
mandatory program spending to any existing, renewed, or extended farm 
bill direct spending for the Organic Agriculture Research and Extension 
Initiative, Beginning Farmer and Rancher Development Program, Outreach 
and Assistance to Socially Disadvantaged Farmers and Ranchers, Farmers' 
Market Promotion Program, National Organic Certification Cost-Share 
Program, Community Food Grants, and Rural Energy for America Program.
    Finally, we oppose any limitation to full implementation of the 
Packers & Stockyards rule on fair competition that Congress directed 
USDA to promulgate in the 2008 farm bill.

                                                       SUMMARY OF NSAC'S FISCAL YEAR 2013 REQUESTS
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                              Fiscal year 2012                        USDA 2013 request                      NSAC 2013 request
--------------------------------------------------------------------------------------------------------------------------------------------------------
Departmental Administration:       $1.2..................................  $1.4..................................  $1.4
 Office of Advocacy and Outreach.
National Institute of Food and
 Agriculture:
    Sustainable Agriculture        $14.5 (research & education) + $4.7     $14.5 + $4.7 + $3.5 (Federal-State      $18.0 + $5.0 + $7.0 = $30 total
     Research and Education         (extension) = $19.2.                    matching grants) = $22.7.
     Program.
    Organic Transitions Program..  $4.0..................................  $4.0..................................  $5.0
    National Food Safety           ......................................  ......................................  $10.0
     Training, Education,
     Extension, Outreach and
     Technical Assistance
     (Authorized by Congress in
     the Food Safety
     Modernization Act of 2010).
Agricultural Marketing Service:
    Federal-State Market           $1.2..................................  $1.3..................................  $1.3
     Improvement Program.
    Organic Market Reporting.....  $0.3..................................  Funding for this activity included in   $0.3
       We also support continued                                            top line request.
        baseline funding for NASS
        and ERS to continue
        coordinated data
        collection and reporting
        on organic production,
        marketing, and pricing,
        including NASS funding
        for the Organic
        Production Survey.
Farm Service Agency:
    Direct Farm Ownership and      $475.0 + $1,050.0.....................  $475.0 + $1,050.0.....................  $600.0 + $1,050.0
     Operating Loans--(Program
     Levels).
    Beginning Farmer Individual    ......................................  $2.5..................................  $5.0
     Development Account (IDA)
     Pilot Program.
Natural Resources Conservation     $729.5................................  $728.8................................  $740.0
 Service: Conservation Technical
 Assistance.
Rural Business and Cooperative
 Service:
    Value-Added Producer Grants..  $14.0.................................  $15.0.................................  $30.0
    Rural Microentrepreneur        $0.0 ($3.0 CHIMP + $0 discretion-       $3.7 (discretionary)..................  $5.7 ($5.7 discretionary + no CHIMP/
     Assistance Program.            ary).                                                                           limitation on 2012 farm bill direct
                                                                                                                    funding)
    National Sustainable           $2.25.................................  $2.25.................................  $3.0
     Agriculture Information
     Service (ATTRA).
General Provisions: Conservation   $768.5 ($75.5 CHIMP)..................  $972.0 ($68.0 approx. CHIMP; permanent  No CHIMP/limitation on farm bill
 Stewardship Program.                                                       cut of 759,632 acres).                  direct spending
   We also oppose changes in
    mandatory program spending
    (CHIMPS) for: other directly
    funded farm bill conservation
    programs; and any existing,
    renewed or extended mandatory
    farm bill spending for the
    Organic Agriculture Research
    and Extension Initiative,
    Beginning Farmer and Rancher
    Development Program, Outreach
    and Assistance to Socially
    Disadvantaged Farmers and
    Ranchers, Farmers' Market
    Promotion Program, National
    Organic Certification Cost-
    Share Program, Community Food
    Grants, and Rural Energy for
    America Program.
   We oppose any limitation to
    full implementation of the
    Packers & Stockyards rule on
    fair competition that
    Congress directed USDA to
    promulgate in the 2008 farm
    bill.
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                 ______
                                 
     Prepared Statement of the Northwest Regional Housing Authority
    USDA Rural Development funding for these programs needs to be 
funded to at least the level of 2012. Section 502 Direct Program should 
be at $900 million or more and the Section 523 funding needs to be 
maintained at $30 million. The 502 Direct Program is the only Federal 
homeownership program that is exclusively targeted to very low- and 
low-income rural families. In the past 60 years this program has helped 
more than 2.1 million families build wealth and achieve the American 
dream of homeownership. By law 40 percent of 502 Direct Loan funds must 
be used to assist families earning less than 50 percent of area median 
income. 25,000 loan applications are currently on a waiting list for 
Section 502 loan funding.
    The Section 523 program helps organizations to provide training, 
supervision and technical assistance to families. Families work nights 
and weekends providing construction labor on their own and each other's 
homes to decrease construction costs increase equity and build wealth. 
Every 100 homes built on this program results in 324 jobs, $21.1 
million in local income and $2.2 million in tax revenue. Even though 
Self-Help families have lower income, default rates are significantly 
lower than other borrowers. More than 50,000 families are currently on 
Self-Help Housing waiting lists. Each family that builds a Self-Help 
home makes many sacrifices. Throughout the process and after all the 
hard work they will say, yes, it was worth it. It does not make sense 
to let these programs deteriorate to the point of extinction.
    Thank you for the opportunity to address these issues today.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) strongly supports the 
U.S. Department of Agriculture's (USDA) Natural Resources Conservation 
Service (NRCS) and is deeply concerned about reductions to programs 
important to our members for fiscal year 2013. OWRC is requesting that 
funding for several key NRCS programs be increased for fiscal year 2013 
and that the ``Bridging the Headgates'' MOU between NRCS and the Bureau 
of Reclamation be reactivated and expanded to include other Federal 
agencies.
    OWRC was established in 1912 as a trade association to support 
district member needs to protect water rights and encourage 
conservation and water management statewide. OWRC represents non-
potable agricultural water suppliers in Oregon, primarily irrigation 
districts, as well as other special districts and local governments 
that deliver irrigation water. The association represents the entities 
that operate water management systems, including water supply 
reservoirs, canals, pipelines, and hydropower production.
Need
    OWRC and its members believe conservation of natural resources 
through collaborative partnerships is crucial to ensuring the viability 
of irrigation districts and similar organizations that deliver 
irrigation water for the Nation's agriculture. Federal support of water 
conservation activities funded through NRCS programs including the 
Agricultural Watershed Enhancement Program (AWEP) and the Cooperative 
Conservation Partnership Initiative (CCPI) are essential to the 
conservation of our natural resources and critical to protecting our 
food, energy and water supply. Irrigation districts and other 
agricultural water users in Oregon have used these programs to develop 
collaborative projects with Federal, State, and other local entities--
proving that on-the-ground conservation can be best achieved by 
leveraging partnerships, pooling available resources, and focusing on 
each partner's strengths.
    We are deeply disappointed that the NRCS budget for fiscal year 
2013 is a 13 percent decrease from fiscal year 2012 estimated budget 
levels. While we recognize that the administration has increased 
funding for some of the NRCS programs, the need for additional 
financial assistance with conservation projects still far outweighs the 
budget. NRCS programs are essential to irrigation districts in 
developing and implementing conservation projects that benefit not only 
the individual farmers they serve but also the entire watershed and 
community as a whole. Furthermore, conservation projects also benefit 
the economy through job creation and ensuring the future viability of 
American agriculture. OWRC is requesting that funding for AWEP be 
increased to at least $75 million, which is comparable to the enacted 
fiscal year 2011 levels but is still far less than what could be used 
in Oregon and nationally.
AWEP and CCPI Needs
    AWEP and CCPI help fill a funding void for multi-partner 
conservation projects. Often large conservation projects do not include 
individual on-farm projects which limits the effectiveness of the 
project. AWEP and CCPI allow farmers to pool together and leverage the 
dollars invested in the off-farm project with the addition of EQIP on-
farm projects. Because of the large number of successful project 
applications for AWEP, USDA will have to obligate a large amount of the 
annual $60 million appropriation to existing multiyear projects. It is 
important that the funding for these projects not be interrupted so 
that they may be completed. However, it is equally important to have 
funding available for new eligible AWEP and CCPI projects that 
simultaneously benefit the environment and economy.
Bridging the Headgates MOU and Watershed Planning Needs
    The need for continued coordination among Federal agencies, 
including NRCS, the Bureau of Reclamation (BOR), Bureau of Land 
Management (BLM), Environmental Protection Agency (EPA), NOAA 
Fisheries, U.S. Fish and Wildlife Service, and Army Corps of Engineers 
(ACOE), is a significant issue. With the loss of watershed planning 
funding, reactivating and expanding this program to other Federal 
agencies would be a very cost-effective alternative.
    In the past, Oregon NRCS used a watershed resources planning team 
to conduct Rapid Watershed Assessments throughout Oregon. This planning 
program helped prioritize projects to bring about the most benefit in 
critical watersheds. The use of the Rapid Watershed Assessment has been 
instrumental in getting on-the-ground conservation projects completed 
in a timely manner. A number of NRCS funded district projects have been 
implemented using the data from this program.
    Following in the vein of the Rapid Watershed Assessments, Oregon 
has adopted a Strategic Approach to Conservation. The goal is to invest 
technical and financial resources to strategically solve natural 
resource problems and be more effective, efficient, and accountable for 
staffing, funding and partnerships. The process builds from the ongoing 
planning process utilizing existing conservation plans, watershed 
assessments; conservation agencies, organizations, groups and producers 
to develop consensus on overarching 5-10 years local goals and 
priorities for conservation; including vision, resource inventories, 
resource problems, desired outcomes, other Government/NGO partners 
interests and contributions. This is a method to prioritize and develop 
detailed strategies to address natural resource problems. This strategy 
is intended to accelerate the conservation implementation and leverage 
technical and financial resources required to solve the problem. These 
types of program activities are effective tools that need a consistent 
funding source.
Program Benefits
    OWRC strongly supports AWEP and CCPI, which are both critical tools 
for districts and other agricultural water suppliers in developing and 
implementing water and energy conservation projects in Oregon. AWEP has 
been highly successful in developing cooperative approaches on a basin-
wide scale. This program allows districts and other agricultural water 
suppliers to partner with farmers to address regional water quantity 
and quality issues in local watersheds.
    The CCPI allows partnerships to be formed with Federal, State and 
local interests to address Endangered Species Act (ESA) and Clean Water 
Act (CWA) issues in watershed basins and sub basins. We believe that 
water supply issues in Oregon and elsewhere in the Nation can be 
resolved best locally in cooperative partnership efforts that promote 
conservation with a more aggressive Federal funding partnership as 
defined in AWEP and CCPI. In the spirit of streamlining farm bill 
programs, OWRC would support combining AWEP and CCPI into one program, 
but only if the current authorized funding is maintained or increased 
for the two programs combined. OWRC strongly supports the continuation 
and increased funding of the AWEP and CCPI programs for fiscal year 
2013.
Examples of Successful AWEP Projects in Oregon
    Oregon has had several successful AWEP applicants over the past 
several years, three from our member districts (described below). The 
full list of Oregon projects can be found on the Oregon NRCS website 
at: http://www.or.nrcs.usda.gov/programs/awep/index.html.
  --The Whychus Creek/Three Sisters Irrigation District Collaborative 
        Restoration Project focuses on irrigation water efficiency with 
        irrigation improvements in the Upper Division of the Three 
        Sisters Irrigation District, which is the project partner. The 
        effort will improve stream flows and water quality for native 
        fish while providing farmers a reliable supply of water. Fiscal 
        year 2012 funding: $251,300 (AWEP).
  --The Talent Irrigation District Project works with agricultural 
        producers to install conservation practices that will properly 
        utilize limited surface water resources, improve water quality 
        on flood irrigated land by converting to more efficient 
        irrigation systems, and apply irrigation water management to 
        eliminate irrigation runoff. Fiscal year 2012 funding: $4,470 
        (AWEP).
  --The Willow Creek Project helps landowners in the Lower Willow Creek 
        Watershed portion of Malheur County convert to water-saving 
        irrigation systems, reduce irrigation runoff, and improve water 
        quality in Willow Creek and Malheur River. The project partner 
        is the Vale Oregon Irrigation District. Fiscal year 2012 
        funding: $251,300 (AWEP).
    In 2012 Oregon requested approximately $3.1 million for project 
funding but only received $2.4 million for existing AWEP approved 
projects. Oregon also requested approximately $3.2 million of CCPI 
funds and received $3 million. Each year local interest has increased 
to compete for AWEP and CCPI funding and additional innovative projects 
like the ones above could be developed and implemented in Oregon if 
more funding is made available.
    The projects above are just a few examples of how NRCS programs 
have been successfully used in Oregon to develop and implement 
collaborative multi-benefit conservation projects. In the future, OWRC 
would also like to see additional funding targeted for projects that 
conserve both water and energy--which are two key and complimentary 
resource areas for the agricultural community. In Oregon, NRCS is 
helping develop the Save Water, Save Energy Initiative, a multi-agency 
cooperative effort to develop a clearinghouse of information on 
financial incentives and technical expertise to assist districts and 
their water users in implementing conservation measures. Supporting 
projects like the pilot project being implemented in the Deschutes 
Basin will provide the groundwork for future Save Water, Save Energy 
projects and help maximize Federal investment in conservation efforts.
Conclusion
    Our member districts, the farms and other water users they serve, 
and the communities in which they are located benefit greatly from the 
NRCS programs described in our testimony. Oregon's agricultural 
community is actively committed to water conservation programs, but 
those programs require Federal participation if the agricultural 
community is to be able to continue its efforts to address Oregon's 
water supply needs through water conservation. These valuable programs 
are essential tools in not only conserving natural resources but also 
in leveraging Federal, State, local partnerships and resources to 
implement important projects that would otherwise be unrealized. 
Increasing the budget for NRCS programs is a strategic investment that 
will pay both environmental and economic dividends to Oregonians and 
America as a whole.
    Thank you for the opportunity to provide testimony for the record 
on the proposed fiscal year 2013 budget for the U.S. Department of 
Agriculture.
                                 ______
                                 
     Prepared Statement of the Organic Farming Research Foundation
    The Organic Farming Research Foundation (OFRF) is a national, 
farmer-led nonprofit organization that fosters the improvement and 
widespread adoption of organic farming systems. Organic agriculture is 
one of the fastest growing sectors of American agriculture, creating 
jobs in rural areas and keeping farmers in business. In 2011, the 
organic sector grew by 9.5 percent; the sector experienced double-digit 
growth before the economic recession and has maintained positive growth 
since. Ensuring the continued growth and job creation ability of the 
organic sector requires upholding the integrity of the U.S. Department 
of Agriculture organic label and continuing the modest but important 
investment in organic agriculture. The following requests are for 
national programs authorized by Congress in past farm bills. The 
agencies included in the requests are all at the U.S. Department of 
Agriculture (USDA): National Institute of Food and Agriculture (NIFA), 
Agricultural Marketing Service (AMS), Rural Business--Cooperative 
Service (RBCS). The programs are the Organic Transitions Integrated 
Research Program (ORG) at $5 million, the Sustainable Agriculture 
Research and Education Program (SARE) at $30 million, the National 
Organic Program (NOP) at $10 million, the Organic Production and Market 
Data Initiatives (ODI) at $0.3 million, and the Appropriate Technology 
Transfer for Rural Areas (ATTRA) at $3 million. We present sensible, 
modest requests that support a basic investment in a fast-growing, job-
creating sector of agriculture. Additionally, we urge no cuts to 
mandatory program funding. Please read below for further details.
Organic Transitions Integrated Research Program (ORG)--USDA-NIFA
            2008 Farm Bill Authorized: Sums as Appropriate; Fiscal Year 
                    2013 OFRF Request: $5 Million
    An investment in research underpins growth in any sector. One of 
the barriers to continued growth in organic is lack of research and 
information that growers need to improve and increase production. ORG 
is a national, competitive research, education, and extension program 
that provides research to the fast-growing organic sector. Funding ORG 
at $5 million would help bridge the gap between sector growth and 
research investment.
Sustainable Agriculture Research and Education Program (SARE)--USDA-
        NIFA
            2008 Farm Bill Authorized: $60 Million; Fiscal Year 2013 
                    OFRF Request: $30 Million
    SARE is a farmer-driven and regionally led competitive research and 
extension grants program that provides farmers with business, 
marketing, and production information to be successful. SARE 
complements the activities of dedicated organic research programs by 
funding on-farm research. Funding SARE at $30 million would allow for 
the launch of a Federal-State Matching Grants program to build capacity 
at the State level for research and extension to address regional and 
local needs. We support splitting the funding between the Research and 
Education section of SARE ($25 million) and the Extension (or 
Professional Development Program) section of SARE ($5 million).
National Organic Program (NOP)--USDA-AMS
            2008 Farm Bill Authorized: $11 Million; Fiscal Year 2013 
                    OFRF Request: $10 Million
    NOP enforces the national organic program standards, accredits 
certifiers, develops equivalency agreements, handles complaints--in 
essence, NOP ensures the integrity of the organic seal. NOP performs 
regulatory oversight of the organic label and ensures that consumers 
are getting what they pay for when they choose foods with the organic 
label. These are essential functions to the survival and growth of the 
organic sector.
Organic Production and Market Data Initiatives (ODI)--USDA-AMS
            2008 Farm Bill Authorized: $5 Million; Fiscal Year 2013 
                    OFRF Request: $0.3 Million
    Every sector needs reliable, current data and statistics to 
function properly and grow. USDA has historically not collected basic 
data and statistics on the growing organic sector. In the 2008 farm 
bill, Congress directed USDA to collect data for organic through ODI. 
As the industry surpasses $32 billion, the information collected 
through this multi-agency initiative is vital to maintaining stable 
markets, creating proper risk management tools, and negotiating 
equivalency agreements with foreign governments. The request of $0.3 
million for AMS is specifically to continue the collection of price 
data and its dissemination through Market News Reports. We also support 
continued baseline funding for NASS and ERS to continue coordinated 
data collection and reporting on organic production, marketing, and 
pricing, including NASS funding for the Organic Production Survey.
Appropriate Technology Transfer for Rural Areas (ATTRA)--USDA-RBCS
            2008 Farm Bill Authorized: $5 Million; Fiscal Year 2013 
                    OFRF Request: $3 Million
    ATTRA serves farmers and ranchers nationwide by providing cutting-
edge production and marketing information through web publications and 
a toll-free phone line. Authorized originally in the 1985 farm bill, 
ATTRA has provided technical assistance and educational resources to a 
broad range of farmers and agricultural professionals for over two 
decades. Just last year, ATTRA received over 60,000 technical requests, 
had over 5.8 million publication downloads from its website, and 
conducted workshops in 45 States that over 177,000 individuals 
attended. The program was recently zeroed out because of the mistaken 
assumption that the program is an earmark. ATTRA is a national program 
that is run according to statute by a national, nonprofit organization 
through a cooperative agreement with USDA. The classification of the 
program as an earmark is a mistake.
No Cuts to Mandatory Program Spending
    OFRF urges the Subcommittee not to cut mandatory program spending. 
Over half a billion dollars in cuts have already been made to mandatory 
farm bill programs (primarily conservation and energy), and we urge the 
Subcommittee not to make anymore. These cuts have negative impacts on 
the baseline funding available for the next farm bill and should not 
unfairly be targeted to certain sectors of agriculture.
    Thank you for the opportunity to submit testimony. Organic 
agriculture is a growth industry. Making the modest investments in the 
key programs described above will help to ensure that organic sector 
operations and businesses continue to grow, to hire new employees, and 
to meet the strong consumer demand for organic food.
                                 ______
                                 
        Prepared Statement of Pickle Packers International, Inc.
                                summary
    Sustained and increased funding is desperately needed to maintain 
the research momentum built over recent years and to defray rising 
fixed costs at laboratory facilities. Companies in the pickled 
vegetable industry generously participate in funding and performing 
short-term research, but the expense for long-term research needed to 
insure future competitiveness is too great for individual companies to 
shoulder on their own.
Additional Budget Requests for Fiscal Year 2013
    Funding needs for four USDA/ARS laboratories are as follows:

          REQUESTS FOR PROGRAM ENHANCEMENT--PICKLED VEGETABLES
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Emerging Disease of Crops...............................        $500,000
Quality and Utilization of Agricultural Products & Food          500,000
 Safety.................................................
Applied Crop Genomics...................................         500,000
Specialty Crops.........................................         550,000
                                                         ---------------
      Total Program Enhancements Requested--Pickled            2,050,000
       Vegetables.......................................
------------------------------------------------------------------------

USDA/ARS Research Provides
    Consumers with over 150 safe and healthful vegetable varieties 
providing vitamins A, C, folate, magnesium, potassium, calcium, and 
phytonutrients such as antioxidant carotenoids and anthocyanins.
    Genetic resistance for many major vegetable diseases, assuring 
sustainable crop production with reduced pesticide residues--valued at 
nearly $1 billion per year in increased crop production.
    Classical plant breeding methods combined with bio-technological 
tools, such as DNA marker-assisted selection and genome maps.
    New vegetable products with economic opportunities amidst 
increasing foreign competition.
    Improved varieties suitable for machine harvesting, assuring post 
harvest quality and marketability.
    Fermentation and acidification processing techniques to improve the 
efficiency of energy use, reduce environmental pollution, and reduce 
clean water intake while continuing to assure safety and quality of our 
products.
    Methods for delivering beneficial microorganisms in fermented or 
acidified vegetables, and produce reduced sodium, healthier products.
    New technology and systems for rapid inspection, sorting and 
grading of pickling vegetable products.
Health and Economical Benefits
    Health agencies continue to encourage increased consumption of 
fruits and vegetables, useful in preventing heart disease, cancer, 
stroke, diabetes and obesity.
    Vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic and cabbage (sauerkraut), are considered ``specialty'' crops and 
not part of commodity programs supported by taxpayer subsidies.
    Current farm value for just cucumbers, onions and garlic is 
estimated at $2.4 billion with a processed value of $5.8 billion. These 
vegetables are grown and/or manufactured in all 50 States.
    The pickled vegetable industry strongly supports and encourages 
your committee in its work of maintaining and guiding the Agricultural 
Research Service. To accomplish the goal of improved health and quality 
of life for the American people, the health action agencies of this 
country continue to encourage increased consumption of fruits and 
vegetables in our diets. Accumulating evidence from the epidemiology 
and biochemistry of heart disease, cancer, diabetes and obesity 
supports this policy. Vitamins (particularly A, C, and folic acid), 
minerals, and a variety of antioxidant phytochemicals in plant foods 
are thought to be the basis for correlation's between high fruit and 
vegetable consumption and reduced incidence of these debilitating and 
deadly diseases.
    As an association representing processors that produce over 85 
percent of the tonnage of pickled vegetables in North America, it is 
our goal to produce new products that increase the competitiveness of 
U.S. agriculture as well as meet the demands of an increasingly diverse 
U.S. population that is encouraged to eat more vegetables. The profit 
margins of growers continue to be narrowed by foreign competition. This 
industry can grow by meeting today's lifestyle changes with reasonably 
priced products of good texture and flavor that are high in nutritional 
value, low in negative environmental impacts, and produced with assured 
safety from pathogenic microorganisms and from those who would use food 
as a vehicle for terror. With strong research to back us up, we believe 
our industry can make a greater contribution toward reducing product 
costs and improving human diets and health for all economic strata of 
U.S. society.
    Many small to medium sized growers and processing operations are 
involved in the pickled vegetable industry. We grow and process a group 
of vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic, cauliflower, cabbage (sauerkraut) and brussels sprouts, which 
are referred to as ``minor'' crops. None of these crops are in any 
``commodity program'' and do not rely on taxpayer subsidies. However, 
current farm value for just cucumbers, onions and garlic is $2.4 
billion with an estimated processed value of $5.8 billion. These crops 
represent important sources of income to farmers and rural America. 
Growers, processing plant employees and employees of suppliers to this 
industry reside in all 50 States. To realize its potential in the 
rapidly changing American economy, this industry will rely upon a 
growing stream of appropriately directed basic and applied research 
from four important research programs within the Agricultural Research 
Service. These programs contribute directly to top research priorities 
that the Research, Education, and Economics Mission Area (REE) of the 
USDA has identified in that they develop vegetable crop germplasm and 
preservation technology that contributes to improved profitability with 
reduced pesticide inputs in a safer, higher quality product grown by 
rural farm communities across the United States, consequently improving 
food security and food safety. Improved germplasm, crop management 
practices and processing technologies from these projects have 
measurably contributed to the profitability, improved nutritional value 
and increased consumption of affordable vegetable crops for children 
and adults in America and around the world.
        vegetable crops research laboratory, madison, wisconsin
    The USDA/ARS Vegetable Crops Research Lab at the University of 
Wisconsin is the only USDA research unit dedicated to the genetic 
improvement of cucumbers, carrots, onions and garlic. Three scientists 
in this unit account for approximately half of the total U.S. public 
breeding and genetics research on these crops. Their past efforts have 
yielded cucumber, carrot and onion cultivars and breeding stocks that 
are widely used by the U.S. vegetable industry (i.e., growers, 
processors, and seed companies). These varieties account for over half 
of the farm yield produced by these crops today. All U.S. seed 
companies rely upon this program for developing new varieties, because 
ARS programs seek to introduce economically important traits (e.g., 
pest resistances and health-enhancing characteristics) not available in 
commercial varieties using long-term high risk research efforts. The 
U.S. vegetable seed industry develops new varieties of cucumbers, 
carrots, onions, and garlic and over 20 other vegetables used by 
thousands of vegetable growers. Their innovations meet long-term needs 
and bring innovations in these crops for the United States and export 
markets, for which the United States has successfully competed.
    Scientists in this unit have developed genetic resistance for many 
major vegetable diseases that are perhaps the most important threat to 
sustained production of a marketable crop for all vegetables. Genetic 
resistance assures sustainable crop production for growers and reduces 
pesticide residues in our food and environment. Value of this genetic 
resistance developed by the vegetable crops unit is estimated at $670 
million per year in increased crop production, not to mention 
environmental benefits due to reduction in pesticide use. New research 
in Madison has resulted in cucumbers with improved disease resistance, 
pickling quality and suitability for machine harvesting. New sources of 
genetic resistance to viral and fungal diseases, tolerance to 
environmental stresses, and higher yield have recently been identified 
along with molecular tools to expedite delivery of elite cucumber lines 
to U.S. growers. A new genetic resistance to nematode attack was found 
to almost completely protect the carrot crop from one major nematode. 
Baby carrots were founded on germplasm developed in Madison, Wisconsin. 
Carrots provide approximately 30 percent of the U.S. dietary vitamin A. 
New carrots have been developed with tripled nutritional value, and 
nutrient-rich cucumbers have been developed with increased levels of 
provitamin A. The genetic bases of onion flavor, as well as compounds 
that enhance cardiovascular health and have anti-carcinogenic effects 
have been determined and are being used to develop onions that are more 
appealing and healthier for consumers.
    There are still serious vegetable production problems which need 
attention. For example, losses of cucumbers, onions, and carrots in the 
field due to attack by pathogens and pests remains high, nutritional 
quality needs to be significantly improved and U.S. production value 
and export markets should be enhanced. Genetic improvement of all the 
attributes of these valuable crops are at hand through the unique USDA 
lines and populations (i.e., germplasm) that are available and the new 
biotechnological methodologies that are being developed by the group. 
The achievement of these goals will involve the utilization of a wide 
range of biological diversity available in the germplasm collections 
for these crops. Classical plant breeding methods combined with bio-
technological tools such as DNA marker-assisted selection and genome 
maps of cucumber, carrot and onion will be used to implement these 
genetic improvements. With this, new high-value vegetable products 
based upon genetic improvements developed by our USDA laboratories can 
offer vegetable processors and growers expanded economic opportunities 
for United States and export markets.
          food science research unit, raleigh, north carolina
    The USDA/ARS Food Science Research Unit (FSRU) in Raleigh, North 
Carolina is the major public laboratory that this industry looks to for 
new scientific information on the safety of our products and 
development of new processing technologies related to fermented and 
acidified vegetables. The scientists in the FSRU have consistently 
provided innovative solutions to processing challenges which have 
helped this industry remain competitive in the current global trade 
environment. Major accomplishments of the FSRU include: pasteurization 
treatments currently used for most acidified vegetables; the 
preservation technology used for manufacturing shelf stable sweet 
pickles; fermentation technology (purging) used to prevent the 
formation of air pockets within fermented pickles. These innovations 
have improved processing and product quality and yielded significant 
savings industry-wide. Furthermore, the FSRU has determined the 
microbial safety parameters now used for acidified vegetable process 
filings, as required by the Food and Drug Administration. The picking 
industry in the United States relies on the FSRU for the development of 
new and improved technologies that will increase the economic value of 
processed vegetable products, provide consumers with safe, high 
quality, healthful vegetable products, and reduce the environmental 
impact of industrial activities. Additional funding is needed to 
support important new research initiatives.
    First, nearly all retail pickled vegetables are pasteurized for 
safety and shelf stability. Current steam and water bath pasteurizers 
rely on technology from the 1940s and 1950s. Promising new technologies 
include continuous flow microwave technology and ``hot-fill-and-hold'' 
pasteurization. The objective is to reduce water use and significantly 
improve energy efficiency with new, scientifically validated thermal 
processing technology.
    Second, additional research that offers significant economic and 
environmental advantages to the U.S. industry includes the reduction or 
replacement of salt in commercial vegetable fermentations. Calcium 
substitution of salt in commercial vegetable fermentations has the 
potential to eliminate salt disposal problems and create opportunities 
to manufacture calcium enriched, reduced sodium, healthier vegetable 
products. Reducing environmental impact and production costs for the 
manufacture of healthier products is essential to the sustainability of 
the U.S. industry.
    Third, there is a growing body of research indicating that certain 
beneficial microorganisms (probiotics) improve human health by 
remaining in the intestinal tract after they are consumed. New 
processing technology is needed to develop high value probiotic 
vegetable products, opening new markets in the United States and 
improving the health benefits derived from consumption of fermented and 
acidified vegetables.
       sugar beet and bean research unit, east lansing, michigan
    Quality inspection and assurance of pickling vegetables is critical 
to growers and processors and ultimately consumers of pickling 
vegetables. While automated systems are currently used in many pickle 
processing facilities, they are only for inspecting product surface 
quality characteristics. Opportunities exist for developing more 
efficient sensors and automated inspection technologies, especially for 
internal quality assessment and grading of pickling vegetables and 
pickled products. Moreover, labor required for postharvest handling and 
processing operations represents a significant portion of the total 
production cost. New and/or improved inspection technologies can help 
growers and processors assess, inspect and grade pickling vegetables 
and pickled products rapidly and accurately for internal and external 
quality characteristics so that they can be directed to, or removed 
from, appropriate processing or marketing avenues. This will minimize 
postharvest losses of food that has already been produced, ensure high 
quality, consistent final product and end-user satisfaction, and reduce 
production cost.
    The USDA/ARS Sugarbeet and Bean Research Unit at East Lansing, 
Michigan, provides national leadership in research and development of 
innovative technologies and systems for assessing and assuring quality 
and marketability of tree fruits and pickling vegetables and enhancing 
production efficiency. Over the years, the Unit has developed a number 
of innovative engineering technologies for rapid, nondestructive 
measurement and inspection of postharvest quality of tree fruits and 
vegetables, including a novel spectral scattering technology for 
assessing the texture and flavor of fruits, a portable fruit firmness 
tester, and a spectral property measuring instrument for quality 
evaluation of fruits and vegetables. Recently, it also developed an 
advanced hyperspectral imaging system for automated detection of 
internal and external quality of pickling cucumbers and pickles. 
Research at East Lansing will continue to provide the pickling 
vegetable industry a vital source of innovative inspection and grading 
technology to assure high-quality safe products to the marketplace and 
achieve labor cost savings. It is critical that additional resources be 
provided to support and expand the existing program to effectively 
address the technological needs for the pickling industry.
         u.s. vegetable laboratory, charleston, south carolina
    Research at the USDA/ARS U.S. Vegetable Laboratory in Charleston, 
South Carolina, addresses national problems confronting the vegetable 
industry of the southeastern United States. The mission of the 
laboratory is to develop disease and pest resistant vegetables, and 
also new, reliable, environmentally sound disease and pest management 
practices that do not rely on conventional pesticides. The laboratory's 
program currently addresses 14 crops, including those in the cabbage, 
cucumber, and pepper families, all of major importance to the pickling 
industry. Research at this ARS facility is recognized world-wide, and 
its accomplishments include over 150 new vegetable varieties and many 
improved management practices.
    Expansion of the Charleston program would directly benefit the 
southeastern vegetable industry. Vegetable growers depend heavily on 
synthetic pesticides to control diseases and pests. Cancellations of 
many effective pesticides directly impacts future vegetable crop 
production. Without the use of certain pesticides, producers will 
experience crop failures unless other effective, non-pesticide control 
methods are readily identified. In this context, the research on 
improved, more efficient and environmentally compatible vegetable 
production practices and genetically resistant varieties at the U.S. 
Vegetable Laboratory continues to be absolutely essential. Research 
like this can help provide U.S. growers with a competitive edge they 
must have to sustain and keep their industry vibrant, allowing it to 
expand in the face of increasing foreign competition. Current cucumber 
varieties are highly susceptible to a new strain of the downy mildew 
pathogen; this new strain has caused considerable damage to commercial 
cucumber production in some South Atlantic and Midwestern States during 
the past 5 years, and a new plant pathologist position at the U.S. 
Vegetable Laboratory could address this critical situation.
                      funding needs for the future
    It remains critical that funding continues the forward momentum in 
pickled vegetable research that the United States now enjoys and to 
increase funding levels as warranted by planned expansion of research 
projects to maintain U.S. competitiveness. We also understand that 
discretionary funds are now used to meet the rising fixed costs 
associated with each location. Additional funding is needed at the 
Wisconsin and South Carolina programs for genetic improvement of crops 
essential to the pickled vegetable industry, and at North Carolina and 
Michigan for development of environmentally sensitive technologies for 
improved safety and value to the consumer of our products. The 
fermented and acidified vegetable industry is receptive to capital 
investment in order to remain competitive, but only if that investment 
is economically justified. The research needed to justify such capital 
investment involves both short term (6-24 months) and long term (2-10 
years or longer) commitments. The diverse array of companies making up 
our industry assumes responsibility for short-term research, but the 
expense and risk are too great for individual companies to commit to 
the long-term research needed to insure future competitiveness. The 
pickled vegetable industry currently supports research efforts at 
Wisconsin and North Carolina and anticipates funding work at South 
Carolina and Michigan as scientists are put in place. Donations of 
supplies and processing equipment from processors and affiliated 
industries have continued for many years.
    It is important to note that fiscal year 2012 funding for four USDA 
ARS laboratories (Charleston, South Carolina; East Lansing, Michigan; 
Madison, Wisconsin; and Raleigh, North Carolina) totaled $11,004,900. 
However, funding for all cucurbits equaled just $3,939,000 with only 
$1,718,000 directed toward pickled vegetable research. For fiscal year 
2013, PPI is requesting an additional $2,050,000 in program 
enhancements that will provide needed research for pickled vegetables.
         u.s. vegetable laboratory, charleston, south carolina
    There is a critical need to establish and fund a plant pathology 
position to address cucumber diseases, especially the disease caused by 
a new strain of the downy mildew pathogen responsible for recent 
extensive damage to cucumber production in South Atlantic and 
Midwestern States. The pathologist is needed to characterize pathogen 
strains and to develop new management approaches, as well as resistant 
cucumber varieties, to combat the disease. Ultimately, this proposed 
plant pathologist would accomplish research that results in effective 
protection of cucumbers from disease without the use of conventional 
pesticides.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year:
    2012 (pickled vegetables)...........................        $456,100
    2013 (proposed budget)..............................         456,100
    2013 additional request (plant pathologist and               500,000
     support)...........................................
------------------------------------------------------------------------

          food science research unit, raleigh, north carolina
    The current funding includes research and development for a variety 
of vegetable products, including fermented and acidified vegetables. To 
carry out new research initiatives to reduce energy and water use, 
reduce environmental impact from commercial fermentations, and develop 
new health-promoting food (probiotic) technology, we request additional 
support for the Food Science Research Unit of $500,000 in fiscal year 
2013. This will provide support for Post-Doctoral or Pre-Doctoral 
research associates in food engineering and food microbiology along 
with necessary equipment and supplies to develop these new areas of 
research.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year:
    2012 (pickled vegetables)...........................        $647,800
    2013 (proposed budget)..............................         647,800
    2013 additional request (post-doctoral and pre-              500,000
     doctoral research associate and support)...........
------------------------------------------------------------------------

      vegetable crops research laboratory unit, madison, wisconsin
    Emerging diseases, such as downy mildew of cucumber, threaten 
production of the crop in all production areas. Therefore, we request 
an additional $500,000 to fully fund the scientists and support staff 
in fiscal year 2013, including graduate students and post-doctorates 
for researching genetic resistance to emerging diseases.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year:
    2012 (pickled vegetables)...........................        $456,600
    2013 (proposed budget)..............................         456,600
    2013 additional request (post-doctoral and pre-              500,000
     doctoral research associate and support)...........
------------------------------------------------------------------------

       sugar beet and bean research unit, east lansing, michigan
    The current funding is far short of the level needed to carry out 
research on inspection, sorting and grading of pickling cucumbers and 
other vegetable crops to assure the processing and quality of pickled 
products. An increase of $550,000 in the current base funding level 
would be needed to fund the research engineer position.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year:
    2012 (pickled vegetables)...........................        $157,500
    2013 (proposed budget)..............................         157,500
    2013 additional request (research engineer and               550,000
     support)...........................................
------------------------------------------------------------------------

    Thank you for your consideration and expression of support for the 
USDA/ARS.
                                 ______
                                 
        Letter From the Rural Coalition/Coalicion Rural, et. al
                                                    March 30, 2012.
Hon. Herb Kohl, Chairman,
Hon. Roy Blunt, Ranking Member,
Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies, Committee on 
        Appropriations, U.S. Senate, Washington, DC.

    Dear Senators: As the Senate considers the Agriculture 
Appropriation for fiscal year 2013, we respectfully request that the 
Senate Appropriations Subcommittee on Agriculture, Rural Development 
and FDA provide adequate funding for a set of critical programs that 
make a real difference in communities that most need support.
    The 2008 Farm Bill made significant improvements in programs 
designed to address the outreach and technical assistance challenges of 
historically underserved producers. We urge you to provide long-term 
protection and continued funding for this critical subset of programs 
and offices charged with serving the most chronically underserved 
segments of agriculture. These represent a fraction of the full 
agriculture budget but are the lifeblood of the sustainable agriculture 
community, beginning, socially disadvantaged and veteran producers, and 
farmworkers.
    We urge you to consider the following recommendations:
    Farm Credit.--Farm Service Agency (FSA) Direct Farm Ownership and 
Operating Loans provide a crucial source of capital for farmers who are 
ineligible for commercial credit. The final fiscal year 2011 continuing 
resolution cut direct farm ownership loan funding by $175 million and 
the fiscal year 2012 bill retained this lower level. Nearly $130 
million worth of qualified applications were turned away in fiscal year 
2011. This is the funding that is essential to create opportunities for 
individuals to get into the farming business. To meet the challenges 
faced by many farmers who are confronting increasing input costs and 
volatile prices, it is critical to fund these direct operating loan 
programs at the highest level possible. We ask that Congress 
appropriate sufficient funds to provide for program levels of $600 
million for Direct Farm Ownership loans and $1.05 billion for Direct 
Operating Loans.
    We further urge you to ensure that farmers and ranchers who are in 
economic trouble receive fair loan restructuring and servicing of their 
loans by funding the Federal match for State Mediation Programs at $5 
million. These programs currently operate in 40 States. We urge the 
Committee to instruct FSA to develop price information to improve 
eligibility and lending capabilities to farmers growing for local and 
regional food markets.
    Tribal Communities.--We urge you to support and expand funding to a 
level of $10 million for the Office of Tribal Relations Program to 
enhance its ability to serve its function as a critical link between 
the Department of Agriculture and the Nation's Tribes.
    In addition, in order to provide critically needed services to 
tribal producers, we urge you to expand funding for the Federally 
Recognized Tribal Extension Program (FRTEP) to $10 million for fiscal 
year 2013 to reach at least 100 of the 566 tribes. Congress mandates 
research and extension services in every county in the Nation--over 
3,100 offices nationwide, funded cooperatively by county, State, and 
Federal levels of government. Extension services are not extended to 
Indian Reservations, except through the limited Federal funds provided 
through USDA to the FRTEP, the only vehicle by which extension programs 
are currently delivered to Indian Country. Tribes contribute in-kind 
cost share for office space and a small portion of operating expenses.
    Only 36 extension agents are supported on Indian reservations with 
current funding of $3 million. These programs have significantly 
affected not only agriculture, but natural resources, 4-H/youth 
development, human nutrition, community resource development and family 
and consumer sciences program areas--much like the impacts seen in non-
reservation, county-based extension programs. The inadequate funding of 
FRTEP has, without question, a profound negative impact on the long-
term viability of tribal agriculture, which remains a critical basis 
for the economic security, health and nutrition of Native Americans.
    Fewer than 4 percent of American Indians living on America's Indian 
reservations have access to these programs, yet more than 97 percent of 
America's counties have had robust programs since 1914. Increased 
funding would allow FRTEP to serve better the many tribes who have 
repeatedly requested full access to these programs. It is time that 
Native American producers, families, youth and reservation residents 
receive the same level of service as U.S. citizens who are not 
reservation-bound. In order to correct this grave inequity, we urge you 
to appropriate $10 million for this program in the fiscal year 2013 
Agriculture Appropriation.
    Farmworker Communities.--Farmworkers are a critical component of 
our food and agriculture system. We urge you to maintain the Farmworker 
Coordinator in the Office of Advocacy and Outreach (see below), restore 
funding of at least $4 million annually for the Grants to Improve the 
Agricultural Labor Workforce Program, and provide at least $2 million 
to the Emergency Disaster Grants for Farmworkers program to provide 
funding for services to farmworkers affected by natural disasters and 
keep this critically needed workforce in place in disaster affected 
areas.
    Coordination Activities.--For many years, beginning and socially 
disadvantaged producers have lacked an office at USDA to better 
understand and utilize the wide array of USDA services. The Office of 
Advocacy and Outreach, established in the 2008 Farm Bill, is now in 
full operation and working effectively with communities across the 
Nation to provide equitable access to its programs and enhance the 
viability and profitability of small farms, beginning farmers and 
ranchers, and socially disadvantaged farmers and ranchers, and 
farmworkers. An increase to $5 million would fund the staffing and 
operational needs of this office to allow OAO to adequately conduct its 
activities related to overseeing the Advisory Committees on Minority 
Farmers and Beginning Farmers and Ranchers, overseeing the activities 
of the Office of Small Farms Coordination and the Farm Worker 
coordinator; managing the 1890, 1994 and Hispanic-serving institutions 
programs; managing outreach programs and performing any other outreach 
functions that improve coordination among USDA agencies to improve 
their ability to enhance access to USDA programs for underserved 
constituencies. We urge Congress to provide at least $5 million to this 
office to allow it to continue to provide the important coordination 
services it is designed to deliver.
    Rural Housing.--These Federal rural housing programs provide loans, 
grants and related assistance that create jobs and ensure that low-
income families live in safe, decent housing. Of particular importance 
is maintaining adequate funding levels for the Section 502 Direct Loan 
program, the Mutual Self Housing program, and programs to finance Rural 
Rental Housing construction and preservation.
    Under the Section 502 Direct Loan program, nearly 66 percent of the 
families receiving loans have incomes at or below 60 percent of area 
median income and 40 percent of the loans go to households with incomes 
at or below 50 percent of area median income. In fiscal year 2011, the 
average total cost to the government for a Section 502 loan was less 
than $7,200 per unit
    We support funding levels for Rural Housing programs administered 
by the Rural Housing Service (RHS) at USDA at the following levels:
  --$900 million for the Section 502 Single Family Direct Homeownership 
        Loans;
  --$28 million for the Section 504 Very Low-Income Rural Housing 
        Repair Loans;
  --$29.5 million for the Section 504 Very Low-Income Rural Housing 
        Repair Grants;
  --$26 million for the Section 514 Farm Labor Housing Program Loans;
  --$9 million for the Section 516 Farm Labor Housing Program Grants;
  --$64.5 million for the Section 515 Rural Rental Housing Program;
  --$907 million for the Section 521 Multi-Family Rental Housing Rental 
        Assistance Program;
  --$30 million for the Section 523 Self-Help Housing Program;
  --$3.6 million for the Section 533 Housing Preservation Grants 
        Program;
  --$150 million for the Section 538 Guaranteed Multi-Family Housing 
        Loans; and
  --$46.9 million for the Multi-Family Housing Preservation and 
        Revitalization Program; and $13 million for the Rural Community 
        Development Initiative.
    Farmers Market Nutrition Programs.--We strongly urge the Committee 
to fund the WIC Farmers Market Nutrition Program at its fiscal year 
2011 funded level of $20 million. The fiscal year 2012 cut will 
translate into a loss of 25 percent in the benefits available to 
eligible consumers this year who shop at our Nation's farmers' markets 
and roadside stands. In fiscal year 2010, 2.15 million WIC participants 
received FMNP benefits and over 18,000 farmers were authorized to 
receive them at 3,647 farmers' markets and 2,772 roadside stands. 
According to USDA's data, this translated into over $15.7 million in 
revenue to farmers.
    Conservation Programs.--We further urge you to protect and maintain 
funding agricultural conservation programs including maintaining 
support for the Environmental Quality Incentive Program and the 
Conservation Stewardship Program, and other programs which are helping 
producers across the Nation protect their land. The diverse producers 
many of the undersigned groups represent are returning to USDA through 
these programs, and building up small operations that care for the land 
and contribute to the economic viability of small rural communities in 
some of the poorest areas of the Nation.
    Beginning Farmer and Rancher Individual Development Account (IDA) 
Program.--We urge you to provide $5 million for this program, as 
authorized in the 2008 Farm Bill. This pilot program would enable low-
income, limited resource beginning farmers and ranchers to open an IDA 
(matched savings account) to save for asset-building purchases, 
including farmland, equipment, breeding stock, or similar expenditures.
    In addition to the programs outlined in this letter, we urge you to 
oppose changes in mandatory program spending to any existing, renewed, 
or extended farm bill direct spending. These programs include the 
Outreach and Assistance to Socially Disadvantaged Farmers and Ranchers, 
Beginning Farmer and Rancher Development Program, Farmers Market 
Promotion Program, Community Food Project Competitive Grants, National 
Organic Cost-Share Program, Organic Agriculture Research and Extension 
Initiative, and the Rural Energy for America Program.
    As you proceed with funding for these important programs for fiscal 
year 2013, we urge you to consider the impacts of your funding 
decisions on the future, a concern for the next generation of American 
farmers and ranchers, and great care to being inclusive of beginning, 
minority, tribal women, and limited resource farmers who are often in 
most need of these important programs.
            Sincerely,

Alliance of Forest Workers and Harvesters, Oakland, CA
American Federation of Government Employees Local 3354, St. Louis, MO
American Federation of Government Employees (AFL-CIO), Washington, DC
BioRegional Strategies, Albuquerque, NM
Birthing Project USA, Albuquerque, NM
California Food & Justice Coalition, Oakland, CA
Casa de Cultura, Las Vegas, NM
CASA del Llano, Inc., Hereford, TX
Church Women United in New York State, Rochester, NY
Community Food Security Coalition, Portland, OR
D.C. Farm to School Network, Washington, DC
Family Farm Defenders, Madison, WI
Farmworker Association of Florida, Apopka, FL
Federation of Southern Cooperatives, Atlanta, GA
Food & Water Watch, Washington, DC
Idaho Rural Council, Filer, ID
Intertribal Agriculture Council, Billings, MT
Just Food, NewYork, NY
Kentucky Resources Council, Inc., Frankfort, KY
Lideres Campesinas, Oxnard, CA
Live Real, Oakland, CA
National Family Farm Coalition, Washington, DC
National Hmong American Farmers, Inc., Fresno, CA
National Latino Farmers and Ranchers Trade Association, Washington, DC
National Wildlife Federation, Washington, DC
National Women in Agriculture Association, Oklahoma City, OK
National Young Farmers' Coalition, Tivoli, NY
New Orleans Food & Farm Network, New Orleans, LA
Northern New Mexico Stockman's Association, Albuquerque, NM
Oklahoma Black Historical Research Project, Inc., Oklahoma City, OK
Rural Advancement Fund, Orangeburg, SC
Rural Coalition/Coalicion Rural, Washington, DC
Southern Regional Asset Building Coalition, Tuskegee, AL
Taos County Economic Development Corporation, Taos, NM
The Cornucopia Institute, Cornucopia,WI
The Presbyterian Church (U.S.A.) Office of Public Witness, Washington, 
DC
United Farmers USA, Manning, SC
World Farmers, Inc., Lancaster, MA
                                 ______
                                 
    Prepared Statement of the Rural Housing Development Corporation
    On behalf of Rural Housing Development Corporation (RHDC), I would 
like to thank the Subcommittee for the opportunity to submit testimony 
on fiscal year 2013 Appropriations for two of Department of Agriculture 
(USDA) Rural Housing Programs. I strongly urge this Subcommittee to 
fund USDA Rural Housing programs at the higher of fiscal year 2012 
levels or the President's fiscal year 2013 budget request: (1) $900 
million for Section 502 Family Direct Homeownership Loans; and (2) $30 
million for Section 523 Self-Help Housing Program.
    RHDC is a nonprofit affordable housing organization in Utah. Since 
1998, RHDC has promoted affordable housing opportunities to low-income 
families living in Central Utah. Over 300 single family homes have been 
built through USDA's Mutual Self-Help Housing program using the 502 
loan in Central Utah and over 1,000 homes have been built across the 
State of Utah.
About the Mutual Self-Help Housing Program
    The Mutual Self Help Housing program takes the rural tradition of 
barn-raising and puts it to use for families who, after working all day 
and all week, spend their nights and weekends building their own home. 
It is a model of how low-income families help themselves through sweat 
equity. Without the opportunity, many of these families would never own 
their own home. Consider the West family in Utah, a low-income family 
of 5 (children ages 5, 3 and 1),who have lived in two-room log cabin 
built in the 1880's. The cabin measures 21 by 26 feet, which is very 
similar to a modes two-car garage.
    In their own words:

    ``While we enjoy the `coziness' of our home, it does present some 
challenges. The cabin is not well-insulated. We can feel the wind 
through the single-paned windows and cracks throughout the house. Big 
rainstorms cause leaks. Other than weather problems, we are not sure 
which we have the most of living in the walls of our home: bees, 
spiders or mice. Our home is on a cinderblock basement built into a 
dike constructed to control the flooding of the river in the 1980's. 
Because of our close proximity to the river and lake, we have had to 
face additional challenges. This year the ground water is so high it 
fills the septic tank, causing the sewer to back up. The high water 
flow in the river also caused the water to seep through the cracks in 
our basement floor. At the highest point, we had almost 2 feet of 
standing water. Even though the water level has recently dropped, we 
are left with the challenge of the profuse growth of mold. Every 
summer, we have a mold problem in the basement. However, this year, 
with the flooding, the mold is 100 percent worse. This makes us 
concerned for our family's health.
    ``Unfortunately for us, moving is not an option at this time. For 
these reasons, we are telling you our story--not to complain, but to 
ask you for the much needed financial assistance in purchasing a new, 
healthy home for our family through the Mutual Self Help Housing 
Program. We cannot better our situation without your help.''

    Families like the West family have found refuge in building their 
own home and for that reason take great care in the homes they have a 
major stake in. Of the 1,000+ homes built in Utah, there is a 
foreclosure rate of less than 1 percent. This means that the 502 loans 
borrowed are paid back with interest and perpetuated for future 
families.
Economic Impact
    The economic impact in Utah has been substantial; it is anticipated 
that during 2011 and 2012, the Self Help Housing program would bring 
Utah's economy approximately $58,210,788. The program also creates 
employment opportunities in rural areas; each year in Utah, over 500 
jobs are created for subcontracts, suppliers, realtors, and land 
developers.
    The Section 502 program provides loans to low- and very-low income 
families at a low cost the Government, and as mentioned, has a very low 
foreclosure rate. Sixty percent of the families borrowing direct loans 
from USDA have incomes at or below 60 percent of the area median 
income. The proposed budget contends that the 502 guarantee loan 
program can assist families who are now receiving direct loans. There 
is ample evidence to the contrary; including an Economic Research 
Service report indicating that the guarantee loan program is not 
working well in smaller, more isolated communities. Nor does the 
guarantee loan product have a track record of serving households with 
incomes at 60 percent AMI or less, while the direct loan program does. 
The proposed change will not provide homeownership opportunities for 
many of the current workforce in rural areas, who struggle to find 
affordable rental housing that is both safe and adequate for their 
family size. The loss of this program will also destabilize rural 
workers, negatively impacting rural employers.
    I would ask that the Subcommittee reconsider the proposed budget 
and look at ways to reallocate the reduced spending level in a manner 
that still supports the 502 and 523 programs as indicated above. I 
appreciate your consideration of this request.
                                 ______
                                 
            Prepared Statement of the Self-Help Enterprises
    Self-Help Enterprises is a regional nonprofit housing and community 
development organization serving eight expansive counties in 
California's agricultural San Joaquin Valley. Founded in 1965, Self-
Help Enterprises has developed nearly 6,000 self-help homes and 1,200 
units of multifamily rental housing for farmworkers and other low wage 
earners. In partnership with local governments, SHE has rehabilitated 
or replaced 6,000 homes, assisted 1,500 first-time homebuyers, and 
provided planning and technical assistance to dozens of small, 
unincorporated communities meeting needs for safe drinking water and 
wastewater treatment.
    The Rural Housing Service's housing programs continue to be the 
most effective, and in many cases, the only, resources which address 
the critical housing needs of rural America. Self-Help Enterprises 
strongly supports an appropriation to maintain USDA's Rural Housing 
programs at the following levels.
  --Section 502 Family Direct Homeownership Loans: $900 million
  --Section 504 Very-Low Income Rural Housing Repair Loans: $28 million
  --Section 504 Very-Low Income Rural Housing Repair Grants: $29.5 
        million
  --Section 514 Farm Labor Housing Program Loans: $26 million
  --Section 516 Farm Labor Housing Program Grants: $9 million
  --Section 515 Rural Rental Housing Program: $64.5 million
  --Section 521 Multi-Family Rental Housing Rental Assistance Program: 
        $907 million
  --Section 523 Self-Help Housing Program: $30 million
  --Section 533 Housing Preservation Grants Program: $3.6 million
  --Section 538 Guaranteed Multi-Family Housing Loans: $150 million
  --Multi-Family Housing Preservation and Revitalization Program: $46.9 
        million
  --Rural Community Development Initiative: $13 million
Section 523 Mutual Self-Help Housing Program
    No other program combines the unique features which make the Self-
Help program a success. The Section 523 grants provide support to Self-
Help sponsors who provide technical assistance, recruiting, training, 
and supervising to families to earn ``sweat equity.'' This unique 
construction method also promotes strong communities by building close 
bonds among future neighbors. (PART review, www.expectmore.gov)
    Created by the Housing and Community Development Act of 1968, the 
USDA Rural Development Section 523 Mutual Self-Help Housing Program is 
one of the best and most successful avenues to sustainable 
homeownership for low-income rural Americans.
    With its roots in the tradition of barn raising, mutual self-help 
housing gives hardworking rural families the opportunity to work 
together to achieve the dream of homeownership which individually could 
not be attained. Mutual self-help housing programs, which still retain 
a style reminiscent of pioneer barn raisings, provide the 
organizational structure that allows low-income families to build the 
homes they so desperately want and need. This includes the capital, 
training and supervision, coordination, accounting, and myriad of other 
technical skills necessary to any successful housing development 
effort.
    The concept is straightforward: groups of 6-12 low-income families 
join together to pool their labor to build each other's homes, in the 
process building a neighborhood for their community, for their 
children, and for themselves. The future homeowners commit to 
completing 65 percent of the work necessary to build the homes. At 
Self-Help Enterprises, these families pour the concrete, frame the 
walls, and install electrical wiring, heating ducts, roof framing, as 
well as all finish, tile, paint, and trim. Reducing the labor cost of 
the home reduces the total cost of the home, enabling lower-income 
households to become homeowners and earn equity at the same time.
    The economic benefits extend far beyond the individual homeowners. 
As contractors are hired to turn raw land into subdivisions, local 
vendors provide building materials and subcontractors complete 
technical work such as plumbing. Local governments receive building 
permit fees, and in the long term, property taxes from proud 
homeowners. Rural communities, often plagued with an abundance of 
substandard housing, gain an expanding stock of good housing and the 
stability that comes to a community of homeowners.
    In the San Joaquin Valley each year, as many as 120 hardworking 
families each commit 1,400 hours, 40 hours per week, week after week, 
through the heat of summer and the cold of winter, sharing the labor 
necessary to build homes for their neighbors, their children and 
themselves.
    It is popular today to talk about the importance for homebuyers to 
have ``skin in the game'' as protection against failed mortgages. 
Mutual self-help families have more than skin in the game. They have 
skin, sweat, and occasionally a bit of blood as they invest themselves 
in the home of their dreams. And does it work? With 47 years of 
experience behind us, those of us at Self-Help Enterprises say ``YES'' 
unequivocally. Self-help homebuilders achieve remarkable stability. 
Despite being the lowest income of the Section 502 borrowers, our self-
help homebuilders have lower delinquency rates and very low foreclosure 
rates.
    No other path to homeownership for low-income families has proven 
to be as successful.
Section 502 Direct Lending Program
    The Section 502 Direct Loan program is an equally important element 
of self-help housing, affording well-underwritten construction-to-
permanent mortgages that finance the home from the start of 
construction to the final mortgage payment. But the reach of this model 
mortgage program goes far beyond self-help households.
    Since the Housing Act of 1961, the USDA 502 Direct Loan Program has 
been a cornerstone of homeownership opportunity in rural America, with 
over 2 million homeowners seizing the opportunity for an affordable 
mortgage which would enable them to be homeowners in the town where 
they live and work. For a surprisingly low Federal budget cost, the 502 
Direct mortgage is a well underwritten, affordable, no gimmicks 
financing for rural families who want to invest in homes and in their 
communities.
    No other Federal home ownership program can match the profile of 
the families served by the section 502 direct loan program. The average 
income for families receiving direct loans is $27,000. By law, 40 
percent of families participating in the program have incomes that do 
not exceed 50 percent of the median income. For the past 2 years at 
Self-Help Enterprises, fully 60 percent of the borrowers have incomes 
below 50 percent of median.
    Despite serving families with limited economic means, the section 
502 direct loan program is the most cost effective affordable housing 
program in the Federal Government. In fiscal year 2011, the total per 
unit cost for a homeownership loan to a low income family was less than 
$7,200. There are a number of reasons for this overall low cost to the 
Government. First, a low interest rate environment reduces the cost of 
borrowing. Less well known is a longstanding requirement to recapture 
subsidy when a house financed under section 502 is sold. Essentially a 
family and the Government share in the appreciation on a home, taking 
into account how long a family has lived in the house. Recapture 
provides a substantial return to the Government.
    Although the Section 502 Direct Loan Program lends to families with 
limited incomes, the program has a record of success not only in 
creating affordable homeownership opportunity, but also protecting the 
Federal investment. For example, in 2010, USDA Rural Development in 
California foreclosed on a mere 57 mortgages out of a loan portfolio of 
nearly 10,000 loans. This is a foreclosure rate of just over 0.5 
percent and stands in stark contrast to what is happening in the 
conventional market in California.
    It has been stated that the Section 502 guarantee program is an 
alternative for families eligible for direct loans. It is not. The 
average annual income for families receiving the guarantee is $48,000. 
The majority of the loan guarantees go to households with incomes at or 
above 100 percent of the median, and only about 5 percent of families 
receiving guarantees make between 60-70 percent of the median. With the 
inevitable end of the current low interest rate environment, interest 
rates on 502 Guarantee loans will once again rise, and the number of 
qualifying low income borrowers will drop, if not disappear altogether.
Summary
    USDA's Rural Housing Service and the resources it delivers 
represent vital resources to the people and the economies of rural 
American communities so desperate for jobs. As the recession seems 
finally to be fading in some areas of the country, its grip on rural 
America is still devastatingly strong. This is no time to reduce the 
investment so important to the recovery of Rural America.
                                 ______
                                 
   Prepared Statement of the Self-Help Housing Corporation of Hawaii
    The Self-Help Housing Corporation of Hawaii is requesting the same 
allocations from fiscal year 2012 for the USDA Rural Development 502 
Direct Loan Program, and the RD 523 Technical Assistance Mutual Self-
Help Housing Program. With the average sales price for a single family 
house in Hawaii at $550,000, there would be no affordable housing for 
homeownership in Hawaii without the USDA Rural Housing Programs. 
Because of the extreme gap of income levels for low income families in 
Hawaii and the average housing prices, even the ``workforce'' of Hawaii 
cannot afford homeownership without the subsidies offered by these 
programs.
    Through the recent development of its 72 lot subdivision in a rural 
low income neighborhood, SHHCH is able to offer homeownership 
opportunities to 72 very low and low income families who will build 
their own houses through the mutual self-help housing program. SHHCH is 
providing more than 200 jobs with just this self-help housing project 
with the construction of the infrastructure, materials and equipment 
from building supply houses, and services from title companies, 
appraisers, insurance companies, lenders, etc. With the Federal funding 
of these programs acting as a catalyst, SHHCH has been able to leverage 
another $11 million in private financing to undertake this development. 
Additionally, very low and low income families, who presently live in 
sub-standard, and severely crowded situations, not only improve their 
housing situations, but also gain equity; thereby, continuing to 
improve their lives.
    The Self-Help Housing Corporation has built 591 self-help units 
throughout the State of Hawaii with firemen, policemen, teacher's 
aides, hospital workers, hotel workers, laborers, and those considered 
the ``workforce'' of Hawaii. Currently, in a remote rural area of Maui, 
SHHCH is assisting native Hawaiian low income families to build three 
and four bedroom houses through the RD 523 and RD 502 Direct Loan 
Programs. This is the first affordable housing program in Hana in 35 
years. Some of these self-help builders have no electricity or potable 
water in their existing houses. Without these Rural Housing Programs, 
these families, and thousands of rural low income families across the 
country would continue to live in severely sub-standard conditions, 
some without electricity and potable water; conditions I saw as a Peace 
Corps volunteer in third world countries!
    In the past 3 years more than 3,500 low income families in more 
than 37 States have built their own houses through the RD 523 Technical 
Assistance Program in tandem with the RD 502 Direct Loan Program. With 
a cost of approximately $5,000 to subsidize the program over the entire 
33 year amortization period, these programs are less expensive than 
rental subsidy programs. Through these programs not only does the 
family improve their living situation, gain equity, and learn 
invaluable skills in leadership, team work, and building skills, but 
the community benefits with a broadening of the tax base, an 
enhancement of property values, and an establishment of stable 
neighborhoods with well maintained houses. Every 100 homes built in 
this program results in 324 jobs, $21.1 million infused in the local 
economy, and $2.2 million paid in for tax revenues. These significant 
housing programs are assisting to rebuild the economy in rural areas.
    I urge you, as at the leaders of our country, to consider funding 
such valuable community development programs at the fiscal year 2012 
funding levels.
                                 ______
                                 
         Prepared Statement of the School Nutrition Association
    The School Nutrition Association (SNA) strongly supports approval 
of the $35 million requested by the Food and Nutrition Service for 
School Meal Equipment Grants. Many School Food Authorities (SFAs) 
throughout the Nation have a significant need to replace and upgrade 
their equipment, particularly as we all work to implement the final 
rule revising school lunch and school breakfast meal standards. Most 
importantly, new equipment will directly benefit the millions of 
children that school food service professionals serve each and every 
school day by enabling SFAs to provide more fruits and vegetables, and 
enabling SFAs to maintain, expand, and establish school breakfast 
programs throughout the Nation.
    Mr. Chairman and Members of the Committee, SNA represents more than 
55,000 members who provide high-quality, low-cost meals to students 
across the country. We appreciate your continuing support for all 
school meal programs. These programs are needed more than ever before 
and we want to work with you to improve the efficiency and integrity of 
school meals.
    Our members are charged with several simultaneous tasks. First, 
they must provide the best meal possible. Second, they must provide the 
safest meal possible. Third, they must do so within extremely tight 
budget limits that often do not leave any resources for replacing and 
upgrading equipment on a regular basis.
    School meals must be nutritious and varied in order to qualify for 
Federal reimbursement, and to maintain student interest. As a result of 
both the new meal pattern standards and requirements of the Healthy, 
Hunger-Free Kids Act of 2010, SFAs are required to serve both a greater 
volume and a wider array of fruits and vegetables. We are prepared to 
meet that challenge, but many SNA members will need additional 
refrigeration equipment, storage equipment, and food preparation 
equipment in order to meet these requirements. Equipment assistance is 
vitally needed to fully achieve the requirement for nutritious and 
varied meals.
    Food safety is a tremendous responsibility. SNA members take great 
care to provide safe food for the benefit of each child, and for the 
integrity of school meal programs. Old equipment that is in need of 
constant repair or is scheduled to be replaced jeopardizes food safety. 
Equipment assistance is vitally needed to help ensure the continued 
provision of safe food.
    And while we certainly recognize and respect the financial 
challenges facing the Federal budget, one school food service 
professional after another is prepared to tell you about the difficult 
budget situations they face in their States, their school districts, 
and their individual schools. Many areas that have traditionally been 
well off financially are facing significant budget difficulties. We see 
this in our schools every day as more and more students move from paid 
meals to reduced price meals to free meals as families face economic 
difficulties. As a consequence, school food service professionals are 
managing tighter and tighter budgets, and are forced to put off 
replacing and upgrading equipment more than they should. Equipment 
assistance is vitally needed to help SFAs deal with little or no local 
resources for replacing and upgrading equipment.
    It is well known that the $100 million provided by the American 
Recovery and Reinvestment Act, and the $25 million provided as part of 
the fiscal year 2010 Agriculture Appropriations Act made a positive 
difference for the 6,500 successful applicants. Yet many more SFAs need 
to upgrade their equipment. There were 25,000 applications submitted 
for the prior program, with priority having been given to school 
districts where 50 percent or more students are eligible for free or 
reduced price meals.
    As an example of what this prior funding accomplished, Burlington, 
Vermont, schools received several ARRA fund grants. Most went into 
walk-in coolers and one went into a Blodgett oven. The new walk-in 
coolers have given the Burlington schools the ability to provide more 
fresh fruits and vegetables to their students daily. Between the use of 
salad bars, the Fresh Fruit and Vegetable Program, breakfast, and 
after-school suppers and snacks they are now providing at least 8+ 
fruit and vegetable choices daily, to all students K-12. In addition, 
the increased refrigeration space has improved their food safety and 
storage capacity as well as reducing energy costs, noise and heat in 
their kitchens. The addition of the oven, which replaced a 25+ year old 
electric model, was not only more cost effective, but also reduced 
cooking times and improved food quality.
    The amount requested as part of the fiscal year 2013 FNS budget is 
projected to assist up to 10,000 schools in 15 to 25 States make 
similar improvements.
    We also would like to respectfully point out that many schools 
serving fewer than 50 percent free and reduced price meals need 
equipment assistance. While SNA understands the desire to prioritize 
who may be eligible for this assistance, schools serving fewer than 50 
percent free and reduced price meals face the same budgetary problems 
and equipment needs. The prior program established an assistance scale 
for SFAs with less than 50 percent free and reduced price 
participation. If a school applying had less than 30 percent F&R, they 
would only have been reimbursed for 25 percent of the cost of the 
equipment. This discouraged SFAs from applying at all last time. The 
situation is further complicated by the Paid Equity requirement 
included in the Healthy, Hunger-Free Kids Act. This provision requires 
SFAs with meal prices below the Federal reimbursement rate to increase 
their prices, even if they are already covering all of their costs. 
SFAs are relying on paying students for most of their income, and find 
that any price increase usually means a drop in participation. This 
drop in participation makes it even harder for SFAs to derive 
sufficient revenue to replace equipment absent a full grant. We hope 
that FNS will have the flexibility to consider additional methods for 
prioritization of grant applications in addition to just meal 
participation rates.
    We thank you for this opportunity to share our support for the 
requested $35 million for School Meal Equipment Grants, and look 
forward to continue to work with you in the future.
                                 ______
                                 
     Prepared Statement of the Society for Women's Health Research
    The Society for Women's Health Research (SWHR) is pleased to submit 
written testimony to urge the Committee to increase the fiscal year 
2013 budget authority (BA) appropriations (non-user fees) for the U.S. 
Food and Drug Administration (FDA) to $2.656 billion, resulting in a 6 
percent increase over 2012. This allocation will allow the agency to 
provide necessary and critical improvements in infrastructure, address 
resource shortages, and support needed investment into the Office of 
Women's Health (OWH), the focal point on women's health within the 
Agency.
    SWHR, a national nonprofit organization based in Washington, DC, is 
widely recognized as the thought leader in research on sex differences 
and is dedicated to improving women's health through advocacy, 
education, and research. SWHR was founded in 1990 by a group of 
physicians, medical researchers and health advocates who wanted to 
bring attention to the myriad of diseases and conditions that affect 
women uniquely.
    Insufficient investment in this important agency prevents the FDA 
from fully achieving its mission and threatens the health, economic and 
national security of the Nation. While SWHR recognizes the need for 
responsible discretionary spending, proper and sustained funding of the 
FDA must remain a public priority. The increase of $150 million to FDA 
reflects the Agency's increased responsibilities and workload. 
Appropriate funding of the FDA by Congress is vital for it to fulfill 
its mission. Americans rely on the FDA every day, from promoting 
wellness and meeting healthcare needs to ensuring the food supply and 
keeping drugs safe and effective. Altogether, 25 percent of every 
consumer dollar spent in America is spent on products regulated by the 
FDA.
    This level of investment will allow the FDA to foster a 21st 
century culture of proactive science and research leadership that will 
better meet the demands and expectations of the American public. Each 
year, over 80 percent of FDA's budget is allocated toward the salary of 
its scientists and staff, making a substantial investment in 
infrastructure needs, technology, and human collateral all but 
impossible. Until the budgetary allocation from Congress is enough to 
allow FDA to invest in staffing and infrastructure needs, the FDA will 
continue to act in a reactionary manner against the emerging or known 
threats to food and drug security.
FDA and Sex Differences Research
    In the past decades, scientists have uncovered significant 
biological and physiological differences between men and women. Sex 
differences have been found everywhere, from the composition of bone 
matter to the metabolism of certain drugs, to the rate of 
neurotransmitter synthesis in the brain. Sex-based biology, the study 
of biological and physiological differences between men and women, has 
revolutionized the way that the scientific community views the sexes. 
America's drug development process continues to advance in delivering 
new and better targeted medications to combat disease; however, 
medication effectiveness and safety could be better targeted to women 
and men if analysis of sex and gender differences would be done 
routinely during review processes at FDA.
    SWHR has long recognized that the inclusion of women in study 
populations by itself was insufficient to address the inequities in our 
knowledge of human biology and medicine, and that only by the careful 
study of sex differences at all levels, from genes to behavior, would 
science achieve the goal of optimal healthcare for both men and women. 
Many sex differences are already present at birth, whereas others 
develop later in life. These differences play an important role in 
disease susceptibility, prevalence, time of onset, and severity and 
have documented roles in cancer, obesity, heart disease, immune 
dysfunction, mental health disorders, and other illnesses. 
Physiological differences and hormonal fluctuations may also play a 
role in the rate of drug absorption, distribution, metabolism, 
elimination as well as ultimate effectiveness of response in females as 
opposed to males. This vital research is supported and encouraged by 
the OWH at FDA, working directly with the various centers to advance 
the science in this area, collaborating on programs, projects, and 
research.
    Unfortunately, FDA's requirement that the data acquired during 
research of a new drug or device's safety and efficacy be reported and 
analyzed as a function of sex is not universally enforced.
    Information about the ways drugs may differ in various populations 
(e.g., women may require a lower dosage because of different rates of 
absorption or metabolism) are often unexplored, or female enrollment in 
studies is too low to adequately power statistically significant 
results. As a result, this information is not able to be transmitted to 
healthcare providers and the potential benefit of a more appropriate 
medical option is not available to the patient, man or woman.
    SWHR believes that the opportunity to translate this information to 
patients exists now. Sex differences data discovered from clinical 
trials can be presented to the medical community and to patients 
through education, drug labeling and packaging inserts, and other forms 
of alerts directed to key audiences. SWHR encourages the FDA to 
continue addressing the need for accurate, sex-specific drug and device 
labeling to better serve male and female patients, as well as to ensure 
that appropriate data analysis of post-market surveillance reporting 
for these differences is placed in the hands of physicians and 
ultimately the patient.
            FDA Must Improve Its IT Infrastructure
    The FDA is tasked with guarding the safety, efficacy, and security 
of human drugs, biological products, and medical devices, yet still 
does not have sufficient resources to establish and maintain the 
information technology needed to appropriately analyze the information 
that FDA receives. This lack of appropriate IT systems inhibits the FDA 
from fulfilling its mission and prevents appropriate sex differences 
analysis from being conducted. A 2007 Science Board Report, requested 
by former Commissioner von Eschenbach, found that FDA's IT systems were 
inefficient and incapable of handling the current demands placed on the 
Agency.
    Tremendous advances have been made throughout the Agency to 
modernize in the 5 years since that initial report; however, it still 
remains a challenge for the Agency to access and maintain the 
information technology needed to meet the growing expectations from the 
American public and to fulfill its mission. As technology continues to 
advance, congressional investment in FDA must remain robust.
    FDA is expected by Congress and the American public to have IT 
systems that can quickly and effectively do appropriate data analyses 
and reporting, safety analyses, tracking the natural history and 
disease models for rare disorders, analyses of subpopulations within 
the context of larger trials or comparative effectiveness research 
(CER), access large amounts of clinical data, capture emerging trends, 
and determine food and drug safety when a problem impacting the public 
breaks out.
            FDA Must Create a Centralized Database
    The creation of a central database would provide a single 
repository for all relevant facts about a certain product, including 
where, when and how the product was made. Such a database will be 
relevant for all information stored across agencies, so as to maximize 
functionality not only of FDA's data but for any other research and 
analysis needed by the American public for safety and surveillance. 
This database should allow for easier tracking of recruitment and 
retention rates of women and minorities in clinical trials, which will 
allow the FDA to monitor and collect data on how drugs, devices and 
biologics affect men and women differently, and allow for sex 
differences to be analyzed during the drug review process.
            FDA IT Systems Must Encourage Electronic Submissions and Be 
                    Able To Handle All Applications in an Electronic 
                    Format
    FDA must move away from a paper based system into a standardized 
electronic format. This will aid in transforming Agency reviews, CER, 
and further data analysis and reporting, such as sex differences.
FDA Office of Women's Health
    The FDA's Office of Women's Health (OWH), like the Agency that 
houses it, requires steady and sustained investment to remain a key 
resource advocating for this important research. OWH at the FDA, 
established in 1994, plays a critical role in women's health, both 
within and Agency and as an information source to the public.
    OWH's programs, often conducted with the Agency centers, focus on 
women's health within the FDA and are critical to improving care and 
increased awareness of disease-specific impacts on women. OWH works to 
ensure that sex and gender differences in the efficacy of drugs (such 
as metabolism rates), devices (sizes and functionality) and diagnostics 
are taken into consideration in reviews and approvals, but they cannot 
fix the problem alone. Additionally, OWH endeavors to correct sex and 
gender disparities in the areas for which the FDA has jurisdiction and 
also monitors women's health priorities, providing both leadership and 
an integrated approach to problem solving across the FDA. The OWH 
continues to provide women with invaluable tools for their health and 
ensure that the agency is examining sex and gender differences during 
its review of new drugs, devices, and biologics.
    To address OWH's growing list of priorities, SWHR recommends that 
Congress support an additional $1 million budget for OWH for fiscal 
year 2013 within the budget for the FDA. Each year, OWH exhausts its 
budget as OWH's pamphlets are the most requested of any documents at 
the Government printing facility in Colorado. More than 5 million OWH 
pamphlets have been distributed to women across America, including 
target populations such as Hispanic communities, seniors and low-income 
citizens. Last year, the OWH's intramural research program funded over 
23 new and 8 continuing research studies conducted by FDA scientists. 
To date, over 50 concept papers were submitted. OWH has also 
collaborated with CDRH to award a contract to Duke Research Institutes 
for prospective assessment of clinical and patient-reported outcomes 
for female patients undergoing percutaneous coronary intervention (PCI) 
procedures via femoral and radial access. Further, FDA OWH has worked 
closely with CDRH on its publication of the Draft Guidance on the 
Evaluation of Sex Differences in Medical Device Clinical Studies.
    The value-added with congressional investment in FDA's OWH is 
clear. The office provides women with the high quality and timely 
information that American women need to make medical decisions on 
behalf of them and their families. Further, OWH's website is a vital 
tool for consumers and physicians. It is regularly updated to include 
new and important health information. The website provides free, 
downloadable fact sheets on over 100 different illnesses, diseases, and 
health related issues for women. OWH has created medication charts on 
several chronic diseases, listing all the medications that are 
prescribed and available for each disease. This type of information is 
ideal for women to use in talking to their doctors, pharmacists, or 
nurses about their treatment options. Such resources need to be 
updated, evaluated, and disseminated to further impact improvements in 
women's health.
    OWH provides imperative information to the medical communities in 
the form of web trainings to keep medical professionals up to date with 
emerging science. OWH developed Sex and Gender Differences in Health 
and Behavior, with assistance from the Office of Research on Women's 
Health (ORWH) at the National Institutes of Health (NIH) to develop the 
second in a web series of free courses on the ``Science of Sex and 
Gender in Human Health''. Developed in partnership with the Health 
Resources and Services Administration (HRSA), OWH developed online 
courses in health literacy to help promote best practices for improving 
patient/provider communication and addressing factors such as low 
health literacy that limit a patient's ability to safely use their 
medications.
OWH and Sex Differences Research
    OWH funds high quality scientific research to serve as the 
foundation for FDA activities that improve women's health. Since 1994, 
OWH has funded approximately 195 research projects with approximately 
$15.7 million in intramural grants, supporting projects within the FDA 
that address knowledge gaps or set new directions for sex and gender 
research. All contracts and grants are awarded through a competitive 
process and a large number are published in peer reviewed journals. It 
is critical for Congress to help preserve the vital functions of OWH 
and to ensure that its budget is dedicated to the resource needs of the 
office and to the projects, programs, and research it funds.
    In conclusion, Mr. Chairman, we thank this Committee for its strong 
record of support for the FDA and women's health. SWHR recommends for 
fiscal year 2013 BA appropriations (non-user fees) of $2.656 billion so 
that the FDA may dramatically improve upon current operations and to 
improve its staffing and infrastructure needs. Second, we urge you to 
allocate $7 million for the Office of Women's Health for fiscal year 
2013, and to ensure that future budget appropriations for the OWH never 
fall below fiscal year 2012 funding levels of $6 million.
    We look forward to continuing to work with the Committee to build a 
stronger, healthier, and safer future for all Americans.
                                 ______
                                 
     Prepared Statement of The Humane Society of the United States
    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to your Subcommittee on 
fiscal year 2013 items of great importance to The Humane Society of the 
United States (HSUS) and its 11 million supporters nationwide. In this 
testimony, we request the following assistance for the following USDA 
accounts:
  --APHIS/Animal Welfare Act Enforcement--$27,087,000;
  --APHIS/Horse Protection Act Enforcement--$891,000;
  --APHIS/Investigative and Enforcement Services--$16,275,000;
  --FSIS/Horse Slaughter--language mirroring fiscal year 2012 House 
        bill provision;
  --FSIS/Humane Methods of Slaughter Act Enforcement--language 
        directing FSIS to ensure that inspectors hired with funding 
        previously specified for Humane Methods of Slaughter Act 
        enforcement focus their attention on overseeing compliance with 
        humane handling rules for live animals as they arrive and are 
        offloaded and handled in pens, chutes, and stunning areas;
  --OIG/including Animal Fighting Enforcement--$85,621,000;
  --NIFA/Veterinary Medical Services Act--$4,790,000;
  --APHIS/Emergency Management Systems/Disaster Planning for Animals--
        $1,017,000;
  --APHIS/Wildlife Services Damage Management--reduce by $10 million; 
        and
  --APHIS/Class B Dealers--language barring expenditures of funds for 
        licensing or renewal of licenses of any Class B Dealers who 
        sell dogs or cats for use in research, teaching, or testing.
    At this time of intense budget pressure, we thank you for your 
outstanding past support for enforcement of key animal welfare laws by 
the U.S. Department of Agriculture and we urge you to sustain this 
effort in fiscal year 2013. While we understand the focus on reducing 
Federal spending, we believe there should be room for careful 
decisionmaking within the budget to achieve macro-level cuts and at the 
same time ensure adequate funding for specific accounts that are vital 
and have previously been underfunded.
    Your leadership is making a difference, helping to protect the 
welfare of millions of animals across the country and upholding the 
values of the American public. As you know, better enforcement also 
directly benefits American citizens by: (1) preventing the sale of 
unhealthy pets from unlawful commercial breeders, commonly referred to 
as ``puppy mills''; (2) improving laboratory conditions that may 
otherwise impair the scientific integrity of animal-based research; (3) 
reducing risks of disease transmission from, and dangerous encounters 
with, wild animals in or during public exhibition; (4) minimizing 
injury, loss, and death of pets on commercial airline flights due to 
mishandling and exposure to adverse environmental conditions; (5) 
decreasing food safety risks to consumers from sick animals who can 
transmit illness, and injuries to slaughterhouse workers from suffering 
animals; and (6) dismantling orchestrated dogfights and cockfights that 
often involve illegal gambling, drug trafficking, human violence, and 
can contribute to the spread of costly illnesses such as bird flu. In 
order to continue the important work made possible by the Committee's 
prior support, we request the following for fiscal year 2013.
Animal and Plant Health Inspection Service (APHIS)/Animal Welfare Act 
        (AWA) Enforcement
    We request that you support level funding of $27,087,000 for AWA 
enforcement under APHIS. We commend the Committee for responding in 
recent years to the urgent need for increased funding for the Animal 
Care division. The funding has helped improve inspections by Animal 
Care of approximately 12,870 sites, including commercial breeding 
facilities, laboratories, zoos, circuses, and airlines, to ensure 
compliance with AWA standards. In May 2010, USDA's Office of Inspector 
General released a report criticizing the agency's history of lax 
oversight of dog dealers, finding that inhumane treatment and horrible 
conditions often failed to be properly documented and yielded little to 
no enforcement actions. While Agriculture Secretary Vilsack called for 
more inspections and a tougher stance on repeat offenders, the agency 
must have the resources to follow through on that commitment. USDA is 
also implementing a new responsibility created by Congress in 2008--
enforcing a ban on imports from foreign puppy mills where puppies are 
mass produced under inhumane conditions and forced to endure harsh 
long-distance transport. Animal Care currently has 122 inspectors (with 
14 vacancies that are in the process of being filled), compared to 64 
inspectors at the end of the 1990s. An appropriation at the requested 
level would help the agency continue to address the concerns identified 
by the OIG, enforce the new puppy import ban, and provide adequate 
oversight of the many licensed/registered facilities.
APHIS/Horse Protection Act (HPA) Enforcement
    We request that you support $891,000, the amount provided in last 
year's Senate bill, for strengthened enforcement of the Horse 
Protection Act. Congress enacted the HPA in 1970 to make illegal the 
abusive practice of ``soring,'' in which unscrupulous trainers use a 
variety of methods to inflict pain on sensitive areas of Tennessee 
Walking Horses' hooves and legs to exaggerate their high-stepping gait 
and gain unfair competitive advantage at horse shows. For example, 
caustic chemicals--such as mustard oil, diesel fuel, and kerosene--are 
painted on the lower front legs of a horse, then the legs are wrapped 
for days in plastic wrap and tight bandages to ``cook'' the chemicals 
deep into the horse's flesh, and then heavy chains are attached to 
slide up and down the horse's sore legs. Though soring has been illegal 
for 40 years, this cruel practice continues unabated by the well-
intentioned but seriously understaffed APHIS inspection program and the 
inherent conflicts of interest in the industry self-policing system 
established to supplement Federal enforcement. A report released in 
October 2010 by USDA's Office of Inspector General documents these 
problems and calls for increased funding to enable the agency to more 
adequately oversee the law. Several horse show industry groups, animal 
protection groups, and the key organization of equine veterinarians 
have also called for funding increases to enable the USDA to do a 
better job enforcing this law. To meet the goal of the HPA, Animal Care 
inspectors must be present at more shows. Exhibitors who sore their 
horses go to great lengths to avoid detection--even fleeing shows when 
USDA inspectors arrive. With current funding Animal Care is able to 
attend only about 10 percent of the more than 500 Tennessee Walking 
Horse shows held annually. We greatly appreciate the enactment of a 
modest increase for Horse Protection Act enforcement last year 
(bringing the budget for this to $696,000), the first time in decades 
that the program received more than $500,000. An appropriation at the 
requested level will help ensure that this program doesn't lose ground 
but instead builds on last year's crucial first step in addressing the 
need for additional inspectors, training, security--for threats of 
violence against inspectors--and advanced detection equipment.
APHIS/Investigative and Enforcement Services
    We request that you support level funding of $16,275,000 for APHIS 
Investigative and Enforcement Services (IES). We appreciate the 
Committee's consistent support for this division. IES handles many 
important responsibilities, including the investigation of alleged 
violations of Federal animal welfare laws and the initiation of 
appropriate enforcement actions. The volume of animal welfare cases is 
rising significantly. An appropriation at the requested level would 
enable the agency to keep pace with the additional enforcement 
workload.
Horse Slaughter
    We request inclusion of the same language barring USDA from the 
expenditure of funds for horse slaughter inspection as was included in 
the Committee's fiscal year 2012 Agriculture Appropriations bill. This 
provision is vital to prevent renewed horse slaughter activity in this 
country.
Food Safety and Inspection Service (FSIS)/Humane Methods of Slaughter 
        Act (HMSA) Enforcement
    We request language to ensure strengthened HMSA enforcement. We 
appreciate the Committee's inclusion of language in the fiscal year 
2012 Committee report regarding humane slaughter. USDA oversight of 
humane handling rules for animals at slaughter facilities is vitally 
important not only for animal welfare but also for food safety. 
Effective day-to-day enforcement can prevent abuses like those 
previously documented in undercover investigations, and reduce the 
chance of associated food safety risks and costly recalls of meat and 
egg products. We therefore urge inclusion of language directing FSIS to 
ensure that inspectors hired with funding previously provided 
specifically for Humane Methods of Slaughter Act enforcement focus 
their attention on overseeing compliance with humane handling rules for 
live animals as they arrive and are offloaded and handled in pens, 
chutes, and stunning areas.
Office of Inspector General/Animal Fighting Enforcement
    We request that you support level funding of $85,621,000 for the 
Office of Inspector General (OIG) to maintain staff, ensure 
effectiveness, and allow investigations in various areas, including 
enforcement of animal fighting laws. We appreciate the Committee's 
inclusion of funding and language in recent years for USDA's OIG to 
focus on animal fighting cases. Congress first prohibited most 
interstate and foreign commerce of animals for fighting in 1976, 
tightened loopholes in the law in 2002, established felony penalties in 
2007, and further strengthened the law as part of the 2008 farm bill. 
We are pleased that USDA is taking seriously its responsibility to 
enforce this law. Its work with State and local agencies to address 
these barbaric practices, in which animals are drugged to heighten 
their aggression and forced to keep fighting even after they've 
suffered grievous injuries, is commendable. Dogs bred and trained to 
fight endanger public safety, and some dogfighters steal pets to use as 
bait for training their dogs. Also, in 2002-2003 cockfighting was 
linked to an outbreak of Exotic Newcastle Disease that cost taxpayers 
more than $200 million to contain. Cockfighting has further been linked 
to the death of a number of people in Asia reportedly exposed to bird 
flu. Given the potential for further costly disease transmission, as 
well as the animal cruelty involved, we believe it is a sound 
investment for the Federal Government to increase its efforts to combat 
illegal animal fighting activity. We also support the OIG's auditing 
and investigative work to improve compliance with the Animal Welfare 
Act, the Horse Protection Act, and the Humane Methods of Slaughter Act 
and downed animal rules.
National Institute of Food and Agriculture/Veterinary Medical Services 
        Act
    We request that you support level funding of $4,790,000 to continue 
the implementation of the National Veterinary Medical Service Act 
(Public Law 108-161). We appreciate that Congress is working to address 
the critical maldistribution of veterinarians practicing in rural and 
inner-city areas, as well as in Government positions at FSIS and APHIS. 
A 2009 Government Accountability Office report enumerating the 
challenges facing veterinary medicine identified that an inadequate 
number of veterinarians to meet national needs is among the foremost 
challenges. Having adequate veterinary care is a core animal welfare 
concern. To ensure adequate oversight of humane handling and food 
safety rules, FSIS must be able to fill vacancies in inspector 
positions. Veterinarians support our Nation's defense against 
bioterrorism. The Centers for Disease Control estimates that 75 percent 
of potential bioterrorism agents are zoonotic--transmitted from animals 
to humans. Veterinarians are also on the front lines addressing public 
health problems such as those associated with pet overpopulation, 
parasites, rabies, chronic wasting disease, and bovine spongiform 
encephalopathy--``mad cow'' disease. Veterinary school graduates face a 
crushing debt burden of $142,613 on average, with an average starting 
salary of $66,469. For those who choose employment in underserved rural 
or inner-city areas or public health practice, the National Veterinary 
Medical Service Act authorizes the Secretary of Agriculture to repay 
student debt. It also authorizes financial assistance for those who 
provide services during Federal emergency situations such as disease 
outbreaks.
APHIS/Emergency Management Systems/Disaster Planning for Animals
    We request that you support level funding of $1,017,000 for Animal 
Care under APHIS' Emergency Management Systems line item. Hurricanes 
Katrina and Rita demonstrated that many people refuse to evacuate if 
they are forced to leave their pets behind. The Animal Care division 
develops infrastructure to help prepare for and respond to animal 
issues in a disaster and incorporate lessons learned from previous 
disasters. Funds are used for staff time and resources to support the 
efforts of State, county and local governments and humane organizations 
to plan for protection of people with animals. They also enable the 
agency to participate, in partnership with FEMA, in the National 
Response Plan without jeopardizing other Animal Care programs.
APHIS/Wildlife Services Damage Management
    We request that funding be reduced for Wildlife Services Damage 
Management by $10 million. This is the amount that the USDA estimates 
it spends annually on lethal predator control to protect livestock. In 
light of record deficits, this is a wasteful subsidy that needs to be 
terminated. Under its ``livestock protection'' program, Wildlife 
Services provides taxpayer-subsidized wildlife extermination services 
to private agribusiness. USDA data show that less than 1 percent of 
livestock are killed by predators. Livestock producers and property 
owners--not U.S. taxpayers--should be financially responsible for 
protecting their property from damage attributed to wildlife. Expensive 
lethal control methods used by Wildlife Services such as aerial 
gunning, poisoning, and trapping are indiscriminate and ineffective, 
often killing non-target species including endangered species protected 
by Federal law and companion animals. Common sense non-lethal methods 
like the use of guard animals (e.g., llamas, dogs), lighting, penning, 
and good animal husbandry practices like shepherding are cheaper and 
proven more effective in reducing predation to livestock. Ranchers have 
no incentive to use these methods if the Federal Government continues 
to pay for unlimited lethal control. By cutting this wasteful and 
unnecessary program, we will ensure that U.S. taxpayers stop 
subsidizing lethal wildlife control for the benefit of private 
livestock producers and property owners.
APHIS/Class B Dealers
    We also ask that you include a funding limitation as suggested 
below regarding Class B Dealers. A September 2010 Government 
Accountability Office report to Congress found that numerous Animal 
Welfare Act violations have been documented during inspections of Class 
B dealer facilities, seven of the nine licensed Class B dealers of 
live, random-source dogs and cats at that time had one or more 
violations, and several Class B dealers were under further 
investigation by the USDA because of repeated violations. The USDA is 
spending an inordinate amount of its limited resources in an attempt to 
regulate these Class B dealers, especially considering that a 2009 
study by the National Academies--``Scientific and Humane Issues in the 
Use of Random Source Dogs and Cats in Research''--found that Class B 
dealers are not necessary to supply random-source dogs and cats for 
NIH-funded research.
    Requested bill language: ``Provided, That appropriations herein 
made shall not be available for any activities or expense related to 
the licensing of new Class B dealers who sell dogs or cats for use in 
research, teaching, or testing, or to the renewal of licenses of 
existing Class B dealers who sell dogs or cats for use in research, 
teaching, or testing''.
    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture, Rural Development, FDA, and Related 
Agencies Appropriation Act for Fiscal Year 2013. We are so grateful for 
the Committee's past support, and hope you will be able to accommodate 
these modest requests to address some very pressing problems affecting 
millions of animals in the United States. Thank you for your 
consideration.
                                 ______
                                 
 Prepared Statement of The Humane Society of the United States--Equine 
                               Protection
    On behalf of the undersigned animal welfare and horse industry 
organizations, with combined supporters exceeding 12 million, and 
former Senator Joseph Tydings, we submit the following testimony 
seeking funding for the USDA/APHIS Horse Protection Program of $891,000 
for fiscal year 2013. We recognize that Congress is focused on the 
imperative of cutting Federal spending. But we believe that it should 
be possible to achieve meaningful reductions in the overall budget 
while still addressing shortfalls in very specific accounts that are 
vital and have been seriously underfunded. This $891,000 is urgently 
needed to begin to fulfill the intent of the Horse Protection Act--to 
eliminate the cruel practice of soring--by allowing the USDA to 
strengthen its enforcement capabilities for this law.
    In 1970, Congress passed the Horse Protection Act to end soring, 
the intentional infliction of pain to the hooves and legs of a horse to 
produce an exaggerated gait, practiced primarily in the Tennessee 
Walking Horse show industry.
    For example, caustic chemicals--such as mustard oil, diesel fuel, 
and kerosene--are painted on the lower front legs of a horse, then the 
legs are wrapped for days in plastic wrap and bandages to ``cook'' the 
chemicals deep into the horse's flesh. This makes the horse's legs 
extremely painful and sensitive, and when ridden, the horse is fitted 
with chains that slide up and down the horse's sore legs, forcing him 
to produce an exaggerated, high-stepping gait in the show ring. 
Additional tactics include inserting foreign objects such as metal 
screws or hard acrylic between a heavy stacked shoe and the horse's 
hoof; pressure shoeing--cutting a horse's hoof down to the sensitive 
live tissue to cause extreme pain every time the horse bears weight on 
the hoof; and applying painful chemicals such as salicylic acid to 
slough off scarred tissue, in an attempt to remove evidence of soring.
    The Horse Protection Act authorizes the USDA to inspect Tennessee 
Walking Horses and Racking Horses--in transport to and at shows, 
exhibits, auctions and sales--for signs of soring, and to pursue 
penalties against violators. Unfortunately, since its inception, 
enforcement of the act has been plagued by underfunding. As a result, 
the USDA has never been able to adequately enforce the act, allowing 
this extreme and deliberate cruelty to persist on a widespread basis.
    The most effective way to eliminate soring and meet the goals of 
the act is for USDA officials to be present at more shows. However, 
limited funds allow USDA attendance at only about 10 percent of 
Tennessee Walking Horse shows. So the agency set up an industry-run 
system of certified Horse Industry Organization (HIO) inspection 
programs, which are charged with inspecting horses for signs of soring 
at the majority of shows. These groups license examiners known as 
Designated Qualified Persons (DQPs) to conduct inspections. To perform 
this function, some of these organizations hire industry insiders who 
have an obvious stake in preserving the status quo. Statistics clearly 
show that when USDA inspectors are in attendance to oversee shows 
affiliated with these organizations, the numbers of noted violations 
are many times higher than at shows where industry inspectors alone are 
conducting the inspections. By all measures, the overall DQP program as 
a whole has been a failure--the only remedy is to abolish the 
conflicted industry-run inspection programs charged with self-
regulation and give USDA the resources it needs to adequately enforce 
the act.
    USDA appears to have attempted to step up its enforcement efforts 
in recent years, and has begun to work with the Department of Justice 
in prosecuting criminal cases as provided for under the act. In 2011, a 
Federal prosecutor sought the first-ever criminal indictments under the 
act and as a result, a well-known, winning trainer in the Spotted 
Saddle Horse industry is serving a prison sentence of over 1 year. A 
former Walking Horse Trainers' Association Trainer of the Year and 
winner of the Tennessee Walking Horse World Grand Championship was 
recently indicted on 52 counts (18 of them felony) of violating the act 
and is awaiting trial.
    While these are significant actions which should have a deterrent 
effect, there are many other violators who go undetected, and many 
cases which go unprosecuted--all due to a lack of resources. USDA needs 
enhanced resources to carry out its responsibilities under this act, as 
Congress, and the public, expects.
    In years past, inspections were limited to physical observation and 
palpation by the inspector. Protocols for the use of new technologies, 
such as thermography and ``sniffer'' devices (gas chromatography/mass 
spectrometry--or GC/MS--machines), have been implemented, which can 
help inspectors identify soring more effectively and objectively. The 
results of USDA's recent GC/MS testing for prohibited foreign 
substances used by violators on the legs of horses (either to sore 
them, or to mask underlying soring and evade detection by inspectors) 
are staggering: 97.6 percent of the samples taken at various Tennessee 
Walking Horse competitions in 2011 tested positive for illegal foreign 
substances, and 86 percent tested positive in 2010.
    Effective though this inspection protocol may be, due to budget 
constraints, USDA has been unable to purchase and put enough of this 
testing into use in the field, allowing for industry players to 
continually evade detection. In 2011, USDA was able to afford to 
collect and test samples at only three of the industry's largest shows; 
in 2010, only five. With increased funding, the USDA could purchase 
more equipment and hire and train more inspectors to use it properly, 
greatly increasing its ability to enforce the HPA.
    Currently, when USDA inspectors arrive at shows affiliated with 
some industry organizations, many of the exhibitors load up and leave 
to avoid being caught with sored horses. While USDA could stop these 
trailers on the way out, agency officials have stated that inspectors 
are wary of going outside of their designated inspection area, for fear 
of harassment and physical violence from exhibitors. Armed security is 
frequently utilized to allow such inspections, at additional expense to 
this program. The fact that exhibitors feel they can intimidate 
Government officials without penalty is a testament to the inherent 
shortcomings of the current system.
    Lack of a consistent presence by USDA officials at events featuring 
Tennessee Walking Horses, Racking Horses, Spotted Saddle Horses and 
other related breeds has fostered a cavalier attitude among industry 
insiders, who have not stopped their abuse, but have only become more 
clandestine in their soring methods. The continued use of soring to 
gain an advantage in the show ring has tainted the gaited horse 
industry as a whole, and creates an unfair advantage for those who are 
willing to break the law in pursuit of victory. Besides the 
indefensible suffering of the animals themselves, the continued 
acceptance of sored horses in the show ring prevents those with sound 
horses from competing fairly for prizes, breeding fees and other 
financial incentives, while those horse owners whose horses are sored 
may unwittingly suffer property damage and be duped into believing that 
their now abused, damaged horses are naturally superior.
    The egregious cruelty of soring is not only a concern for animal 
protection and horse industry organizations, but also for 
veterinarians. In 2008, the American Association of Equine 
Practitioners (AAEP) issued a white paper condemning soring, calling it 
``one of the most significant welfare issues faced by the equine 
industry.'' It called for the abolition of the DQP Program, saying 
``the acknowledged conflicts of interest which involve many of them 
cannot be reasonably resolved, and these individuals should be excluded 
from the regulatory process.'' The AAEP further stated, ``The failure 
of the HPA to eliminate the practice of soring can be traced to the 
woefully inadequate annual budget . . . allocated to the USDA to 
enforce these rules and regulations.''
    The USDA Office of Inspector General conducted an audit of the 
Horse Protection Program, and issued its final report in September 
2010. The report recommends the abolition of the DQP program, and an 
increase in funding for APHIS enforcement of the Horse Protection Act. 
The agency concurred with the findings and recommendations in the 
report, specifically Recommendation 2: ``Seeking the necessary funding 
from Congress to adequately oversee the Horse Protection Program,'' 
indicating that it would develop a budgeting and staffing plan to phase 
in the resources needed to adequately oversee the Horse Protection 
Program.
    It is unacceptable that nearly 40 years after passage of the Horse 
Protection Act, the USDA still lacks the resources needed to end this 
extreme form of abuse. It is time for Congress to give our public 
servants charged with enforcing this act the support and resources they 
want and need to fulfill their duty to protect these horses as 
effectively and safely as possible.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.
                       undersigned organizations
    Friends of Sound Horses, Inc.; former U.S. Senator Joseph Tydings; 
Animal Welfare Institute; American Society for the Prevention of 
Cruelty to Animals (ASPCA); American Horse Protection Association; 
American Horse Defense Fund; Plantation Walking Horses of Maryland; Red 
Rover; National Plantation Walking Horse Association; Plantation 
Walking Horse Association of California; United Pleasure Walking Horse 
Association; Gaitway Walking Horse Association; International Pleasure 
Walking Horse Registry; Sound Horse Outreach (SHO); One Horse At a 
Time, Inc. Horse Rescue; Northern California Walking Horse Association; 
Tennessee Walking Horse Association of Oklahoma; Pure Pleasure Gaited 
Horse Association; Northwest Gaited Horse Club; New York State 
Plantation Walking Horse Club; Northwest Pleasure Tennessee Walking 
Horse Association.
                                 ______
                                 
               Prepared Statement of The Wildlife Society
    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2013 budgets for the Animal and 
Plant Health Inspection Service, National Institute of Food and 
Agriculture, Natural Resources Conservation Service, and Farm Service 
Agency. The Wildlife Society represents over 11,000 professional 
wildlife biologists and managers dedicated to sound wildlife 
stewardship through science and education. The Wildlife Society is 
committed to strengthening all Federal programs that benefit wildlife 
and their habitats on agricultural and other private land.
Animal and Plant Health Inspection Service
    Wildlife Services, a unit of APHIS, is responsible for controlling 
wildlife damage to agriculture, aquaculture, forest, range, and other 
natural resources, monitoring wildlife-borne diseases, and managing 
wildlife at airports. Its activities are based on the principles of 
wildlife management and integrated damage management, and are carried 
out cooperatively with State fish and wildlife agencies. The 
President's request is a $7 million decrease from fiscal year 2012 and 
a $10 million decrease from fiscal year 2011. In recognition of the 
important work that Wildlife Services performs regarding methods 
development and wildlife damage management, we request that Congress 
appropriate $94 million to Wildlife Services in fiscal year 2013.
    A key budget line in Wildlife Service's operations is Methods 
Development, which funds the National Wildlife Research Center (NWRC). 
Much of the newest research critical to State wildlife agencies is 
being performed at NWRC. In order for State wildlife management 
programs to be the most up-to-date, the work of the NWRC must continue. 
We recommend funding Methods Development at $18 million in fiscal year 
2013.
National Institute of Food and Agriculture
    The Renewable Resources Extension Act (RREA) provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of four to one, with a focus on private landowners. The need for RREA 
educational programs is greater than ever because of continuing 
fragmentation of land ownership, urbanization, diversity of landowners 
needing assistance, and increasing societal concerns about land use and 
increasing human impacts on natural resources. The Wildlife Society 
recommends that the Renewable Resources Extension Act be funded at $10 
million.
    The McIntire-Stennis Cooperative Forestry Program is essential to 
the future of resource management on non-industrial private forestlands 
while conserving natural resources, including fish and wildlife. As the 
demand for forest products grows, privately held forests will be 
increasingly needed to supplement supplies obtained from national 
forest lands. However, commercial trees take many decades to produce. 
In the absence of long-term research, such as that provided through 
McIntire-Stennis, the Nation might not be able to meet future forest-
product needs as resources are harvested. We appreciate the $33 million 
in funding allocated in the fiscal year 2012 appropriations process and 
urge that amount to be continued in fiscal year 2013.
Natural Resources Conservation Service
    Farm bill conservation programs are more important than ever, given 
the huge backlog of qualified applicants, increased pressure on 
farmland from biofuels development, urban sprawl, and the concurrent 
declines in wildlife habitat and water quality. The Natural Resources 
Conservation Service (NRCS), which administers many farm bill 
conservation programs, is one of the primary Federal agencies ensuring 
our public and private lands are made resilient to climate change. NRCS 
does this through a variety of programs that are aimed at conserving 
land, protecting water resources, and mitigating effects of climate 
change.
    One key program within the overall NRCS discretionary budget is 
Conservation Operations. The total fiscal year 2013 request for 
Conservation Operations is $828 million, level with fiscal year 2012 
but down from $871 million in fiscal year 2011. Conservation 
Operation's Technical Assistance (TA) subactivity provides funding for 
NRCS to support implementation of the various farm bill programs. The 
fiscal year 2013 budget recommends level funding for TA, which is a 
decrease of $26 million from the fiscal year 2011 level of $755 
million. The Wildlife Society encourages you to return funding for TA 
to the fiscal year 2011 level of $755 million.
    Overall, The Wildlife Society believes more attention to TA 
delivery is needed. Changes in the 2008 farm bill greatly increased the 
number of conservation programs NRCS was required to support through 
delivery of TA. In addition, Congress expanded TA eligible activities 
in the 2008 farm bill to include conservation planning, education and 
outreach, assistance with design and implementation of conservation 
practices, and related TA services that accelerate conservation program 
delivery. TA will require funding levels from OMB that are more than 
what was historically allocated if NRCS is to fulfill congressional 
intent as expressed in the 2008 farm bill. Recently, Congress allowed 
the use of mandatory funds for TA and, under current economic 
conditions, The Wildlife Society believes that such funds must continue 
to be utilized for effective delivery to occur. The Wildlife Society 
urges Congress to authorize up to 30 percent of each mandatory 
program's funding for Technical Service Provider provisions as mandated 
by the 2008 farm bill and additional technical assistance to provide 
resources necessary to help meet NRCS TA shortfalls. Similarly, we 
strongly encourage Congress to explore new ways of funding technical 
assistance in fiscal year 2013 and beyond.
    The Wildlife Society also supports the continuation of funding for 
the Conservation Effects Assessment Project. Information gathered from 
this effort will greatly assist in monitoring accomplishments and 
identifying ways to further enhance effectiveness of NRCS programs.
    The Wildlife Society recommends farm bill conservation programs be 
funded at levels mandated in the 2008 farm bill. Demand for these 
programs continues to grow during this difficult economic climate at a 
time when greater assistance is needed to address natural resource 
challenges and conservation goals, including climate change, soil 
quality deficiencies, declining pollinator health, disease and invasive 
species, water quality and quantity issues, and degraded, fragmented 
and lost habitat for fish and wildlife.
    We would like to specifically highlight the Wildlife Habitat 
Incentive Program (WHIP), a voluntary program for landowners who want 
to improve wildlife habitat on agricultural, non-industrial, and Indian 
land. WHIP plays an important role in protecting and restoring 
America's environment, and is doubly important because it actively 
engages public participation in conservation. We appreciate the 
proposed increase in WHIP funding, to $73 million in fiscal year 2013 
from $50 million in fiscal year 2012, but would urge Congress to fully 
fund WHIP at $85 million.
    The Voluntary Public Access and Habitat Incentives Program was 
first authorized in the Food, Conservation, and Energy Act of 2008 
(2008 farm bill) for $50 million for fiscal year 2008-2012, and was 
administered by the Farm Service Agency. This funding has expired, and 
the fiscal year 2013 budget includes $5 million for the program within 
the NRCS budget. The Wildlife Society commends the administration for 
continuing to fund this program in fiscal year 2013. These funds will 
assist State and Tribal governments with needed resources to provide 
the public with additional outdoor opportunities. In addition, 
increased public access opportunities will help create jobs and 
stimulate rural economies. Continuity of program funding is critical to 
these programs that rely on landowner interest across multiple years.
Farm Service Administration
    The administration's request would increase funding for the 
Conservation Reserve Program (CRP) to $2.2 billion in fiscal year 2013, 
up from $2.07 billion in fiscal year 2012. This increase assumes a CRP 
enrollment of 6 million acres in 2012. The Wildlife Society applauds 
FSA efforts to have a 6 million acre general sign-up in 2012, and to 
more fully utilize CRP enrollment authority to address conservation 
needs. Lands enrolled in CRP are important for the conservation of soil 
on some of the Nation`s most erodible cropland. These lands also 
contribute to water quantity and quality, provide habitat for wildlife 
that reside on agricultural landscapes, sequester carbon, and provide a 
strategic forage reserve that can be tapped as a periodic compatible 
use in times when other livestock forage is limited due to drought or 
other natural disasters. We strongly encourage Congress to fund CRP at 
a level that fully utilizes program enrollment authority through CRP 
general sign-up. We are pleased with and support the general sign-up 
and target enrollment of 6 million acres FSA included in the fiscal 
year 2012 budget. However, we are concerned about the proposed 
reduction in the acreage cap from 32 million to 30 million.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation. Please feel free to contact Laura 
Bies, Director of Government Affairs, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97fbf6e2e5f6d7e0fefbf3fbfef1f2b9f8e5f0">[email&#160;protected]</a> if you need 
further information or have any questions.
                                 ______
                                 
                  Letter From the USA Rice Federation
                                                    March 30, 2012.
Hon. Herb Kohl, Chairman,
Hon. Roy Blunt, Ranking Member,
Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
Re: USA Rice Federation's Fiscal Year 2013 Agriculture Appropriations 
        Requests

    Dear Chairman Kohl and Ranking Member Blunt: This is to convey the 
rice industry's requests for fiscal year 2013 funding and related 
policy issues for selected programs under the jurisdiction of your 
subcommittee. The USA Rice Federation appreciates your assistance in 
making this letter a part of the hearing record.
    The USA Rice Federation is the global advocate for all segments of 
the U.S. rice industry with a mission to promote and protect the 
interests of producers, millers, merchants, and allied businesses. USA 
Rice members are active in all major rice-producing States: Arkansas, 
California, Florida, Illinois, Kentucky, Louisiana, Mississippi, 
Missouri, Tennessee, and Texas. The USA Rice Producers' Group, the USA 
Rice Council, the USA Rice Millers' Association, and the USA Rice 
Merchants' Association are members of the USA Rice Federation. The rice 
industry annually supports about 128,000 jobs and more than $34 billion 
of economic output nationally.
    USA Rice understands the budget constraints the subcommittee faces 
when developing the fiscal year 2013 appropriations bill. We appreciate 
your past support for initiatives that are critical to the rice 
industry and look forward to working with you to meet the continued 
needs of research, food aid, and market development in the future.
    A healthy U.S. rice industry is also dependent on the program 
benefits offered by the Farm Bill. Therefore, we oppose any attempts to 
modify the farm-safety-net support levels provided by this vital 
legislation through more restrictive payment limitations or other means 
and encourage the subcommittee and committee to resist such efforts 
during the appropriations process, especially given that the 2008 Farm 
Bill will be debated and reauthorized this year, is paid for, and 
represents a five-year contract with America's producers. USA Rice also 
strongly opposes reducing the farm-safety net to appropriate funds for 
other Federal programs. We urge that the President's fiscal year 2013 
legislative proposals be rejected that would eliminate farm-bill 
commodity programs, change crop-insurance provisions, and reduce 
conservation-program funding. We also urge that the Natural Resources 
Conservation Service technical-assistance user-fee proposal be 
rejected.
    A list of the programs the USA Rice Federation supports for 
appropriations in fiscal year 2013 are as follows:
                             market access
    Exports are critical to the U.S. rice industry. About 50 percent of 
the U.S. crop is exported annually in a highly competitive world-rice 
market. Those directly involved in U.S. rice exports contributed $6 
billion in output and supported more than 14,000 jobs. The Market 
Access Program (MAP) and Foreign Market Development (FMD) Program play 
key roles in helping to promote U.S. rice sales overseas. USA Rice 
Federation industry members spend $4 in matching funds for each $1 of 
FAS funds received. The USA Rice Federation uses MAP and FMD funding in 
over 20 markets to conduct successful export-market-development 
initiatives.
    The Foreign Market Development Program allows USA Rice to focus on 
importer, foodservice, and other non-retail promotion activities around 
the world. This program should be fully funded for fiscal year 2013 at 
the authorized level of $34.5 million.
    The Market Access Program (MAP) allows USA Rice to concentrate on 
consumer promotion and other activities for market expansion around the 
world. This program should also be fully funded for fiscal year 2013 at 
the authorized level of $200 million.
    In addition, the Foreign Agricultural Service should be funded to 
the fullest degree possible to ensure adequate support for trade-policy 
initiatives and oversight of export programs. These programs are 
critical for the economic health of the U.S. rice industry.
                                food aid
    Food-aid sales historically account for an important portion of 
U.S. rice exports. We urge the subcommittee to fund Public Law 480 
Title I. No Title I funding has been provided since fiscal year 2006. 
At a minimum, fiscal year 2013 funding should be the same as 2006. 
Public Law 480 Title I is our top food-aid priority and we support 
continued funding in order to meet international demand.
    For Public Law 480 Title II, we strongly support funding Title II 
up front at the fully authorized $2.5 billion level, which would help 
to make possible satisfying the 2.5 million MT amount required by 
statute. We encourage the subcommittee to fund Title II at the higher 
level to ensure consistent tonnage amounts for the rice industry. We 
strongly oppose any shifting of Title II funds, which have 
traditionally been contained within USDA's budget.
    We believe all U.S. food-aid funds should continue to be used for 
food-aid purchases of rice and other commodities from only U.S. origin.
    USA Rice supports continued funding at fiscal year 2006 levels, at 
a minimum, for the Food for Progress Program's Public Law 480 Title I-
sourced funding. For the program's Commodity Credit Corporation funding 
component, USDA's fiscal year 2013 budget estimate of $170 million is 
requested. Funding for this program is important to improve food 
security for food-deficit nations.
    The McGovern-Dole International Food for Education and Child 
Nutrition Program is a proven success and it is important to provide 
steady, reliable funding for multi-year programming. USA Rice supports 
funding at the $300 million level for this education initiative because 
it efficiently delivers food to its targeted group, children, while 
also encouraging education, a primary stepping-stone for populations to 
improve economic conditions.
                                research
    U.S. agricultural-research needs are great and the challenges are 
plentiful. USA Rice strongly supports funding for the core-capacity 
programs at land-grant institutions, USDA's intramural-research 
activities, and the National Institute of Food and Agriculture and its 
Agriculture and Food Research Initiative at levels that would continue 
the commitment to strong agricultural research by and through USDA.
  farm service agency, risk management agency, and natural resources 
                          conservation service
    We encourage the subcommittee to provide adequate funding so the 
agencies can deliver essential programs and services, including for 
improved computer hardware and software. Our members fear a serious 
reduction in service if sufficient funds are not allocated.
    Please feel free to contact us if you would like further 
information about the programs we have listed. Additional background 
information is available for all of the programs we have referenced; 
however, we understand the volume of requests the subcommittee receives 
and have restricted our comments accordingly.
    Thank you for your consideration of our recommendations.
            Sincerely,
                                             Reece Langley,
                                Vice President, Government Affairs.
                                 ______
                                 
           Prepared Statement of the Wisconsin Walnut Council
    Mister Chairman, Ranking Member and Members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. I am 
writing to share my concerns regarding a recently recognized Thousand 
Cankers Disease (TCD) that poses an enormous economic and ecological 
risk to our Nation's black walnut resources. Over the past decade, TCD 
has caused the death of millions of black walnut trees in nine western 
States (Arizona, California, Colorado, Idaho, Oregon, New Mexico, 
Nevada, Utah, and Washington) and recently has been discovered in the 
native walnut range (Tennessee, Virginia and Pennsylvania). The USDA-
APHIS has estimated the standing value of walnut timber as being $539 
Billion. This does not include potential loss of: Jobs related to 
logging, transportation, and domestic milling; derivatives of the 
domestic milling industry to make veneer and lumber for furniture, 
cabinetry, paneling, flooring, and gun stocks; export market accounts 
for about 60 percent of the harvested logs; and nuts are shelled into 
nutmeats and the shells are processed for many industrial uses.
    The negative economic impacts of TCD will be felt by private 
landowners with immature walnut timber and by home owners with millions 
of walnut trees in residential areas of the Midwest and Eastern States. 
It will be any ugly site and very expensive to safely remove all the 
walnut trees as they succumb to TCD over the next couple of decades if 
this disease is not contained, suppressed, and locally eradicated. 
Research efforts to date have been limited to monitoring, ecological 
studies of the walnut twig beetle, epidemiology of the fungal pathogen, 
and development of phyto-sanitation treatment of walnut logs harvested 
in quarantined areas. Insecticide and fungicide application is not 
feasible or practical as a means of controlling the spread of TCD. 
Development of biological insect control of the walnut twig beetle is 
expected to be the most effective and feasible technique in stopping 
the advancement of TCD through the native range of black walnut.
    While States are attempting to stop the spread of TCD through 
surveys and quarantines, greater Federal assistance and funding are 
needed. I request dedicated funding be allocated to the USDA-ARS for 
leadership in the development of biological insect control techniques 
of the walnut twig beetle and to the USDA-FS for continued efforts in 
monitoring for TCD for fiscal year 2013.
What Is TCD?
    TCD is a recently recognized disease in which a tiny walnut twig 
beetle (Pityophthorus juglandis) spreads a fungal organism (Geosmithia 
morbida) that causes cankers under the bark which prevents nutrient 
flow to the foliage leading to dieback of branches and ultimately death 
to the tree. While the walnut twig beetle advances only a mile or two 
per year, humans are the vector that spread TCD great distances within 
days by hauling walnut slabs with fresh bark attached that harbor the 
tiny beetles and fungal spores. Such shipments are believed to be the 
reason TCD moved into the native walnut range from the western States. 
Movement of firewood, logs, stumps, and burls with fresh bark attached 
can spread the disease great distances.
Need for Greater Federal Funding and Specific Directives
    The USDA-APHIS considers both the walnut twig beetle and the fungal 
pathogen to be indigenous to the USA (historical evidence shows them to 
reside on a different walnut species in Arizona and New Mexico). Since 
neither is considered exotic to the USA, APHIS is not productively 
serving any role in combating TCD.
    Federal funding needs to be directed to the USDA-ARS to lead 
research and development of techniques that will contain, suppress, or 
potentially locally eradicate the walnut twig beetle. Additional 
funding needs to be directed to the USDA-FS for continued effort in 
monitoring and development of phyto-sanitization treatment of walnut 
logs harvested in quarantined areas.
    I thank the committee for this opportunity to provide testimony on 
this important subject. Please do not hesitate to contact me if you 
should require additional information.
                                 ______
                                 
            Letter From the Wyoming State Engineer's Office
                                   Herschler Building, 4-E,
                                 Cheyenne, Wyoming, March 29, 2012.
Hon. Herb Kohl, Chairman,
Hon. Roy Blunt, Ranking Member,
Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
Re: Support for Designation to the Colorado River Basin Salinity 
        Control Program of Not Less Than $18 Million of the Total 
        Environmental Quality Incentives Program (EQIP) Funding 
        Recommended in the President's Fiscal Year 2013 Budget

    Dear Chairman Kohl and Ranking Member Blunt: This letter is sent in 
support of the designation of $18 million of the fiscal year 2013 
Environmental Quality Incentive Program (EQIP) funding for the 
Department of Agriculture's (USDA's) Colorado River Salinity Control 
(CRSC) Program. Realizing that agricultural on-farm strategies \1\ 
provided some of the most cost-effective strategies to control 
salinity, the Congress in 1984 directed the USDA to implement its CRSC 
Program. Since enactment of the Federal Agriculture Improvement and 
Reform Act of 1996 (FAIRA; Public Law 104-127), the USDA's CRSC Program 
is a component program within EQIP. Wyoming views the inclusion of the 
CRSC Program in EQIP as a congressional recognition of the Federal 
obligation and commitment to maintaining the EPA-adopted, basin-wide 
water quality standards for salinity in the Colorado River. The USDA 
has played a vital role in meeting that commitment over the past 25 
years we have observed and encouraged Agriculture's efforts effectively 
reducing salt loading into the Colorado River system through proven and 
cost-effective irrigation water application and management practices. 
Each of the seven Colorado River Basin States, acting collectively 
through the Colorado River Basin Salinity Control Forum, have actively 
assisted the U.S. Department of Agriculture in implementing its unique, 
collaborative and important program.
---------------------------------------------------------------------------
    \1\ These strategies include reducing deep percolation of 
irrigation water through salt-bearing shale formations below farmlands 
across the Upper Colorado River Basin through improving irrigation 
water application efficiency by changing from flood and furrow 
irrigation methods to gated pipe, side-roll sprinkler and center-pivot 
sprinkler and low-energy, precision application (LEPA) irrigation 
practices.
---------------------------------------------------------------------------
    Established in 1973, the seven State Colorado River Basin Salinity 
Control Forum coordinates with the Federal Government on the 
maintenance of the basin-wide Water Quality Standards for Salinity in 
the Colorado River System. The Forum is composed of gubernatorial 
representatives and serves as a liaison between the seven States and 
the Secretaries of the Interior and Agriculture and the Administrator 
of the Environmental Protection Agency. The Forum advises the Federal 
agencies on the progress of efforts to control the salinity of the 
Colorado River. Its annual recommendation process includes suggesting 
to the Department of Agriculture the funding amount the Forum believes 
USDA should expend in the subsequent 2 years for its CRSC Program. The 
combined efforts of the Basin States, the Bureau of Reclamation and the 
USDA have resulted in one of the Nation's most successful nonpoint 
source control programs.
    The Colorado River provides municipal and industrial water for 
nearly 33 million people and irrigation water to approximately 4 
million acres of land in the United States. The River is also the water 
source for some 3 million people and 500,000 acres in Mexico. The high 
concentration of total dissolved solids (e.g., the water's salinity 
concentration) in the water limits users' abilities to make the 
greatest use of this water supply. This remains a major issue and 
continuing concern in both the United States and Mexico. The water's 
salinity concentration especially affects agricultural, municipal, and 
industrial water users. The Bureau of Reclamation presently estimates 
direct and computable salinity-related damages in the United States 
amount to more than $300 million per year.
    At its recent October 2012 meeting, the Forum recommended that the 
USDA CRSC Program expend not less than $18 million of the Environmental 
Quality Incentive Program's funding. In the Forum's judgment, this 
funding is necessary to implement one of the most successful Federal/
State cooperative nonpoint source pollution control programs in the 
United States.
    The State of Wyoming greatly appreciates the Subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
continue to believe this important basin-wide water quality improvement 
program merits support by your Subcommittee. We request that your 
Subcommittee direct the allocation of $18 million of the Environmental 
Quality Incentives Program funding for the USDA's CRSC Program during 
fiscal year 2013. Thank you in advance for your consideration and this 
statement's inclusion in the record for 2013 appropriations.
            Respectfully submitted,
                                        Patrick T. Tyrrell,
                                            Wyoming State Engineer,
                                      Member, Colorado River Basin,
                                            Salinity Control Forum.
                                               Dan S. Budd,
                                    Interstate Stream Commissioner,
                                      Member, Colorado River Basin,
                                            Salinity Control Forum.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
